<html>
<title> - SCIENTIFIC AND TECHNICAL ADVICE FOR THE U.S. CONGRESS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                    SCIENTIFIC AND TECHNICAL ADVICE
                         FOR THE U.S. CONGRESS

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 25, 2006

                               __________

                           Serial No. 109-57

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science

                                 ______




                    U.S. GOVERNMENT PRINTING OFFICE
28-757                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               SHEILA JACKSON LEE, Texas
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
J. RANDY FORBES, Virginia            BRIAN BAIRD, Washington
JO BONNER, Alabama                   JIM MATHESON, Utah
TOM FEENEY, Florida                  JIM COSTA, California
RANDY NEUGEBAUER, Texas              AL GREEN, Texas
BOB INGLIS, South Carolina           CHARLIE MELANCON, Louisiana
DAVE G. REICHERT, Washington         DENNIS MOORE, Kansas
MICHAEL E. SODREL, Indiana           DORIS MATSUI, California
JOHN J.H. ``JOE'' SCHWARZ, Michigan
MICHAEL T. MCCAUL, Texas
MARIO DIAZ-BALART, Florida


                            C O N T E N T S

                             July 25, 2006

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............     6
    Written Statement............................................     7

Statement by Representative Bart Gordon, Minority Ranking Member, 
  Committee on Science, U.S. House of Representatives............     7
    Written Statement............................................     8

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............     9

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science, U.S. House of Representatives....     9

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Committee on Science, U.S. House of Representatives............     9

                                Panel I:

The Hon. Rush Holt, a Representative in Congress from the State 
  of New Jersey
    Oral Statement...............................................    10
    Written Statement............................................    12
    Biography....................................................    14

Discussion.......................................................    15

                               Panel II:

Dr. Jon M. Peha, Professor, Departments of Engineering and Public 
  Policy and Electrical and Computer Engineering, Carnegie Mellon 
  University
    Oral Statement...............................................    19
    Written Statement............................................    20
    Biography....................................................    28
    Financial Disclosure.........................................    29

Dr. Albert H. Teich, Director of Science and Policy Programs, 
  American Association for the Advancement of Science
    Oral Statement...............................................    29
    Written Statement............................................    31
    Biography....................................................    34
    Financial Disclosure.........................................    35

Dr. Peter D. Blair, Executive Director, Division on Engineering 
  and Physical Sciences, National Academy of Sciences
    Oral Statement...............................................    36
    Written Statement............................................    38
    Biography....................................................    47
    Financial Disclosure.........................................    47

Dr. Catherine T. Hunt, President-Elect, American Chemical 
  Society; Leader for Technology Partnerships, Rohm and Haas 
  Company
    Oral Statement...............................................    48
    Written Statement............................................    49
    Biography....................................................    51
    Financial Disclosure.........................................    53

Discussion.......................................................    54

             Appendix 1: Answers to Post-Hearing Questions

The Hon. Rush Holt, a Representative in Congress from the State 
  of New Jersey                                                      73

Dr. Jon M. Peha, Professor, Departments of Engineering and Public 
  Policy and Electrical and Computer Engineering, Carnegie Mellon 
  University                                                        318

Dr. Albert H. Teich, Director of Science and Policy Programs, 
  American Association for the Advancement of Science               319

Dr. Peter D. Blair, Executive Director, Division on Engineering 
  and Physical Sciences, National Academy of Sciences               320

Dr. Catherine T. Hunt, President-Elect, American Chemical 
  Society; Leader for Technology Partnerships, Rohm and Haas 
  Company                                                           322

             Appendix 2: Additional Material for the Record

Statement of the Institute of Electrical and Electronics 
  Engineers-United States of America (IEEE-USA)..................   324

Technology Assessment in Congress: History and Legislative 
  Options, CRS Report for Congress, Genevieve J. Knezo, 
  Specialist in Science and Technology Policy, Resources, 
  Science, and Industry Division.................................   327

Scientific Advice for Policy in the United States: Lessons From 
  the National Academies and the Former Congressional Office of 
  Technology Assessment, Peter D. Blair, Executive Director, 
  Division on Engineering and Physical Sciences, National Academy 
  of Sciences....................................................   333


         SCIENTIFIC AND TECHNICAL ADVICE FOR THE U.S. CONGRESS

                              ----------                              


                         TUESDAY, JULY 25, 2006

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:09 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert [Chairman of the Committee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                     Science and Technology Advice

                         for the U.S. Congress

                         tuesday, july 25, 2006
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Tuesday, July 25, 2006, the Committee on Science of the U.S. 
House of Representatives will hold a hearing to examine how Congress 
receives advice about science, and whether and how the mechanisms for 
providing that advice need to be improved.

2. Witnesses

Panel 1:

The Honorable Rush Holt is the Representative from the 12th District of 
New Jersey.

Panel 2:

Dr. Jon Peha is a Professor in the Department of Engineering and Public 
Policy and Electrical and Computer Engineering at Carnegie Mellon 
University. He also was the co-editor with M. Granger Morgan of Science 
and Technology Advice for Congress, a compilation of policy papers 
evaluating existing systems and providing recommendations for science 
and technology advice for the legislative branch.

Dr. Al Teich is the Director of Science and Policy Programs at the 
American Association for the Advancement of Science (AAAS). He is also 
the author of Technology and the Future, a collection of papers on how 
technology and society interact.

Dr. Peter Blair is the Executive Director of the Division on 
Engineering and Physical Sciences at the National Academy of Sciences. 
He previously served as Assistant Director of the Office of Technology 
Assessment.

Dr. Catherine Hunt is the President-elect of the American Chemical 
Society and the Leader for Technology Partnerships (Emerging 
Technologies) at the Rohm and Haas Company. She is a member of the 
Executive Board of the Council for Chemical Research.

3. Overarching Questions

    The hearing will address the following overarching questions:

        1.  What resources are available to Congress to provide 
        scientific and technical advice or assessments? How does 
        Congress use these resources?

        2.  What are the strengths and weaknesses of the current system 
        through which Congress receives scientific and technical 
        advice? Overall, does the current system effectively meet 
        Congress' needs, or do gaps exist?

        3.  What options are available to supplement or improve 
        existing resources to provide advice and assessments on 
        scientific or technical issues?

4. Brief Overview

        <bullet>  Congress currently receives information and advice on 
        science and technology issues from, among others, the National 
        Academy of Sciences (NAS) and the Congressional Research 
        Service (CRS), science and engineering professional societies, 
        interest groups and think tanks. Additionally, some 
        Congressional offices employ staff with scientific backgrounds.

        <bullet>  From 1972 to 1995, the Office of Technology 
        Assessment (OTA), a Congressional support office, prepared 
        reports at Congressional request on science and technology 
        issues. In 1995, funding for OTA was eliminated.

        <bullet>  Reports from scientific groups and experts released 
        in recent years have criticized the lack of a dedicated source 
        of scientific and technical advice and assessment for Congress. 
        They argue that the resources currently available do not always 
        provide Congress with in-depth analysis, including analysis of 
        multiple policy options, in a form and on a schedule that is 
        useful to legislators.

        <bullet>  Congressional advocates of creating (or recreating) a 
        Congressional entity for science advice responded to this 
        criticism, in part, by creating a pilot project within the 
        General Accounting Office (GAO) to provide advice on specific 
        issues. The Legislative Branch appropriation in fiscal years 
        2002-2004. GAO has completed four assessments as a result--one 
        each on biometrics, cyber security, wildland fires and cargo 
        security.

        <bullet>  Advocates of an expanded scientific and technical 
        assessment capability to support the Legislative Branch have 
        proposed several options, including: (1) augmenting the 
        capabilities of existing Congressional agencies, (2) expanding 
        the use of the National Academy of Sciences, (3) increasing the 
        number of privately-sponsored Congressional science and 
        engineering fellows, (4) establishing a small Congressional 
        office that would farm Members' requests for information out to 
        expert non-governmental organizations, or (5) chartering a non-
        governmental organization dedicated to providing science advice 
        and technology assessment for Congress.

5. Background

History of the Office of Technology Assessment
    Congress created the Office of Technology Assessment (OTA) in 1972 
to aid Congress ``in the identification and consideration of existing 
and probable impacts of technological application.'' \1\ All technology 
assessments conducted by the office were approved by the Technology 
Assessment Board, a bipartisan body made up of six Senators and six 
Representatives. Assessments could be requested by a committee chair, 
the ranking minority member of a committee, the majority of members in 
a committee, the Technology Assessment Board, or the director of OTA.
---------------------------------------------------------------------------
    \1\ OTA was created by the Technology Assessment Act of 1972 (P.L. 
92-484).
---------------------------------------------------------------------------
    Funding for OTA was eliminated in 1995 as part of an effort to 
reduce size of the federal budget and the Congressional budget and 
bureaucracy. Proponents of eliminating OTA also argued that OTA reports 
took over a year to complete (as do many National Academy reports) and, 
therefore, were not available to legislators in a timeframe that was 
useful to them, and that Congress would be able to obtain similar 
advice from NAS, CRS, and GAO. Also, some Members felt that some of the 
reports produced by OTA were not pertinent to the legislative agenda or 
reflected a political bias.

GAO pilot program in technology assessments
    The Fiscal Year 2002 (FY 2002) Legislative Branch Appropriations 
Conference Report allocated $500,000 to GAO to conduct a study as part 
of a pilot project in technology assessment. The resulting report, 
released in November 2002, was entitled Using Biometrics for Border 
Security.\2\ FY 2003 and FY 2004 appropriations reports contained 
similar allocations, and GAO completed another technology assessment in 
May 2004--Cyber Security for Critical Infrastructure Protection.\3\ GAO 
completed the pilot project with two other technology assessments--
Protecting Structures and Improving Communications During Wildland 
Fires, released in 2005, and Securing the Transport of Cargo 
Containers, released in 2006.
---------------------------------------------------------------------------
    \2\ Using Biometrics for Border Security, Report GAO-03-174, is 
available on-line at http://www.gao.gov/new.items/d03174.pdf.
    \3\ Cyber Security for Critical Infrastructure Protection, Report 
GAO-04-321, is available on-line at http://www.gao.gov/new.items/
d04321.pdf.
---------------------------------------------------------------------------
    In addition to providing funds for these pilot technology 
assessments, Congress requested two reviews of the pilot project's 
performance. Overall, the external review, completed in 2002, reflected 
very favorably on GAO's performance. The reviewers found that GAO did a 
``very good job'' given the constraints--a very short timescale for the 
assessment and no previous experience with conducting technology 
assessments. However, the reviewers also noted that GAO has few staff 
with adequate knowledge and experience of broad scientific and 
technical issues necessary to evaluate a range of policy options.

6. Proposals for Improving Science Advice to Congress

    Over the past several years, numerous proposals have been offered 
for improving Congress' access to science advice and technology 
assessment through legislation and policy recommendations. Bills to 
directly re-establish the Office of Technology Assessment were 
introduced in the 107th and 108th Congresses. Additionally, legislation 
to create new Congressional agencies responsible for providing non-
partisan scientific and technical advice has been introduced. In June 
2004, Congressman Holt introduced H.R. 4670, which would build upon the 
pilot project at GAO by establishing within GAO a Center for Scientific 
and Technical Assessment. (That bill has not been re-introduced.) The 
Center would be dedicated to providing Congress with information, 
analysis, and advice on issues related to science and technology. In 
the Senate, Senator John Kerry introduced S. 1716 in 2001, in which 
Section 153 created a Science and Technology Assessment Service to 
provide ongoing independent science and technology advice ``. . 
.within. . .the legislative branch.'' Assessments would have been 
conducted using experts selected in consultation with the National 
Academy of Sciences.
    Science and Technology Advice for Congress, a collection of essays 
by various authors, analyzes a number of potential means for expanding 
the scientific and technical assessment capability for the Legislative 
Branch. In addition to legislating mandating the creation of a 
dedicated Congressional support office in this area, authors 
representing groups such as AAAS, NAS, and various universities suggest 
improving the access to and responsiveness of private organizations 
capable of providing expert advice. One recommendation is to establish 
a cadre of private organizations who are prepared to quickly respond to 
questions distributed by a central office in Congress with knowledge of 
their areas of expertise. Another suggestion involves expanding the 
role of privately-sponsored Congressional science fellows by increasing 
the number of fellows available for employment in Congressional offices 
and better preparing them to deal with policy issues that arise in 
these positions. The editors, Morgan and Peha, note that ``any analysis 
process must continuously work to build widespread support among 
members on a bipartisan, bicameral basis, so that when conflicts arise. 
. .support for the analysis institution remains firm.'' \4\
---------------------------------------------------------------------------
    \4\ Morgan and Peha, 103.
---------------------------------------------------------------------------

7. Questions for the Witnesses

        <bullet>  What resources are available to Congress to provide 
        scientific and technical advice or assessments? How does 
        Congress use these resources?

        <bullet>  What are the strengths and weaknesses of the current 
        system through which Congress receives scientific and technical 
        advice, particularly with regard to depth and breadth, 
        timeliness, and impartiality? Overall, does the current system 
        effectively meet Congress' needs, or does a significant gap 
        exist?

        <bullet>  What options are available to supplement or improve 
        existing resources to provide assessments and advice on 
        scientific or technical issues?
    Chairman Boehlert. Good morning. I want to welcome everyone 
here to--for today's hearing on the vitally important topic of 
how Congress should get scientific advice. I want to thank Dr. 
Holt for urging us to have this hearing.
    We have an excellent panel of witnesses before us today, 
and I hope they will give us some specific ideas for how we 
might improve the mechanisms for providing science advice to 
the Congress. I think we need to get beyond the debate about 
reviving the Office of Technology Assessment.
    I must add I am a very strong defender of OTA, and I voted 
against defunding it, but the others didn't see the wisdom of 
the path that Dr. Holt and Dr. Ehlers and Dr. Bartlett and all 
our distinguished scientists were leading us down. 
Unfortunately, we didn't prevail. But OTA is not likely to be 
coming back any time soon.
    I also have to say, as a proponent of OTA, that the 
reaction to the loss of OTA has been somewhat disproportionate. 
If you listen to the scientific community, you might think that 
OTA was the only thing separating Congress from barbarianism. 
We do have plenty of current sources of information, 
particularly the National Academies, and boy, do they do 
wonderful work. So the question before us today is: what 
specific gaps exist, and how can they be filled?
    Also, much of the lament one hears about OTA's demise is 
really not a concern about what advice Congress is getting, but 
rather, about what decisions Congress is making when it gets 
that advice. So, it is important to remember that not all 
people will reach the same policy conclusions based on the same 
scientific information, even if they understand and accept that 
information.
    Perhaps the most dangerous fallacy in Washington is: ``If 
you knew what I know, you would think like I think.'' Let us 
not confuse policy differences with ignorance.
    Which is not to say that Congress does not sometimes 
display ignorance, sometimes willful ignorance. But that is not 
a problem of not receiving advice, it is a problem of not 
listening to it. To take one current example, a high profile 
example, I might add, the National Academy, a few weeks ago, 
released a clear, balanced, and thoughtful overview of the 
current understanding of global temperature over the past 1,000 
years. Some Members have taken that report to heart. Others are 
trying to distract from its conclusions by focusing on 
individual papers that have already been superseded. That is 
their right, but my only point here is that debate says nothing 
about the quality of information Congress is receiving.
    I like to tell people that I work in an institution, and in 
a town, where everybody likes to say they are for science-based 
decision-making, but when the overwhelming scientific consensus 
leads to a politically inconvenient conclusion, then they want 
to go to Plan B.
    Well, I look forward to hearing from our witnesses today, 
but in discussing what kinds of information science needs, let 
us make sure we are not confusing the availability of 
information with any other issues.
    With that, I am pleased to turn to Mr. Gordon.
    [The prepared statement of Chairman Boehlert follows:]

          Prepared Statement of Chairman Sherwood L. Boehlert

    I want to welcome everyone here for today's hearing on the vitally 
important topic of how Congress should get scientific advice, and I 
want to thank Mr. Holt for urging us to have this hearing.
    We have an excellent panel of witnesses before us today, and I hope 
they will give us some specific ideas for how we might improve the 
mechanisms for providing science advice to the Congress. I think we 
need to get beyond the debate about reviving the Office of Technology 
Assessment (OTA).
    I was a strong defender of OTA--and I voted against defunding it--
but OTA is not likely to be coming back any time soon.
    I also have to say, as a proponent of OTA, that the reaction to the 
loss of OTA has been somewhat disproportionate. If you listen to the 
scientific community, you might think that OTA was the only thing 
separating Congress from barbarism. We do have plenty of current 
sources of information, particularly the National Academies, so the 
question before us today is: what specific gaps exist and how can they 
be filled?
    Also, much of the lament one hears about OTA's demise is really not 
a concern about what advice Congress is getting, but rather about what 
decisions Congress is making. So it's important to remember that not 
all people will reach the same policy conclusion based on the same 
scientific information--even if they understand and accept that 
information.
    Perhaps the most dangerous fallacy in Washington is: ``If you knew 
what I know, you'd think like I think.'' Let's not confuse policy 
differences with ignorance.
    Which is not to say that Congress does not sometimes display 
ignorance, sometimes willful ignorance. But that's not a problem of not 
receiving advice; it's a problem of not listening to it. To take one 
current example, the National Academy a few weeks ago released a clear, 
balanced and thoughtful overview of the current understanding of global 
temperature over the past 1,000 years. Some Members have taken that 
report to heart; others are trying to distract from its conclusions by 
focusing on individual papers that have already been superseded. That's 
their right, but my only point here is that the debate says nothing 
about the quality of the information Congress is receiving.
    So I look forward to hearing from our witnesses today. But in 
discussing what kinds of information science needs, let's make sure 
we're not confusing the availability of information with any other 
issues.
    Mr. Gordon.

    Mr. Gordon. Thank you, Mr. Chairman, and thank you for 
scheduling a hearing on this important topic of science and 
technology advice to the Committee, and we are particularly 
pleased that Congressman Dr. Holt is among our witnesses, and 
thank you for being here, Rush. You lend a particular dual role 
to this hearing.
    We appreciate your leadership on this topic, and are 
pleased to join you in seeking better ways to incorporate the 
best available scientific and engineering knowledge to our 
legislative activities.
    It was over 40 years ago that the Science Committee first 
addressed the topic of science advice to Congress. Congressman 
Mim Daddario, a Member of the Committee, a charter Member of 
this committee, and Republican Chuck Mosher co-authored the 
legislation that created the Office of Technical Assessment.
    It was Charles Lindbergh who got Congressman Daddario 
focused on technology assessment. In the early 1960s, Lindbergh 
was concerned that the Earth was heading for disaster, unless 
the balance between science and ecology were properly adjusted. 
Does my friend from California, Mr. Rohrabacher, think that 
this sounds familiar?
    Mr. Rohrabacher. Well, I certainly do respect Mr. 
Lindbergh.
    Mr. Gordon. Lindbergh felt Congress needed specialized 
scientific expertise to analyze this and other tough problems. 
Daddario and Lindbergh continued to talk about technology 
assessment for several years. During the 1960s, the Committee 
had many hearings, and issued several reports on science advice 
to the Congress that paved the way for legislation creating OTA 
in the early 1970s.
    In the early '70s, the legislation that established OTA was 
reported unanimously by the Committee on Science. The Committee 
leadership then worked bipartisanly to get the bill through the 
House and Senate.
    During its twenty years of operation, OTA created 700 
reports on the science and technology behind issues of 
importance to Congress.
    We could use a service like OTA today, since relatively few 
Members of Congress have formal training and experience as 
scientists and engineers, and since much of the information we 
receive comes from advocates selling their points of view.
    In the years since OTA, we have had an increasingly 
difficult time of reaching consensus on a wide variety of these 
topics. We certainly could use in-house help in sorting through 
conflicting expert opinion.
    I therefore look forward to the testimony of today's 
experts, and to taking the first steps toward improving the way 
in which Congress receives and uses scientific and technical 
advice.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Gordon follows:]

            Prepared Statement of Representative Bart Gordon

    Mr. Chairman, thank you for scheduling a hearing on the important 
topic of science and technology advice to the Committee and for 
including Congressman Holt among the witnesses.
    We appreciate your leadership on this topic and are pleased to join 
you in seeking better ways to incorporate the best available scientific 
and engineering knowledge into our legislative activities.
    It was over 40 years ago that the Science Committee first addressed 
the topic of science advice to Congress. Democrat Mim Daddario, a 
charter Member of our committee, and Republican Chuck Mosher co-
authored the legislation that created the Office of Technology 
Assessment.
    It was Charles Lindbergh who got Congressman Daddario focused on 
technology assessment. In the early 1960s, Lindbergh was concerned that 
the Earth was heading for disaster unless the balance between science 
and ecology were properly adjusted.
    Lindbergh felt Congress needed specialized scientific expertise to 
analyze this and other tough problems. Daddario and Lindbergh continued 
to talk about technology assessment for several years.
    During the 1960s, the Committee had many hearings and issued 
several reports on science advice to the Congress that paved the way 
for the legislation creating OTA in the early 1970s.
    In the early 1970s, the legislation establishing OTA was reported 
unanimously by the Committee on Science. The Committee leadership then 
worked bipartisanly to get the bill through the House and Senate.
    During its 20 years of operation, OTA created 700 reports on the 
science and technology behind issues of importance to Congress.
    We could use a service like OTA today since relatively few Members 
of Congress have formal training and experience as scientists and 
engineers and since much of the information we receive comes from 
advocates selling their points of view.
    In the years since OTA, we have had an increasingly difficult time 
of reaching consensus on a wide variety of these topics. We certainly 
could use in-house help in sorting through conflicting expert opinion.
    I look forward to the testimony of today's experts, and to taking 
the first steps towards improving the way in which Congress receives 
and uses scientific and technical advice.

    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good afternoon. I want to thank the witnesses for appearing before 
our committee to examine how Congress receives advice about science and 
discuss how this process can be improved.
    For over twenty years, the Office of Technology Assessment (OTA) 
prepared reports by Congressional request on science and technology 
issues. In 1995, funding for OTA was eliminated. Currently, Congress 
receives information and advice on science and technology issues from 
the National Academy of Sciences (NAS) and the Congressional Research 
Service (CRS), science and engineering professional organizations, 
interest groups and think tanks. In recent years, reports from 
scientific groups have raised concerns over the lack of scientific and 
technical advice and assessment for Congress.
    I am interested to hear from our witnesses what options are 
available to supplement or improve existing resources to provide advice 
and assessments on scientific and technical issues given recent 
concerns. I look forward to hearing from the panel of witnesses.

    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you, Mr. Chairman and Ranking Member. I would like to welcome 
today's witnesses and thank you for the perspective you will provide 
today.
    Congress relies on experts from the scientific research community 
to assess the needs of our national scientific enterprise. It is 
important to know how America ranks compared with other nations.
    Our competitive nature is what makes Americans, with our 
capitalistic society, one of the richest nations in the world. 
Americans are leaders.
    In order to maintain our cutting edge when it comes to technology 
matters, we lawmakers need a consistent and reliable source of unbiased 
advice.
    The National Academy of Sciences, the Congressional Research 
Service, professional societies, and think tanks are all examples of 
current advisors to Congress.
    It is interesting to hear your perspective on whether the way 
Congress receives its advice needs to be changed or even improved.
    Thank you, Mr. Chairman. I yield back the remainder of my time.

    [The prepared statement of Ms. Jackson Lee follows:]

        Prepared Statement of Representative Sheila Jackson Lee

    Mr. Chairman and Members of the Committee, I appreciate the fact 
that this hearing has been called today in order to re-examine the way 
in which Congress receives scientific and technological advice.
    I would like to thank my colleague Mr. Holt for his interest and 
commitment to addressing this issue, as well as the other witnesses for 
testifying today: Dr. Blair, Dr. Peha, Dr. Teich, and Dr. Hunt.
    As early as the 1950s, Members of Congress understood the 
importance not only of scientific and technological advice, but of 
even-handed ``Technology Assessment Board'' to explore and report on 
how technological advances would affect the environment. This lead to 
the creation of the Office of Technology Assessment in 1971.
    For those who utilized the studies and resources of the OTA, its 
benefits and value were never in question. Sadly, the agency was cut in 
1995 as part of a government-wide belt tightening, and Congress lost 
its most reliable and balanced science analysis tool.
    The Office of Technology Assessment can be compared to the other 
three remaining legislative branch research organizations: the 
Government Accountability Office, the Congressional Budget Office, and 
the Congressional Research Service. As well respected as these 
organizations are, none of the three have the infrastructure, staff, or 
expertise to conduct thorough scientific examinations into legislative 
proposals or impact analyses on public policy.
    Clearly, as we move into the 21st century, we will need 
increasingly sophisticated resources with which to develop the law of 
the land, and the public policy of our future. It is crucial that 
Congress make informed, intelligent, and evidence-based decisions in 
crafting this nation's energy, technology, and science policy. I hope 
that the hearing today will be able to further advise and inform us on 
how to proceed.
    Thank you Mr. Chairman, and I yield the balance of my time.

                                Panel I:

    Chairman Boehlert. Thank you very much, and now, we will 
hear from our first witness, the very distinguished witness, 
and a colleague with whom it is a pleasure to work, Dr. Rush 
Holt.

STATEMENT OF HON. RUSH HOLT, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW JERSEY

    Mr. Holt. Thank you, Mr. Chairman, and I thank you and Mr. 
Gordon for those good remarks.
    I know in this committee, you are accustomed to hearing 
testimony of astounding novelty about really path-breaking 
advances, but I often tell witnesses, when they are testifying 
before a Congressional committee, that they shouldn't 
underestimate the pleasure they give an audience by telling 
them something they already know. And in this case, I will talk 
about something that, at least if we are honest with ourselves, 
we already know, and that is that none of us in Congress either 
have the time, or in many cases, the ability to analyze 
scientific and technological advances, make reasoned, logical 
determinations about their direction and the impact on industry 
and on nations and on education, on our citizens. And yet, we 
vote on decisions about topics on a regular basis that include 
technical and scientific components. The connections to science 
and technology are not always obvious, especially to Members 
who avoid science and technology, which, I must say, are most 
Members. So, if we are honest with ourselves, we have to say we 
cannot do this alone.
    I will be brief, because we have some excellent people 
speaking after me, and I have read their testimony, I have 
talked with some of them, and I think we can learn a lot about 
what maybe we already know. Congress used to have an in-house 
professional office dedicated to providing technological 
assessment services. Mr. Gordon referred to Representative 
Daddario, for example, who helped set this up. And Congress 
received regular reports, in a legislatively relevant form, on 
such topics as agricultural technology, alternative fuels, arms 
control, banking, business and industry, communications, 
climate change, computer security, defense technology, economic 
development, education, energy efficiency, fishing, health, 
technology, international relations in technology transfer, 
natural disasters, nuclear energy, nuclear war and weapons, 
oceanography, oil, gas, mineral resources, transportation, yes, 
all of those things, on a regular basis.
    And Congress decided in 1995 that we didn't need an in-
house body dedicated to technological assessment. The 
technological assessment could come, we told ourselves--this 
was before my time here--could come through committee hearings, 
through CRS reports, through experts in our district, through 
think tanks, through the National Research Council and the 
National Academies.
    Now, you and I know that Members of Congress have a low 
comfort level with technology in general and are generally 
unable to probe beyond our personal understanding or the 
briefing books crafted by our staffers, but let us look at the 
history. In the ten years since we said that these various 
groups could provide the technical advice that we need, we have 
not gotten what we need in order to do the people's work. We 
should acknowledge that.
    Yes, there are organizations that separate us from the 
barbarians, as the Chairman has said, Congressional Research 
Service, the National Academies, institutions like Stanford or 
Carnegie Mellon or Princeton. We have organizations like the 
AAAS, the American Chemical Society.
    We do not suffer from a lack of information here on Capitol 
Hill, but from a lack of ability to glean the knowledge and to 
gauge the validity, the credibility, and the usefulness of the 
large amounts of information and advice that we receive.
    And there are real gaps in what Congress gets. We are not 
getting what we need, I would argue.
    But why is this of such importance to Congress? Why do we 
need a specialized in-house scientific and technical assessment 
organization or organ? Well, I can think of three what I would 
call compelling reasons. Science and technology pervade almost 
all of the issues before us. If you look at today's hearings in 
the House and the Senate, or yesterday's, or last week's, you 
will find a number of topics that are being considered that 
most Members of Congress don't even think of as technological 
issues, and yet, they have technological components. What we 
will have on the Floor this week, what we had on the Floor last 
week, had technological components that in many cases, were not 
considered fully.
    Secondly, the language and technologies are specialized and 
complex and require translation for Members and their staff. 
Third, Members think science and technology are for scientists 
and technologists, thus avoiding science and technology 
themselves. I think every Member of Congress is aware of the 
social, economic, moral, and political aspects of the issues 
before us, and in many cases, Members are good at analyzing 
those things. Not so with the scientific and technological 
aspects of the issues before us. Members duck those aspects, 
flee them, ignore them, or perhaps most often, march off 
oblivious to them.
    The Science Committee is of least concern. Most Members 
here recognize that the issues that come before you have 
technological components, and you get the help necessary. 
However, this may not be true for other committees, all of 
which, every one of which, handles topics that have some 
scientific and technological components, whether it is the 
Agriculture Committee, the Appropriations Committee, the 
Education and Workforce Committee, or on down the line.
    We need to fill the gaps in our science and technology 
advice. Technology has been studied extensively by scholars, 
some of whom we will hear from today, and the lessons are 
clear. The issues are too complex and the stakes are too high 
for us to try to wing it on issues like stem cell research or 
biofuels or technology transfer or healthcare. But if we are 
honest with ourselves, we should say that we actually don't 
even need scholars, however good today's witnesses are. We 
don't need scholars to tell us we need help. If we are honest 
with ourselves, we know it. We need a dedicated, in-house, 
permanently staffed organization to give us objective, 
nonpartisan advice on science and technology issues.
    We know it can be done. We have done it before, as a body. 
I hope we will find a way to do it again, and I thank the 
Chairman for leading us off on this.
    [The prepared statement of Mr. Holt follows:]

             Prepared Statement of Representative Rush Holt

    Mr. Chairman and Members of the Committee, I thank you for the 
opportunity to explore the state of science and technology advice and 
assessment for Congress. You each know my passion for this subject, and 
I appreciate the opportunity to speak with you on this matter today. I 
look forward to working with you on this critical topic in the future.
    To use a cliche, but to set the stage properly, our world is 
changing at an accelerated rate brought on by technology. The invention 
of the transistor in 1947 led to the development of the computer. 
DARPA, our own military R&D facility, invented the Internet, and in 
1989, a scientist at the Center for European Research in Nuclear 
Physics in Switzerland, invented the World Wide Web to meet the demand 
for automatic information sharing between scientists working at 
different locations around the world. Nothing has been the same since 
these advances; we all depend on our Blackberries and cell phones to 
keep appraised of the happenings of the world. However, technological 
advancements extend beyond communications into health care, education, 
transportation, intelligence and military activities, agriculture, 
environmental protection, as well as the very process of government 
from voting to judicial punishments, to agency record keeping. We see 
the effect of technological advances reverberate around the globe. The 
gap between industrialized nations and developing nations grows for 
some. Others nip at our heels to gain the world lead in one technology 
or another. Human interaction across the globe will never be the same, 
and it is hard to know where it is going. Yet, that is our job as 
Members of the United States House of Representatives. We were sent 
here by our constituents to lead our nation into the future, securing 
the livelihoods of each person we represent as well as protecting and 
maintaining the competitive edge of our nation in the emerging global 
knowledge economy.
    None of us in Congress have time to analyze scientific and 
technological advances and make reasoned, logical determinations of 
their direction and impact on industry, nations, and education, but we 
vote on decisions about topics on a regular basis that include 
technical or scientific components. The connections to science and 
technology are not always obvious, especially to Members who avoid 
science and technology, which are most Members. We cannot do this 
alone.
    Congress used to have an in-house professional office dedicated to 
providing technological assessment services. Congress received regular 
reports in a legislatively relevant form on such subjects as 
agriculture technology, alternative fuels, arms control, banking, 
business and industry, communications, climate change, computer 
security & technology, defense technology, economic development, 
education, energy efficiency, the fishing industry, health and health 
technology, international relations and technology transfer, natural 
disasters, nuclear energy, nuclear war & nuclear weapons, oceans and 
oceanography, oil, gas, and mineral resources, transportation, and 
waste management. Congress decided in 1995 that we did not need an in-
house body dedicated to technological assessment.
    The technical assessment could come, we told ourselves (before my 
time here), through committee hearings, CRS reports, experts in our 
district, think tanks, and the National Academy of Sciences. Now, you 
and I each know that Members of Congress have a low comfort level with 
technology and are generally unable to probe beyond our personal 
understanding or the briefing books crafted by our staffers. In the ten 
years since we said these various groups would provide the technical 
advice we need, we have not gotten what we need in order to do the 
people's work. We should acknowledge that.
    The Congressional Research Service does a good job of gathering the 
current information from a myriad of sources and presents the issues 
clearly in its reports. The GAO has taken upon itself to do some 
technical assessments. Some of us represent districts rich in 
scientific and technological expertise, in business, academia, or 
national laboratories and we informally or formally draw on the 
knowledge of our constituents. The National Academy of Sciences has the 
National Research Council, which completes studies for the Federal 
Government including recommendations of actions to be taken by the 
agency or branch of government. Some professional societies have 
started to reach out to Congress, and you will hear from the American 
Association for the Advancement of Science and the American Chemical 
Society today about what they do for Congress as far as technical or 
scientific advice or assessments.
    We do not suffer from a lack of information here on Capitol Hill, 
but from a lack of ability to glean the knowledge and to gauge the 
validity, credibility, and usefulness of the large amounts of 
information and advice received on a daily basis. Although we would 
like to believe that the scientific and technical advice and assessment 
provided from outside remains politically neutral, this is not 
necessarily the case. In general, groups tend to be slow in responding 
to real-time needs of Members of Congress or their staffers in terms of 
science and technology assessment or advice, they often do not know 
what is happening in the halls of Congress, and have their own agendas.
    There are real gaps in what Congress gets.
    We are not getting what we need.
    We need unbiased technical and scientific assessments in a 
Congressional time-frame by those who are familiar with the functions, 
the language, and the workings of Congress. We had this for twenty-
three years through the Office of Technology Assessment, commonly 
referred to as the OTA. Although the OTA had its detractors, the OTA 
was a part of the Legislative Branch of the U.S. Government and existed 
to serve the Congress in one manner: scientific and technical advice 
for Congress. The OTA was able to elaborate on the broader context of 
an issue and inform the policy debate with assiduous and objective 
analysis of the policy consequences of alternative courses of action. 
The OTA expounded on the various outcomes given particular policy 
choices, at times extending beyond a mere technical analysis. In 1995 
Congress defunded the OTA, and no group or combination of groups has 
been able to assume OTA's place as the provider of scientific and 
technical assessment and advice to Congress. To give you an idea, at a 
rapid glance at the list of the 703 reports produced by the OTA, there 
are dozens that are still relevant today. ``Potential Environmental 
Impacts of Bioenergy Crop Production,'' ``Innovation and 
Commercialization of Emerging Technologies,'' ``Retiring Old Cars: 
Programs to Save Gasoline and Reduce Emissions,'' ``Renewing Our Energy 
Future,'' and ``Testing in America's Schools: Asking the Right 
Questions,'' would all be OTA reports of use today.
    Why is this of such importance to Congress? Why do we need 
specialized, in-house scientific and technical assessments and advice? 
I can think of three compelling reasons: science and technology pervade 
almost all issues before us, including many that are not recognized 
explicitly as technology issues; the language and technologies are 
specialized and complex, and require translation for Members and their 
staff; and Members think science and technology are for scientists and 
technologists, thus avoiding science and technology themselves. Every 
Member is aware of the social, economic, moral, and political aspects 
of each of the issues before us. Not so with scientific and 
technological aspects of the issues before us. Members duck those 
aspects of the issues, flee them, ignore them, and, perhaps most often, 
march off oblivious to them.
    Decisions made about fisheries, biofuels, agricultural 
technologies, educational technologies, intellectual property rights, 
technology transfer, foreign aid, the health care system, and broadband 
communications, will determine the course of our nation. On the floor 
we recently have dealt with such issues as voting, missile defense, and 
net neutrality, each of which has technological components. This week 
we will vote on the ``U.S.-India Nuclear Cooperation Promotion Act,'' 
the ``Pension Protection Act,'' and the ``Carl D. Perkins Career and 
Technical Education Improvement Act,'' each with a technical 
component--some larger, some smaller, some obvious to Members, many not 
obvious. In the last few weeks, various committees have held hearings 
on subjects which contain scientific and technical components. The 
committees sometimes seem unaware that the subjects contain scientific 
and technological components. The Science Committee is of least 
concern; most Members recognize the technological aspects of the issues 
and get the help necessary. However, this may not be so true for other 
committees, all of which handle topics with scientific and technical 
components. For example, the Agriculture Committee recently held a 
hearing on ``Reviewing the Federal Farm Policy;'' the Appropriations 
Committee held a hearing on ``the Census;'' the Education and the 
Workforce Committee held a hearing on ``NCLB: Can Growth Models Ensure 
Improved Education for all Students;'' the Energy and Commerce 
Committee held a hearing on ``Expanding the Emergency Alert System;'' 
the Homeland Security Committee held a hearing asking ``Is Our Nation 
Prepared for a Public Health Disaster?;'' the Small Business Committee 
held a hearing on ``The Effects of the High Cost of Natural Gas on 
Small Business and Future Energy Technologies;'' and the House 
Administration Committee held a hearing on ``Voting System Standards.'' 
We lack the scientific and technological analysis of each topic. OTA 
could have provided this.
    We, each day when we cast our vote, are deciding the future of our 
nation; we are deciding the future for our children, our grandchildren, 
and our great-grandchildren. We are creating a legacy for which history 
will hold us accountable. We failed to assimilate some of the culture 
and knowledge of the Native Americans into our own working schemas when 
we spread into their lands. I am told that when the Iroquois made 
decisions for their nation, they were looking ahead to make sure that 
every decision related to the welfare and well-being of the seventh 
generation to come, and that was the basis by which decisions were 
made. They asked themselves ``Will this be a benefit to the seventh 
generation?''
    In our technologically advanced, short-focused society, we have 
lost long-term vision. Investment and decisions concerning science and 
technology require an understanding of the scientific and technological 
development process, a sense of responsibility to understand the 
potential policy outcomes of our decisions, and the understanding that 
the pay-offs might not come until the next generation.
    We need to fill the gaps in our science and technology advice. 
Technology has been studied extensively by scholars, and the lessons 
are clear. If we are honest with ourselves, we don't need scholars to 
tell us we need help. We know it. We need a dedicated, in-house, 
permanently staffed organization. Each Member of Congress should be 
able to request a study. The management structure should be designed to 
deal adequately with the needs of Congress. Political neutrality must 
be protected. It should also be physically close to Congress. Studies 
must be useful to the Members of Congress and in time and in language 
to make them relevant.
    Jack Gibbons, referring to the need for an in-house technology 
assessment organ, sometimes quotes poet Edna St. Vincent Millay:

         ``Wisdom enough to leech us of our ill
         Is daily spun, but there exists no loom
         To weave it into fabric. . .''

    There is no shortage of information and no shortage of wisdom. We 
are swamped with experts. We need help in weaving it into policy-
relevant fabric.

                        Biography for Rush Holt

    Rush Holt, 57, is a resident of Hopewell Township, N.J. Born in 
West Virginia he inherited his interest in politics from his parents. 
His father was the youngest person ever to be elected to the U.S. 
Senate, at age 29. His mother served as Secretary of State of West 
Virginia and was the first woman to have held that position.
    Rep. Holt earned his B.A. in Physics from Carleton College in 
Minnesota and completed his Master's and Ph.D. at NYU. He has held 
positions as a teacher, Congressional Science Fellow, and arms control 
expert at the U.S. State Department where he monitored the nuclear 
programs of countries such as Iraq, Iran, North Korea, and the former 
Soviet Union. From 1989 until he launched his 1998 congressional 
campaign, Holt was Assistant Director of the Princeton Plasma Physics 
Laboratory, the largest research facility of Princeton University and 
the largest center for research in alternative energy in New Jersey. He 
has conducted extensive research on alternative energy and has his own 
patent for a solar energy device. Holt was also a five-time winner of 
the game show ``Jeopardy.''
    An active Member of Congress and a strong voice for his 
constituents, Rep. Holt serves on two committees, including the 
Committee on Education and the Workforce and the House Permanent Select 
Committee on Intelligence. Holt is the only scientist and only Member 
from the New Jersey delegation to sit on the Intelligence Committee, 
where he serves as the Ranking Minority Member on the Intelligence 
Policy Subcommittee. He is also on temporary leave from a third 
committee, the House Committee on Resources. Holt is also a member of 
the bipartisan Commission on Congressional Mailing Standards or the 
``Franking Commission.''
    Holt has had the honor to serve on the National Commission on 
Mathematics and Science Teaching for the 21st Century chaired by former 
Senator and astronaut John Glenn and currently sits on several 
caucuses, including those on Renewable Energy, Sustainable Development, 
Alzheimer's, Diabetes, Biomedical Research, India and Indian-Americans, 
Hellenic and Greek-American affairs, Farmland Protection, Human Rights, 
and a Woman's Right to Choose. Rep. Holt is also a member of the New 
Democrat Coalition.
    In only a short time, Rep. Holt has won several significant 
victories in Washington. He helped secure more than $700 million in new 
federal funding for science and technology research. He passed an 
amendment to the Land and Water Conservation Fund providing millions in 
funding for protecting open space and he was instrumental in adding the 
lower Delaware River to the National Wild and Scenic River program. He 
also initiated a federal study to map the gene sequences of all 
potential biological weapons to help first-responders and law 
enforcement react more effectively in the event of biological attack 
and he commissioned a Congressional investigation into the care at 91 
nursing homes in New Jersey following up on reports of negligence.
    Rep. Holt has brought significant federal resources to New Jersey. 
He helped secure $5.6 million for security improvements at the Naval 
Weapons Station Earle in Monmouth County, $2 million to establish a 
Land Use Municipal Resource Center to help local communities fight 
sprawl, and $500,000 for Hunterdon Medical Center to improve its 
emergency room facilities. Holt has also helped secure more than a 
hundred million dollars to improve roads, build libraries, and protect 
historic sites in the five counties he represents.
    Throughout New Jersey's 12th district, Rep. Holt has developed a 
reputation as a tireless advocate for his constituents. He has assisted 
over five thousand constituents who have contacted his office with 
inquiries, producing resolutions for problems ranging from Medicare to 
veterans' health care to immigration. He has also made hundreds of 
school visits and held dozens of town meetings and forums on topics 
such as Homeland Security, Alternative Energy, Economic Growth, 
Prescription Drugs, Student Aid, Privacy, Long-Term Care, and Sprawl.
    Rep. Holt has received numerous awards and citations for his work, 
including the Planned Parenthood Community Service Award, the Biotech 
Legislator of the Year, and the Science Coalition's Champion of Science 
award. The magazine Scientific-American has also named Holt one of the 
50 national ``visionaries'' contributing to ``a brighter technological 
future.''
    Rep. Holt is married to Margaret Lancefield, a physician and 
Medical Director of the Princeton charity care clinic. They have three 
grown children, Michael, Dejan and Rachel, and six grandchildren, Noah, 
Niala, Boaz, Varun, Cecile, and Rohan.

                               Discussion

    Chairman Boehlert. Thank you very much, Dr. Holt, and you 
know what? It shows you how well we get along together, 
Democrat and Republican, New Jersey, New York. I thought that 
was an outstanding statement, maybe because I agree with it.
    But I want to increase your comfort zone somewhat. I am 
proud to report that this committee and the professional staff 
has 14 Ph.D.s, 14. That is very impressive, and I am also proud 
of the fact that we are very active with a number of 
organizations in town, and you mentioned some of them, AAAS, 
American Chemical Society, in providing opportunities for 
Ph.D.s in various scientific disciplines to serve a year's 
fellowship on the Hill. It is a wonderful program, and so, we 
are making progress. We are moving in the right direction. That 
doesn't negate anything that you said in the statement. It just 
supplements what you said.
    Mr. Holt. If I may, Mr. Chairman.
    Chairman Boehlert. Sure.
    Mr. Holt. I do want to emphasize that I am not worried 
about the Science Committee. I mean, I do hope that in future 
years, it will have leadership as good as it has had in this 
Congress. However, it is all of those other committees, all of 
those other Members, that I worry about.
    Chairman Boehlert. That like to wade into the science pool 
of activity, and sometimes, well--we won't go into what some of 
the other committees do or fail to do.
    Thank you very much for your outstanding statement. I do 
appreciate it. Does anyone have any particular questions for 
our colleague, who has got a very busy schedule?
    Mr. Rohrabacher. Mr. Chairman.
    Chairman Boehlert. We are going to provide you with a treat 
now, Dr. Holt. Mr. Rohrabacher.
    Mr. Rohrabacher. I wonder if you could tell me what the 
budget was for the Office of Technology Assessment per year in 
the ten years prior to us eliminating it.
    Mr. Holt. At the time it was--I don't have the exact 
figures, and perhaps, staff can help us here, but when OTA was 
defunded, it was never deauthorized, when it was defunded in 
1995, the operating budget was something in the twenties of 
millions of dollars a year. I would argue a bargain at any 
price, but----
    Mr. Rohrabacher. Did you ever request studies done by the 
Office of Technology Assessment?
    Mr. Holt. I was not a Member of Congress. However, I used 
many of their studies.
    Mr. Rohrabacher. I was, and I requested things, and they 
were always late, and often, they got us the material after the 
debate was already decided, and when the Republican majority 
came in in 1994, meaning the first year was '95, we were 
looking for the most inefficient things we could get rid of in 
Congress, in order to say that we are cutting back here, as 
well as in the rest of government, and the Members, by 
majority, found out that--and those of us who had used it--that 
this was one of the most inefficient operations that we had, 
and thus, deserved to be cut.
    Mr. Holt. Well----
    Mr. Rohrabacher. Over the objection of others, like the 
Chairman, et cetera, who didn't see that, but----
    Chairman Boehlert. Let me point out, Mr.----
    Mr. Rohrabacher. But the majority did believe that.
    Chairman Boehlert. Mr. Rohrabacher, let me----
    Mr. Rohrabacher. Yes.
    Chairman Boehlert.--point out that not everyone looked at 
the picture and saw the same vision. There were a number of us 
who highly valued the outstanding work of the Office of 
Technology Assessment, and many of us felt that sometimes, 
while they were a little bit delinquent in responding to a 
particular request that you might have advanced, because they 
were getting so many requests, because it was very obvious that 
there was a need for the product they were producing, because 
they were getting so many requests for information. Members 
like me, who are just--I pride myself in being a pretty darn 
good generalist, but not a specialist in anything, and you 
know, I just sort of threw up my hands, and said where do I go 
for information. And I was not alone. A number of my colleagues 
did the same thing, and so, I would contend they were sort of 
overworked, and therefore, that is why they were somewhat 
delinquent.
    Mr. Rohrabacher. Well, I would agree, Mr. Chairman, that, 
you know, your worldview sometimes, you know, affects your 
assessment of, not only the scientific assessment, assessment 
of how you should spend your money. I mean, I operate under the 
assumption that bureaucracy is the most effective method ever 
developed that can turn pure energy into solid waste, and if 
you couple that, you know, couple great scientists with 
bureaucracy, and you are expecting to get something out of it 
more effective than what other bureaucracies produce, I think 
it really is wishful thinking, and I think, by experience, 
those of us who voted to eliminate the program, or eliminate 
funding for it, realized that asking consultants on the outside 
to do the same job was actually more cost-effective, and you 
actually had more control on them than you did once you hired 
someone as a government employee, and anyway, I would just say 
that, although we all agree that science is important, and 
making sure that we try to get nonpartisan assessments is 
important, certainly we shouldn't give up our analysis of what 
happens to even scientists when they become bureaucrats, and 
part of this bureaucracy----
    Chairman Boehlert. I was----
    Mr. Holt. I would like to address----
    Chairman Boehlert. Mr. Gordon is most anxious to have an 
intervention, also, but----
    Mr. Holt. I am not here, and I don't think the witnesses 
are here, to re-fight old battles. I do think that we have now 
10 years of data, and it is pretty clear to me, since I have 
been here most of those ten years now, that we have not gotten 
the kind of technological assessment and advice that we told 
ourselves we would be able to get through other methods. So, it 
hasn't worked over the last 10 years. Now----
    Mr. Rohrabacher. Could you give me some examples of that?
    Mr. Holt. There may be some----
    Mr. Rohrabacher. Well, a couple examples.
    Mr. Holt. Sure. How about, let me see, do I have today's--
--
    Mr. Rohrabacher. Well, we have got global warming advice 
coming out our ears, of course, by everyone who is being paid 
to give us that advice, but go ahead.
    Mr. Holt. Yeah. Well, I will illustrate this in a way.
    Chairman Boehlert. I told you it would be an interesting 
intervention.
    Mr. Holt. Not to harp on OTA, but to make the point that we 
still have a crying need for policy-relevant, I would argue in-
house, but at least policy-relevant technological assessment 
and advice, let me also address your point about the timeliness 
of the reports we got from OTA.
    We got reports from OTA on adverse reaction to vaccines, 
computer software and intellectual property, saving energy in 
U.S. transportation, retiring old cars, export controls and 
nonproliferation policy, electronic surveillance in a digital 
age. Let me suggest to the gentleman that those reports were so 
timely that they are still useful today. Now, maybe you didn't 
get it on the week that you wanted it, but these are reports 
that are still useful today.
    Mr. Rohrabacher. Some of those reports may have been given 
to us after we had the vote in Congress on the issue.
    Mr. Holt. But my point----
    Mr. Rohrabacher. That is the important point.
    Mr. Holt. My point to the gentleman is we have not yet 
resolved the issues of adverse reactions to vaccines, 
intellectual property and computer software, saving energy in 
U.S. transportation, retiring old cars, export controls and 
nonproliferation policy, electronic surveillance in a digital 
age. We still need those reports, and in fact, we are still 
using them.
    Mr. Rohrabacher. Thank you.
    Chairman Boehlert. Mr. Gordon.
    Mr. Gordon. Just briefly, I know, I disagree with my friend 
from California, Mr. Rohrabacher, but I don't disagree with his 
sincerity. I know that he is sincere in these issues, so I am 
not going to try to get into an argument, because we are not 
going to change anybody's mind.
    But let me just again point out that if there was a problem 
with timeliness at OTA earlier, the problem, I think, as the 
Chairman pointed out, was it was underfunded and over-
requested, which demonstrates, you know, it was the wrong 
reaction. We should have increased the funding, and I think by 
having good information, we would have saved the country money.
    And I particularly have to disagree that we want to--with 
Mr. Rohrabacher's announcement that we need to contract these 
things out, so we would have more control over them. We don't 
want to have more control over them. We want to have good, you 
know, solid scientific information.
    Again, he is sincere, Mr. Holt is sincere, I think. Nobody 
would be at this stimulating meeting today, if they weren't 
sincere.
    Mr. Rohrabacher. Well, would the gentleman yield for just 
one moment.
    Mr. Gordon. And so----
    Mr. Rohrabacher. Would the gentleman yield?
    Mr. Gordon. Certainly, certainly.
    Mr. Rohrabacher. What I have been told is the budget over a 
ten year period was $200 million, and they had two hundred 
employees in, you know, the Office, and that is an awful lot of 
consulting work that we could have had done for $200 million--
--
    Mr. Gordon. Well, that is $20 million a year.
    Mr. Holt. Yes, it was about $20 million a year in those 
years' dollars, at its peak, 143 employees, I am told.
    Chairman Boehlert. Thanks. Anyone else? All right. Thank 
you very much, Dr. Holt.
    We could have a spirited, over a cup of coffee, discussion 
with Mr. Rohrabacher and our colleagues on the Committee, 
because for the benefit of the audience, this is the type of 
conversations we oftentimes will have on the floor, and Dana 
Rohrabacher and I don't always see eye to eye, but we always 
agree to have a nice friendly little chat about such things as 
global climate change, which he thinks is a figment of my 
imagination, but thank you, Dr. Holt, and thank you, Mr. 
Rohrabacher, for the intervention.
    Now, our second panel, and here is what I would like to do. 
I ask unanimous consent that Dr. Holt be permitted to sit with 
the Committee, and participate in the questioning. Without 
objection, so ordered.
    Now, panel number two. Dr. Jon Peha, Department of 
Engineering and Public Policy, Carnegie Mellon University. Dr. 
Al Teich, Director, AAAS Directorate for Science and Policy 
Programs, American Association for the Advancement of Science. 
Dr. Peter Blair, Executive Director, Division on Engineering 
and Physical Sciences, the National Research Council, and Dr. 
Catherine T. Hunt, the Leader of Technology Partnerships, Rohm 
and Haas Company.
    Panelists, thank you so much for being facilitators for the 
Committee, information sources. We really appreciate your 
preparing for this hearing, and providing testimony. Your 
complete statements will be included in the record at this 
juncture. We would ask that you try to summarize them, so that 
we could have the benefit of a dialogue, conversations with 
Congress. Thanks so much.
    Dr. Peha, you are first.

                               Panel II:

    STATEMENT OF DR. JON M. PEHA, PROFESSOR, DEPARTMENTS OF 
   ENGINEERING AND PUBLIC POLICY AND ELECTRICAL AND COMPUTER 
            ENGINEERING, CARNEGIE MELLON UNIVERSITY

    Dr. Peha. So much for my mastery of technology.
    Good morning. My name is Jon Peha. I am a Professor of 
Electrical Engineering and Public Policy at Carnegie Mellon 
University, and Associate Director for the Center for Wireless 
and Broadband Networking.
    There may be no institution on Earth inundated with more 
unsolicited advice than Congress, so it should sound strange 
for me to say that Congress is not getting information that it 
needs, but that is precisely what I have come here to say.
    You can master many complex issues by filling a table like 
this one with people who have competing interests, and watching 
them argue their points of view. Unfortunately, this approach 
breaks down when the issue is highly technical. For example, in 
the current debate on network neutrality and the Internet, I 
have watched advocates from all sides advance their agenda by 
giving misleading simplifications of how the Internet actually 
works and what neutrality might mean. From that, I don't see 
how any non-expert could tell what the issue is about, much 
less what to do about it. I couldn't separate substance from 
rhetoric until I did my own assessment, rooted in the 
technology of the Internet.
    With this kind of issue, Congress needs balanced analysis 
that identifies possible policy options, and pros and cons of 
each, without telling Congress what to do. Armed with this 
basic information, Members can listen to stakeholders and make 
their own decisions. But who can provide this basic background?
    Congress can turn to CRS, CBO, or GAO, but this type of 
analysis is not within their traditional mission. They would 
have to build the capability. Congress has the National 
Academies, which can bring together leading experts who will 
collectively recommend a course of action. Such studies are 
valuable, but Congress often needs someone to frame the issue, 
not recommend a solution.
    There are university faculties that try to advise Congress, 
and I hope we are useful. I spend a lot of time at this. But 
faculty are removed from Capitol Hill. We may not produce 
reports on the issues of greatest importance to Congress at the 
time of greatest need, or in the format that is useful to 
Congress, and thus far, Congress has not created mechanisms to 
help us do so. Moreover, without investigation, you can't know 
the professor is advancing a balanced assessment or personal 
agenda.
    So, in short, there are information sources that produce 
thorough, accurate, and balanced reports, and sources that are 
attuned to the needs of the Congress, but there is a shortage 
of sources that do both, and Congress should fill this gap with 
a new program, either as a new agency, or inside an existing 
one.
    Now, there are many ways to do this. I will focus here on 
four important qualities of an effective program. It should be 
responsive, credible, impartial, and independent.
    So first, the organization must be responsive to the needs 
of Congress. To ensure this, there should be a core group of 
professionals who are ultimately responsible for all products, 
who interact regularly with Members and their staffs, and for 
whom Congress is the principal client and funding source.
    Second, the organization should have credibility in 
technical communities, even from stakeholders who don't like 
the latest report. Since no one organization can have credible 
expertise in all areas, this organization must be able to draw 
on leading scientists and engineers as needed, and leaders of 
the organization should have strong professional credentials 
that will earn respect outside the Beltway.
    Third, the organization must be impartial and appear to be 
impartial. To achieve this, it must develop procedures that 
include careful outside review. It must have leaders who 
understand balanced technology assessments and will make 
appropriate use of dissenting views, and it must have strong 
bipartisan, bicameral oversight from Congress, to ensure that 
the interests of all Members are well served.
    Finally, the organization must have the independence to 
release controversial studies without risk of elimination. The 
method of deciding which studies will be completed must be 
carefully designed to reflect the needs of both the majority 
and minority in Congress, and Congress should allocate budgets 
years in advance, so the organization can ride out one or two 
very controversial reports.
    An organization with these qualities would help all Members 
of Congress. It would be an insurance policy against unintended 
consequences from complex legislation, and it would earn the 
praise of scientific professional societies and their members.
    I commend the Committee for considering this issue, and I 
thank you for hearing my opinions.
    [The prepared statement of Dr. Peha follows:]

                   Prepared Statement of Jon M. Peha

    Good morning Mr. Chairman, and Members of the Committee.
    My name is Jon Peha. I'm a Professor of Engineering and Public 
Policy at Carnegie Mellon University, and Associate Director of the 
Center for Wireless and Broadband Networking.
    There may be no institution on Earth that is inundated with more 
unsolicited advice than Congress, so it could sound strange for me to 
say that Congress is not getting information that it needs, but that is 
precisely what I've come here to say.
    You can master many complex issues by filling a table like this one 
with people who have competing interests, and watching them argue 
different sides of the issue. Unfortunately, this approach breaks down 
when the topic is highly technical. For example, in the current debate 
on ``network neutrality'' in the Internet, I've seen advocates from all 
sides advance their agendas by giving misleading simplifications of how 
the Internet actually works and of what ``neutrality'' might mean. From 
that, I don't see how any non-expert could tell what the issue is 
about, much less what to do about it. I could not separate substance 
from rhetoric until I did my own assessment, rooted in the technology 
of the Internet.
    With this kind of issue, Congress needs balanced analysis that 
identifies possible policy options, and pros and cons of each, without 
telling Congress what to do. Armed with this basic knowledge, Members 
of Congress can listen to stakeholders, and make their own decisions 
about which policy is best overall. But who can provide this 
background?
    Congress can always turn to CRS, CBO, or GAO, but this type of 
analysis is not within their traditional mission. They would have to 
build the capability. Congress also has the National Academies, which 
can bring together leading experts who will collectively recommend a 
course of action. Such studies are valuable, but the process can be 
slow and expensive, and Congress often needs someone to frame the 
issue, rather than recommend a solution.
    Some university faculty try to advise Congress, and I hope we are 
useful. However, faculty are removed from Capitol Hill. We may not 
produce reports on the issues of greatest importance to Congress, at 
the time of greatest need in Congress, or in a form that can be easily 
used by Congress. Thus far, Congress has not created mechanisms that 
would help us do so. Moreover, without investigation, you cannot know 
if a professor is offering a balanced assessment or advancing a private 
agenda.
    In short, there are information sources that produce thorough, 
accurate, and balanced reports, and sources that are attuned to the 
needs of Congress, but there is a shortage of sources that do both. 
Congress should fill this gap with a new program, either as a new 
agency or inside an existing one.
    There are many ways to do this. I will focus here on four important 
characteristics of an effective program It must be responsive, 
credible, impartial, and independent.
    First, the organization must be responsive to the needs of 
Congress. To insure this, there should be a core group of professionals 
who are ultimately responsible for all products, who interact regularly 
with Members and their staffs, and for whom Congress is the principal 
client and funding source, as with GAO or CBO.
    Second, the organization must have credibility in technical 
communities, even from stakeholders who are not thrilled with any given 
report. Since no one organization can have credible expertise in all 
areas, this organization must be able to draw on the country's leading 
scientists and engineers whenever needed. Moreover, the leaders of this 
organization should have strong professional credentials that will earn 
respect outside the beltway.
    Third, the organization must be impartial, and appear to be 
impartial. To achieve this, it must develop procedures that include 
careful outside review, both when framing the issues and when vetting 
the results. This organization must have leaders who understand what 
balanced technology assessments look like, and will make appropriate 
use of dissenting views. There must also be strong bipartisan bicameral 
oversight from Congress, to insure that the interests of all Members of 
Congress are well served.
    Finally, the organization must have the independence to release 
controversial studies without risk of elimination. The method of 
deciding which studies will be completed must be carefully designed to 
reflect the needs of both the majority and minority in Congress. 
Moreover, Congress should allocate budgets years in advance, so the 
organization can ride out one or two reports that offend a powerful 
group.
    An organization with these qualities would help all Members of 
Congress. It would be an insurance policy against unintended 
consequences from legislation involving science or technology. It would 
also earn praise from many scientific professional societies, and their 
members.
    I commend the Committee for considering this important issue, and I 
thank you for inviting me to express my views.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Appendix 1: Published in Renewable Resources Journal, Vol. 24, No. 2, 
                    pp. 19-23

              Science and Technology Advice for Congress:

                       Past, Present, and Future

                              Jon M. Peha

Legislation Blowing in the Wind

    With visions of Hurricane Katrina dancing in their heads, many 
Members of Congress wanted to immediately push some kind of legislation 
that would save American lives in future disasters, but how? Disaster 
response is a complex matter. Katrina, like any problem that dominates 
the American news, produces a deluge of proposed ``quick fixes'' to be 
evaluated by Congress. When proposals involve science or technology, 
this can be difficult.
    One problem Congress could address in the aftermath of Katrina is 
the wireless communications systems used by firefighters, paramedics, 
National Guardsmen, and other emergency responders. Search and rescue 
efforts often were crippled by failures in these systems. Some will now 
push for grants to local governments to improve technical ``inter-
operability,'' i.e., the ability of responders in one agency to 
communicate with responders in another agency. After all, inter-
operability failures cost lives on 9/11 [1], after Katrina, and on too 
many other occasions [2]. Others will push to take spectrum away from 
television broadcasters, because a portion of this spectrum would go to 
public safety. After all, there is good reason to fear that a dangerous 
shortage of public safety spectrum is coming [3]. However, the 
decisions are not simple. One company after another will tell 
Congressional staff of their alleged ``solution'' to inter-operability 
problems, if government agencies would only purchase their products. 
Other companies will describe how the release of television spectrum in 
the manner they propose would be the salvation of public safety, and by 
coincidence, the proposed change also will affect their commercial 
systems in subtle but important ways. It is hard for someone without 
technical expertise to make sense of all these claims. Worse yet, 
changes may have side effects. Some plans intended to make more 
spectrum available to public safety would accidentally create new 
inter-operability problems, and some plans intended to improve inter-
operability would accidentally exacerbate a spectrum shortage [4,21]. 
Moreover, in preparing communications systems for the next hurricane, 
some issues could be even more important than either inter-operability 
or a potential spectrum shortage, but no one successfully has brought 
these issues to the attention of Congress. There may be no one with 
sufficient incentive to do so.
    There is nothing unique about this drama. This year, almost every 
committee in Congress will face one or more issues that are similarly 
hard to disentangle without expertise in some area of science or 
technology. This includes issues related to energy, the environment, 
health care, food safety, national defense, homeland security, space 
exploration, intellectual property, transportation, and 
telecommunications, just to name a few. The majority of these typically 
are not labeled as ``science issues,'' and most do not go through the 
Science Committee.

Plenty of Input, Not Enough Clarity

    Congress relies primarily on adversarial procedures that are honed 
for equitably setting priorities, in contrast with the very different 
forums of scientists, which are honed for advancing knowledge [5,6]. 
Congress must answer questions like `is it more important to reduce the 
cost of automobiles or to reduce gasoline consumption?' and `is it 
better to increase taxes or to cut programs?' Stakeholders from all 
sides of a debate make their case. Members of Congress, acting as 
representatives of their constituents rather than experts in any narrow 
discipline, then adopt a position based on their own values and 
priorities. Debates continue until consensus emerges for a compromise 
between competing interests. All of this works well if Members of 
Congress have a clear understanding of the issues and tradeoffs. 
Understanding can be extremely difficult when issues are rooted in 
science or technology. Indeed, it can be hard for someone with no 
technical expertise to ask the right questions. Thus, as shown by the 
above example of communications systems for public safety, Congress may 
need assistance in framing and prioritizing the fundamental problems, 
identifying the legislative options, assessing advantages and 
disadvantages of each option, and calling attention to any unintended 
side effects. With this information, Members of Congress of all 
political persuasions can apply their own values, and make informed 
decisions. Unfortunately, Congress has no reliable source for this kind 
of assistance on technical issues.
    This does not mean Congress has no information. Indeed, Capitol 
Hill is overflowing with lobbyists who are prepared to tell Members of 
Congress how to vote and why. While input from stakeholders and their 
representatives is essential, it clearly is no substitute for the kind 
of impartial assessment described above. Members of Congress also can 
turn to a cadre of dedicated and intelligent staff. However, given the 
tremendous range of issues that Congress must address, most 
Congressional staff are generalists whose primary expertise is the 
legislative process, rather than any scientific discipline. 
Alternatively, Members of Congress can seek advice from one of their 
support organizations: the Congressional Research Service (CRS), the 
Congressional Budget Office (CBO), or the Government Accountability 
Office (GAO). While each of these organizations plays an important 
role, and all are in a good position to understand Congressional needs, 
the detailed assessment of technical issues simply is not part of their 
historical mission, so they traditionally have not built staff 
expertise, institutional mechanisms, or credibility in this area [7]. 
Of course, Congress may be changing that tradition--an option that will 
be discussed later.
    Another important source of information on issues related to 
science and technology is the executive branch agencies, many of which 
have significant expertise. However, the U.S. system is based on checks 
and balances, and Congress is obligated to oversee the activities of 
the executive branch. Meaningful oversight is impossible without 
independent expertise. For example, Congress cannot oversee the 
Nation's finances if they depended entirely on the White House for 
analysis, which is why Congress has a Congressional Budget Office that 
is completely independent of the White House Office of Management and 
Budget. Unfortunately, on matters related to science and technology, 
Congress has no comparable support.
    There still are more sources of information outside of government. 
These tend to be inappropriate for different reasons. The National 
Academies sometimes are an excellent resource for Congress [8[, but for 
a different purpose. The National Academies generally attempt to bring 
diverse experts together to produce a consensus recommendation about 
what Congress should do. In many cases, Members of Congress do not want 
to be told what to do. Instead, they want a trustworthy assessment of 
their options, with the pros and cons of each, so they can make up 
their own minds. Universities and research institutes also produce 
valuable work on some important issues, but it rarely is generated at a 
time when Congress most needs it, or in a format that the overworked 
generalists of Congress can readily understand and apply. Moreover, 
Members of Congress must be suspicious that the authors of any 
externally produced report have an undisclosed agenda.
    In short, there is a fundamental gap in the information available 
to Congress. There is no consistent source of in-depth assessments that 
are balanced, complete, impartial, and produced at a time and in a 
format that is sensitive to the specific needs of Congress [9]. CRS 
reports are sensitive to Congressional needs and are designed to be 
impartial, but, by design, are limited in scope and depth. Partisan 
input also can be sensitive to the needs of Congress, but it is never 
impartial. Other information produced outside of Congress tends to be 
far less sensitive to Congressional needs, and the majority of it 
advocates for particular positions rather than merely providing a 
baseline assessment.

The Controversial History of Technology Assessment

    There have been notable attempts to fill this gap. The flagship 
solution was the Office of Technology Assessment (OTA), a stand-alone 
organization that worked specifically for Congress, like CRS, CBO, and 
GAO. OTA produced roughly 750 reports during its 23-year lifespan, many 
of which were rigorous, respected, and widely cited by both supporters 
and opponents of the controversial measures that these reports 
addressed. Using OTA as a model, many nations have created similar 
organizations to advise their national legislatures [10]. While OTA had 
its supporters, it also had some severe critics, and this would 
ultimately be the organization's undoing. When Republicans took control 
of the House of Representatives in 1995 after four decades in the 
minority, they eliminated OTA.
    Some of the reasons for eliminating OTA had little to do with its 
effectiveness. While the Republicans were in the minority, they often 
had called for the elimination of various government programs and 
agencies. When they became the majority party in the House, they were 
under great pressure to follow though on these promises, but it was not 
easy to eliminate big targets like the Department of Education. 
Ultimately, they would succeed in eliminating exactly one agency--OTA--
giving it great symbolic importance.
    Nevertheless, the debate over OTA was not all symbolism. Some 
Members of Congress raised noteworthy concerns. The most serious 
allegation was bias. It is not surprising that the party in the 
minority (before 1995) would raise concerns about bias, given that the 
other party had dominated Congress throughout OTA's existence. For 
example, some conservatives claimed bias in a series of OTA reports 
that questioned the technical feasibility of the Strategic Defense 
Initiative (SDI) (dubbed ``Star Wars'' in the press) [11-14]. SDI was 
intended to shield America from incoming missiles. To the horror of 
then-President Ronald Reagan and his supporters in Congress, OTA 
concluded that the SDI vision of protecting all Americans from Soviet 
missiles was ``impossible to achieve.'' [12]
    Two decades later, the debate continues over whether OTA was 
biased, but this debate is largely irrelevant. Regardless of whether 
the bias concern was rooted in reality, appearance, or fabrication, the 
lessons are the same. Bias or the appearance of bias can be 
devastating. An organization designed to serve Congress must be both 
responsive and useful to the minority, as well as the majority. 
Representatives of both parties and both houses must provide careful 
oversight, so that credit or blame for the organization's 
professionalism is shared by all.
    The most likely way for bias to arise is in the selection of issues 
to be investigated. Consequently, both parties and both houses must 
have significant say in this selection. Shared oversight can prevent a 
pattern of bias across many issues, but if an unbiased organization is 
doing its job well, there still will be individual reports that anger 
one group within Congress. As long as there was no bias in the 
selection of topics, all reports will not displease the same group. 
Consequently, the organization must be constructed in such a way that 
the furor over any one or two controversial issues is likely to die 
down before angry partisans can eliminate the agency. For example, 
funding and staff levels might be fixed four years ahead of time, 
instead of just one year.
    Probably the most frequent criticism of OTA from supporters and 
detractors alike is that it was too slow; some studies took so long 
that important decisions already were made when the relevant reports 
were released. Many have argued that any future organization must be 
faster. This may be the case, but there are more important lessons 
here. Good work takes time, particularly if Congress is expecting a 
broad scope, and extensive depth. However, this is not always the case. 
Sometimes a Congressional Committee happily will accept a narrow scope 
or a significant amount of recycled content, if the report is available 
quickly. The most important lessons here are that an organization 
providing technology assessments must offer Congress a wider range of 
services with varying durations and scopes, and that it must be part of 
this organization's culture to listen carefully to its client 
(Congress) to understand the client's preferences for any given 
project.

A New Era for Technology Assessment

    In June 2001, six years after OTA's demise, Carnegie Mellon 
University organized a workshop in Washington, D.C. on the state of 
science and technology information in Congress. The workshop drew 
leaders from both the scientific community and from Congress. Speakers 
from Congress included Representatives Sherwood Boehlert (R-NY), Vernon 
Ehlers (R-MI), Rush Holt (D-NJ), and Amo Houghton (R-NY). There was 
remarkably strong consensus that Congress needed new institutional 
support to provide advice on issues related to science and technology, 
although opinions differed on the ideal form of this support. Some 
preferred a return to the OTA model, and others preferred something 
quite different.
    Six distinct approaches are discussed in detail in Science and 
Technology Advice for Congress [15], a book produced by many workshop 
participants. Two difficult questions divide many of these models: (1) 
should this technology assessment capability reside in an existing 
organization or a new organization, and (2) should its staff work 
directly for Congress or should there be institutional separation?
    The problem with creating a new technology assessment capability 
and placing it in an existing organization, whether it is CRS or the 
National Academies, is that these organizations already have their own 
missions and their own cultures, which are not perfectly compatible 
with the technology assessment process. This clash can make it more 
difficult to do high-quality technology assessments. Moreover, if these 
assessments are viewed internally as a diversion from the 
organization's real mission, there is a danger that some important 
resources (e.g., staff, funding) will be directed elsewhere when 
budgets are tight. On the other hand, if this new program is a division 
of an existing organization, there may be more opportunities to share 
scarce resources and expertise. Moreover, judging from the OTA 
experience, a stand-alone organization may be more vulnerable to 
complete elimination during heated controversies.
    With regard to the second question of ``distance'' from Congress, 
some advocated that technology assessments be conducted within an 
organization that answers directly to Congress (i.e., GAO, CRS, CBO), 
or a new organization that is similarly constructed. Others wanted an 
organization (new or existing) that operates under contract to 
Congress, and perhaps to other clients as well, as the National 
Academies do today. The former would encourage staff to be more 
sensitive to the needs of Congress. It also could afford them less 
protection when bringing news that Members of Congress do not want to 
hear. Moreover, the staff size of a Congressional organization is 
always limited, making it difficult for this organization to have 
expertise in every topic of potential interest to Congress. By 
contracting work to outside organizations, talent can be drawn from a 
much larger pool. This issue becomes particularly important if the 
technology assessment effort is relatively small.
    Given these tradeoffs, my proposal would create a hybrid, in which 
a small dedicated staff work on Capitol Hill directly for Congress 
[16]. Their job is to understand the needs of Congress, and to insure 
that all reports in their final form meet those requirements. However, 
much of the assessment work would be done by a collection of outside 
organizations, each of which would be certified every few years for 
competence, professionalism, and impartiality.
    After the workshop, Senator Jeff Bingaman (D-NM) proposed the 
creation of a small pilot program in technology assessment. Thanks to 
bipartisan support in both the House and Senate, the pilot received 
$500,000 of funding in the 2002 budget. Work began in March 2002, and 
GAO's first assessment on biometric technology for border security came 
out in November 2002 [17]. This was remarkably fast turn-around, 
especially given that GAO had no institutional experience with this 
kind of analysis. GAO also invited an external evaluation of their work 
from outside experts [18], which demonstrates seriousness about 
quality. (Most agencies avoid criticism rather than seek it). Other GAO 
technology assessments have followed [19,20].)
    Early results are quite encouraging. Experience to date shows that 
a technology assessment program operating within GAO is capable of 
producing balanced, timely, and relevant reports containing a range of 
useful information on important issues before Congress. Not 
surprisingly, early results also show that improvement is possible and 
desirable, in large part because technology assessments differ 
substantially from the traditional GAO studies in intent, content, and 
process. Thus, for example, GAO must learn new methods of soliciting 
input from outside experts, framing a technology assessment, and 
subjecting work to fast but effective peer review. If Congress keeps 
funding this pilot, it is likely that GAO will continue to improve with 
experience.
    This small pilot will do some useful work, and foreshadow the 
effectiveness of a program within GAO before making longer-term 
decisions. However, the GAO pilot cannot succeed in the long run if it 
remains a mere pilot. A technology assessment program must develop or 
recruit a staff that has strong credentials to impress both the 
scientific and Congressional communities, and significant expertise in 
science or technology, in communicating with Congress, and in 
technology assessment. Attracting, developing, and retaining 
outstanding people with these diverse skills will not be easy for a 
program that could abruptly cease to exist with little warning.
    Worse yet, should a technology assessment ever produce news that is 
unwelcome to any powerful group within Congress, there is little to 
protect the program from termination. Since management within GAO knows 
this, they might be tempted to avoid controversial issues, or worse 
yet, to dilute the conclusions of experts and staff members. If they 
succumb to this temptation, the program will be of limited 
effectiveness, and if they do not, the program will not survive for 
long.

Conclusion

    When issues are rooted in science or technology, Members of 
Congress often need assistance in framing issues, identifying 
legislative options, and assessing all the pros and cons of each 
option, so they can make informed decisions that are consistent with 
their own values and priorities. Today, Congress has no reliable, 
impartial source available to provide detailed analysis of this type, 
with the possible exception of a limited pilot effort within GAO. It is 
time for Congress to move beyond pilots, and to establish a permanent 
technology assessment capability. When creating a permanent solution, 
the greatest challenges will be to ensure that this new technology 
assessment program has careful and balanced bipartisan and bicameral 
oversight, and that its staff and funding levels will remain stable, 
even through heated controversies and budget crises. Ideally, they 
should receive sufficient resources to offer a significant amount of 
support for Congress, but stability is more important than size.

References

 [1]  National Commission on Terrorist Attacks upon the United States, 
The 9/11 Commission Report, 2004. http://www.gpoaccess.gov/911

 [2]  J.M. Peha, ``Protecting Public Safety With Better Communications 
Systems,'' IEEE Communications, Vol. 43, No. 3, March 2005, pp. 1011. 
http://www.ece.cmu.edu/peha/safety.html

 [3]  Public Safety Wireless Advisory Committee (PSWAC), Final Report, 
Sept. 1996. http://ntiacsd.ntia.doc.gov/pubsafe/publications/
PSWAC<INF>-</INF>AL.PDF

 [4]  J.M. Peha, ``How America's Fragmented Approach to Public Safety 
Wastes Spectrum and Funding,'' Proc. 33rd Telecommunications Policy 
Research Conference (TPRC), Sept. 2005. http://www.ece.cmu.edu/peha/
safety.html

 [5]  J.M. Peha, ``Bridging the Divide Between Technologists and 
Policy-Makers,'' IEEE Spectrum, Vol. 38, No. 3, March 2001, pp 15-17. 
http://www.ece.cmu.edu/peha/policy.html

 [6]  M.G. Morgan and J.M. Peha, ``Analysis, Governance, and the Need 
for Better Institutional Arrangements,'' Chapter 1 in Science and 
Technology Advice for Congress, M.G. Morgan and J.M. Peha (eds.), RFF 
Press, Washington, DC, 2003.

 [7]  C.T. Hill, ``An Expanded Analytical Capability in the 
Congressional Research Service, the General Accounting Office, or the 
Congressional Budget Office,'' Chapter 7 in Science and Technology 
Advice for Congress, M.G. Morgan and J.M. Peha (eds.), RFF Press, 
Washington, DC, 2003.

 [8]  J. Ahearne and P. Blair, ``Expanded Use of the National 
Academies,'' Chapter 8 in Science and Technology Advice for Congress, 
M.G. Morgan and J.M. Peha (eds.), RFF Press, Washington, DC, 2003.

 [9]  M.G. Morgan and J.M. Peha, ``Where Do We o From Here?,'' Chapter 
13 in Science and Technology Advice for Congress, M.G. Morgan and J.M. 
Peha (eds.), RFF Press, Washington, DC, 2003.

[10]  N.J. Vig, ``The European Experience,'' Chapter 5 in Science and 
Technology Advice for Congress, M.G. Morgan and J.M. Peha (eds.), RFF 
Press, Washington, DC, 2003.

[11]  R.H. Margolis, D.H. Guston, ``The Origins, Accomplishments, and 
Demise of the Office of Technology Assessment,'' Chapter 3 in Science 
and Technology Advice for Congress, M.G. Morgan and J.M. Peha (eds.), 
RFF Press, Washington, DC, 2003.

[12]  U.S. Office of Technology Assessment, Ballistic Missile Defense 
Technologies, Sept. 1985. http://www.wws.princeton.edu/ota/disk2/1985/
8504<INF>-</INF>n.html

[13]  U.S. Office of Technology Assessment, Anti-Satellite Weapons, 
Countermeasures, and Arms Control, Sept. 1985. http://
www.wws.princeton.edu/ota/disk2/1985/8502<INF>-</INF>n.html

[14]  U.S. Office of Technology Assessment, SDI: Technology, 
Survivability, and Software, May 1988. http://www.wws.princeton.edu/
ota/disk2/1988/8837<INF>-</INF>n.html

[15]  M.G. Morgan and J.M. Peha (eds.), Science and Technology Advice 
for Congress, RFF Press, Washington, DC, 2003.

[16]  M.G. Morgan and J.M. Peha, ``A Lean Distributed Organization To 
Serve Congress?,'' Chapter 10 in Science and Technology Advice for 
Congress, M.G. Morgan and J.M. Peha (eds.), RFF Press, Washington, DC, 
2003.

[17]  U.S. Government Accountability Office, Using Biometrics for 
Border Security, GAO-03-174, Nov. 2002. http://www.gao.gov/new.items/
d03174.pdf

[18]  R.W. Fri, M.G. Morgan, and W.A. Stiles, An External Evaluation of 
the GAO's Assessment of Technologies for Border Security, Oct. 18, 
2002, Appendix 3 in Science and Technology Advice for Congress, M.G. 
Morgan and J.M. Peha (eds.), RFF Press, Washington, DC, 2003.

[19]  U.S. Government Accountability Office, Cyber Security for 
Critical Infrastructure Protection, GAO-04-321, May 2004. http://
www.gao.gov/new.items/d04321.pdf

[20]  U.S. Government Accountability Office, Protecting Structures and 
Improving Communications During Wildland Fires, GAO-05-380, April 2005. 
http://www.gao.gov/new.items/d05380.pdf

[21]  J.M. Peha, ``The Digital TV Transition: A Chance to Enhance 
Public Safety and Improve Spectrum Auctions,'' IEEE Communications. 
http://www.ece.cmu.edu/peha/safety.html

Appendix 2

    For further discussion, please see the following book

              Science and Technology Advice for Congress,

                       M.G. Morgan and J.M. Peha,
                    RFF Press, Washington, DC, 2003.

PUBLISHER'S SYNOPSIS:

    The elimination of the Office of Technology Assessment (OTA) in 
1995 came during a storm of budget cutting and partisan conflict. 
Operationally, it left Congress without an institutional arrangement to 
bring expert scientific and technological advice into the process of 
legislative decision-making. This deficiency has become increasingly 
critical, as more and more of the decisions faced by Congress and 
society require judgments based on highly specialized technical 
information.
    Offering perspectives from scholars and scientists with diverse 
academic backgrounds and extensive experience within the policy 
process, Science and Technology Advice for Congress breaks from the 
politics of the OTA and its contentious aftermath. Granger Morgan and 
Jon Peha begin with an overview of the use of technical information in 
framing policy issues, crafting legislation, and the overall process of 
governing. They note how, as non-experts, legislators must make 
decisions in the face of scientific uncertainty and competing 
scientific claims from stakeholders. The contributors continue with a 
discussion of why OTA was created. They draw lessons from OTA's demise, 
and compare the use of science and technological information in Europe 
with the United States.
    The second part of the book responds to requests from congressional 
leaders for practical solutions. Among the options discussed are 
expanded functions within existing agencies such as the General 
Accounting or Congressional Budget Offices; an independent, NGO-
administrated analysis group; and a dedicated successor to OTA within 
Congress. The models emphasize flexibility--and the need to make 
political feasibility a core component of design.

                        Biography of Jon M. Peha

    Jon M. Peha is Associate Director of the Center for Wireless and 
Broadband Networking at Carnegie Mellon University, and a Professor in 
the Department of Engineering and Public Policy and the Department of 
Electrical and Computer Engineering. He has addressed telecom and e-
commerce issues on legislative staff in the House and Senate, and 
helped launch a U.S. Government interagency program to assist 
developing countries with information infrastructure. He has also 
served as Chief Technical Officer of several high-tech start-ups, and 
as a member of technical staff at SRI International, AT&T Bell 
Laboratories, and Microsoft. Dr. Peha's research spans technical and 
policy issues of information networks. This has included broadband 
Internet, wireless networks, video and voice over IP (VOIP), 
communications systems for first responders for public safety and 
homeland security, spectrum management, universal service, secure 
systems for financial transactions over the Internet, e-commerce 
taxation and privacy, and network security. He holds a Ph.D. in 
electrical engineering from Stanford.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Boehlert. Thank you very much, Dr. Peha. Let me 
point out that sometimes, advice and information are two 
different things entirely.
    Dr. Teich.

   STATEMENT OF DR. ALBERT H. TEICH, DIRECTOR OF SCIENCE AND 
 POLICY PROGRAMS, AMERICAN ASSOCIATION FOR THE ADVANCEMENT OF 
                            SCIENCE

    Dr. Teich. Mr. Chairman, Mr. Gordon, Members of the 
Committee, thank you for the opportunity to appear here this 
morning on behalf of AAAS.
    AAAS, as you may know, is the world's largest multi-
disciplinary scientific association. We were founded in 1848, 
and today represent roughly 10 million individuals who are 
members in our affiliated societies. We are also the publisher 
of the journal Science.
    Congress today is addressing an increasing number of 
complex scientific issues. Last week alone, the House and its 
committees addressed, among other topics, stem cell research, 
climate change science, voting technology, fuel cells, and 
agricultural policy.
    Few Members of Congress, with the notable exception of 
several Members of this committee, and relatively few 
Congressional staff, at least outside of this committee, have 
backgrounds in science. Do adequate resources exist for 
Congress to address these kinds of issues? From our 
perspective, the answer is no. Information is abundant, but 
objective, timely, policy-relevant analyses, which is what 
Congress really needs, are in short supply.
    The increased use of technology and the Internet have 
revolutionized the way in which people and organizations 
communicate with elected officials. A recent study found that 
Congress received four times more communications in 2004 than 
it did in 1995. An average Congressional staffer, of which 
there are over 10,000, receives 200 emails a day from advocacy 
groups, constituents, and colleagues, and I suppose that 
doesn't even include advertisements for Viagra and other 
similar emails.
    How can a Member of Congress, as busy as he or she is, 
digest this enormous amount of information, and separate the 
wheat from the chaff? Many scientific assessments are conducted 
or funded by entities that have a financial or political 
interest in the issue at hand, and funding from such groups is 
often perceived to affect the study's findings. Conflicting 
reports from groups with different viewpoints can make it 
difficult to determine where the scientific consensus lies, 
particularly for those not deeply familiar with the scientific 
process.
    Congressional support agencies, such as the Government 
Accountability Office, the Congressional Budget Office, and the 
Congressional Research Service, play an important role. 
Nonpartisanship, objectivity, and responsiveness to Members' 
requests make them valuable resources. Each one, however, has 
limitations when it comes to providing scientific and technical 
policy analyses, as I indicate in my written statement.
    Though they are not Congressional support agencies, the 
National Academies and the National Research Council respond to 
approximately 10 to 20 Congressional requests for studies each 
year. Though reports can be completed quickly sometimes, often, 
the process takes twelve to eighteen months. These 
authoritative studies by distinguished scientific experts 
therefore tend to be most useful for in-depth treatment of 
long-term issues.
    Other large-scale assessments, including international 
projects, such as the Millennium Ecosystem Assessment, the 
executive branch research efforts, such as the Climate Change 
Science Program, also provide in-depth studies, but again, not 
on a time scale that is consistent with the needs of Congress.
    One resource available to Congress, as mentioned earlier, 
is the Congressional Science Fellows program. Begun by AAAS in 
1973, the program today provides an opportunity for 
approximately 35 Ph.D. level scientists and engineers to work 
as professional staff in Congressional offices for a year. 
Fellows' stipends are paid by scientific societies, making them 
a free source of expertise for Members. Many Fellows catch 
Potomac Fever and remain in Washington as permanent 
Congressional staff, providing a scientific perspective on 
policy issues. Nevertheless, the relatively small number of 
Fellows means that the percentage of staff with scientific 
backgrounds remains low.
    In recent years, universities and scientific societies, 
including AAAS, have expanded efforts to bring objective 
scientific information to Congress through reports on policy 
relevant topics and scientific briefings. These activities are 
often limited by funding. In addition, scientists are often 
cautious about providing policy analyses on scientific issues, 
sticking instead to providing data, limiting their ability to 
inform decisions in a meaningful way.
    To sum up, information is not in short supply on Capitol 
Hill, as you, Mr. Chairman, indicated, but information is not 
knowledge. Credible sources are needed to provide timely 
analysis and synthesis of scientific and technical information 
as a foundation for Congressional decisions.
    These concerns are not new, as Mr. Gordon mentioned in his 
statement. Back in 1970, and in fact, previous to that even, at 
least in 1970, a study of Congress found that it lacked 
``independent sources of scientific and technical advice.'' 
This realization led to a number of important organizational 
innovations. The even greater role of science and technology in 
today's society demands that Congress seek innovative methods 
suited to 21st Century needs to obtain objective, timely, 
policy-relevant analyses, that is, knowledge that Members can 
use.
    AAAS and the scientific community stand ready to help in 
this vital endeavor. Thank you very much for allowing me to 
express my views.
    [The prepared statement of Dr. Teich follows:]

                 Prepared Statement of Albert H. Teich

    Thank you for the opportunity to appear before you today on behalf 
of the American Association for the Advancement of Science (AAAS) to 
discuss scientific and technical advice for Congress. AAAS is the 
world's largest multi-disciplinary scientific society and publisher of 
the journal Science. AAAS was founded in 1848, and represents roughly 
10 million individuals through its members, affiliated societies and 
academies of science.
    Congress is increasingly addressing complex scientific issues. Last 
week alone, the House and its committees addressed--among other 
topics--stem cell research, climate change science, voting technology, 
fuel cells, and agricultural policy. Over the past year, the list 
expands to include intellectual property, avian influenza, bioterrorism 
threats, research priorities in aeronautics, and ocean resource 
management.
    Few Members of Congress, with the notable exception of several 
Members of this committee, and relatively few congressional staff, have 
backgrounds in science. Do adequate resources exist for Congress to 
address these issues? From our perspective, the answer is no. 
Information is abundant, but objective, timely, policy-relevant 
analyses are in short supply.
    The increased use of technology and the Internet have 
revolutionized the way in which people and organizations communicate 
with elected officials. A recent study found that Congress received 
four times more communications in 2004 than it did in 1995. Virtually 
all of this increase is from Internet-based communication. The average 
congressional staffer (of which there are over 10,000) receives 200 e-
mails each day from advocacy groups, constituents, and colleagues.\1\
---------------------------------------------------------------------------
    \1\ Fitch, Brad and Nicole Griffin, Communicating With Congress: 
How Capitol Hill Is Coping With the Surge in Citizen Advocacy, 
Congressional Management Foundation, 2005.
---------------------------------------------------------------------------
    How can a Member of Congress, as busy as he or she is, digest this 
enormous amount of information, and assess its validity? Many 
scientific assessments are conducted or funded by entities that have a 
financial or political interest in the issue at hand. Funding from such 
groups or organizations is often perceived to affect the study's 
findings. Conflicting reports from groups with different viewpoints can 
make it difficult to determine the scientific consensus, particularly 
for those not deeply familiar with the nature of science, the peer-
review process, the definitions of scientific consensus, and principles 
of uncertainty.
    Furthermore, a key challenge for members and their staffs is to use 
the information and assistance provided by interest groups without 
becoming bound to their agendas. In the words of one observer, 
``interest groups usually have their own ideas about proper allocation, 
and they seldom coincide with Congressmen's predilections.'' \2\
---------------------------------------------------------------------------
    \2\ Arnold, R. Douglas, ``The Local Roots of Domestic Policy,'' in 
Thomas E. Mann and Norman J. Ornstein (eds.), The New Congress 
(Washington: American Enterprise Institute, 1981), pp. 250-287.
---------------------------------------------------------------------------
    Nonpartisanship, objectivity, and responsiveness to Members' 
requests make Congressional support agencies, such as the Government 
Accountability Office (GAO), the Congressional Budget Office (CBO), and 
the Congressional Research Service (CRS), valuable resources, though 
they are not solely dedicated to science and technology. One 
explanation of Members' overall positive appraisal for the agencies may 
lie in an observation by Davidson and Oleszek:

         ``Unlike committee or personal aides, these agencies operate 
        under strict rules of nonpartisanship and objectivity. Staffed 
        with experts, they provide Congress with analytical talent 
        matching that in executive agencies, universities, or 
        specialized groups.'' \3\
---------------------------------------------------------------------------
    \3\ Davidson, Roger H. and Walter J. Oleszek, Congress and Its 
Members, 3rd ed. (Washington, DC: CQ Press, 1990).

    CRS reflects its base in the Library of Congress by providing quick 
responses to thousands of congressional requests annually for factual 
information, as well as providing policy research and analysis. Its 
reports are useful, but its ability to provide synthesis is limited. 
Though it has the ability to conduct scientific and technological 
assessments, GAO's work reflects its traditional major focus--
eliminating waste and fraud and improving program performance. At its 
current staffing levels, GAO can only complete one to three technology 
studies per year.\4\
---------------------------------------------------------------------------
    \4\ Kelly, Henry et al., Flying Blind: The Rise, Fall and Possible 
Resurrection of Science Policy Advice in the United States, Federation 
of American Scientists, 2004.
---------------------------------------------------------------------------
    Though they are not congressional support agencies, the National 
Academies and National Research Council respond to approximately 10-20 
requests for studies from Congress each year. Though reports can 
sometimes be completed quickly, the process generally takes 12-18 
months. These authoritative studies that involve distinguished 
scientific experts writing peer-reviewed reports tend to be most useful 
for in-depth treatment of long-term issues.
    Other large-scale assessments, including international projects 
such as the Millennium Ecosystem Assessment and Intergovernmental Panel 
on Climate Change (IPCC), provide in-depth assessments of the current 
state of knowledge on broad topics. The IPCC aims to provide 
information that is policy relevant but not policy prescriptive. 
Similarly, ongoing executive branch research efforts such as the 
Climate Change Science Program use experts to determine the scientific 
consensus on key issues. However, these large-scale projects are seldom 
conducted on a time scale that is consistent with the needs of 
Congress.
    One resource available to Congress is the Congressional Science 
Fellows program. Begun in 1973 by a group of scientific and engineering 
societies led by AAAS, this program provides an opportunity for 
approximately 35 Ph.D.-level scientists and engineers to work as 
professional staff in congressional offices for a year. Fellows' 
stipends are paid by scientific societies, making them a free source of 
expertise for Members. Many Fellows catch ``Potomac Fever'' and remain 
in Washington as full-time congressional staff, continuing to provide a 
scientific perspective on policy issues.
    Over the years, many Members of Congress have indicated how 
valuable they find the program. For example Rep. John Peterson (R-PA) 
noted that ``Congressional Fellows have played a key role on my staff. 
. .and the knowledge and expertise which they bring to the table has 
been a tremendous asset when dealing with science and technology 
issues.'' Senator Harry Reid (D-NV) added that Fellows in his office 
``have made critical contributions to a wide range of legislative and 
oversight projects, including health, environmental, educational, 
technological, economic and security issues.'' Nevertheless, the 
relatively small number of fellows means that the percentage of staff 
with a scientific background remains low.
    Universities and scientific societies, including AAAS, have 
expanded efforts to bring accurate scientific information to Congress 
through reports on policy-relevant topics, position statements, and 
scientific briefings. These activities are often limited by funding. In 
addition, scientists are often cautious about providing policy analysis 
on scientific issues, sticking instead to providing scientific data, 
limiting their ability to inform decisions in a meaningful way.
    To sum up, information is not in short supply on Capitol Hill, but 
information is not knowledge. Credible sources are needed to provide 
timely analysis and synthesis of scientific and technical information 
as a foundation for Congressional decisions.
    These concerns are not new. A 1970 report found that Congress 
lacked sufficient ``independent sources of scientific and technical 
advice.'' \5\ This realization led to a number of important 
organizational innovations. The even greater role of science and 
technology in today's society demands that we seek innovative methods 
suited to 21st Century needs to provide Congress with objective, 
timely, policy-relevant analyses--that is, knowledge that Members can 
use.
---------------------------------------------------------------------------
    \5\ von Hippel, Frank and Joel Primack, The Politics of Technology: 
Activities and Responsibilities of Scientists in the Direction of 
Technology (Stanford, 1970)
---------------------------------------------------------------------------

About the American Association for the Advancement of Science (AAAS)

    The American Association for the Advancement of Science (AAAS) is 
the world's largest multi-disciplinary scientific society and publisher 
of the journal Science (www.sciencemag.org). The non-profit AAAS 
(www.aaas.org) is open to all, and our members come from the entire 
range of science and technology disciplines. Science has the largest 
paid circulation of any peer-reviewed general science journal in the 
world, with an estimated total readership of over one million. AAAS 
fulfills its mission to ``advance science and serve society'' through 
initiatives in science education; science policy; international 
programs; and an array of activities designed both to increase public 
understanding and engage the public more with science. Programs 
designed to provide Congress with scientific resources include:

AAAS Science & Engineering Policy Fellowships. The Science & Technology 
Policy Fellowships (http://fellowships.aaas.org/) began in 1973 with 
seven Fellows serving in congressional offices, providing their 
scientific expertise to policy-makers facing increasingly technical 
legislative issues. The ensuing decades have led to the establishment 
of AAAS Science & Technology Policy Fellowships in nearly a dozen 
executive branch agencies.
    The fellowships provide the opportunity for scientists and 
engineers, from recent Ph.D. recipients to senior-level professionals, 
to learn about policy-making while contributing their knowledge and 
analytical skills to the Federal Government. About 30 other scientific 
and engineering societies participate, selecting and funding their own 
Fellows.
    The Fellows, representing a broad array of science and engineering 
fields, bring a common interest in learning about the intersection of 
science and policy, and a willingness to apply their technical training 
in a new arena. The host offices value the Fellows for their external 
perspectives and critical thinking skills, as well as for their 
technical expertise.

Center for Science and Technology in Congress. The Center for Science, 
Technology, and Congress (http://www.aaas.org/spp/cstc/) is one of the 
principal channels for AAAS communication between the scientific 
community and the legislative branch of the U.S. Government. It was 
established in 1994, under an initial grant from the Carnegie 
Corporation of New York. The Center's primary function is to facilitate 
communication between the science and engineering community on the one 
hand and the legislative community and the public it represents on the 
other.
    AAAS's inclusiveness and breadth of coverage among fields of 
science and engineering enable it to both draw upon and reflect the 
views of virtually the entire science and technology enterprise. The 
Center's multi-faceted strategy is a strong example of how AAAS 
approaches its mission and long-term goals. It reports on S&T-policy 
relevant news through the monthly newsletter Science & Technology in 
Congress; the Center organizes congressional briefings; it provides 
Policy Briefs on critical scientific issues facing policy-makers; and 
it assists in the preparation of AAAS formal statements and 
resolutions, congressional testimony, and letters to the executive and 
legislative branches of governments. Its activities reach out to 
Members of Congress and staff, AAAS affiliates, academic institutions, 
science attaches, and the media.

Center for Science, Technology, and Security Policy. The Center for 
Science, Technology and Security Policy (http://cstsp.aaas.org/) was 
established by the AAAS through support from the Science, Technology & 
Security Initiative at the MacArthur Foundation. The goal of the Center 
is to encourage the integration of science and public policy for 
enhanced national and international security. The Center acts as a 
portal that facilitates communication between academic centers, policy 
institutes, and policy-makers.
    The Center speeds the delivery of balanced technical analysis to 
Congress, Executive Branch agencies and the public at large through 
monthly briefings, special reports from panels of technical experts, 
and partnerships with the broad international network of leading 
universities, think-tanks, professional societies and nongovernmental 
organizations.
    R&D Budget and Policy Program. Every year since 1976, AAAS has 
published a report analyzing research and development (R&D) in the 
proposed federal budget in order to make available timely and objective 
information about the Administration's plans for the coming fiscal year 
to the scientific and engineering communities and policy-makers. At the 
end of each congressional session, AAAS publishes a report reviewing 
the impact of appropriations decisions on research and development, 
entitled Congressional Action on Research and Development in the 
Budget. AAAS has also established a website (www.aaas.org/spp/R&D) for 
R&D data with regular updates on budget proposals, agency 
appropriations, R&D trends in past years, and outyear projections for 
R&D, as well as numerous tables and charts.

                     Biography for Albert H. Teich

    Albert Teich is Director of Science & Policy Programs at AAAS, a 
position he has held since 1990. He is responsible for the 
Association's activities in science and technology policy and serves as 
a key spokesperson on science policy issues. Science and Policy 
Programs, which includes activities in ethics, law, science and 
religion, and human rights, as well as science policy, has a staff of 
40 and a annual budget of about $9 million. He also serves as Director 
of the AAAS Archives.
    He received a Bachelor's degree in physics and a Ph.D. in political 
science, both from M.I.T. Prior to joining the AAAS staff in 1980, he 
held positions at George Washington University, the State University of 
New York, and Syracuse University. Al is the author of numerous 
articles and editor of several books, including Technology and the 
Future, the most widely used college textbook on technology and 
society, the tenth edition of which was published by Thompson Wadsworth 
in 2005.
    Al is a Fellow of AAAS and the recipient of the 2004 Award for 
Scientific Achievement in Science Policy from the Washington Academy of 
Sciences. He is a member of the editorial advisory boards to the 
journals Science Communication; Science, Technology, and Human Values; 
Prometheus; and Renewable Resources and a consultant to government 
agencies, national laboratories, industrial firms, and international 
organizations. He is a Past Chair of the Board of Governors of the 
U.S.-Israel Binational Science Foundation, where he remains a member of 
the executive committee; a member of the External Research Advisory 
Board of the University of California at Davis, the Norwegian Research 
and Technology Forum in the United States, and the National Research 
Council's Research and Technology Transfer Committee.
    Al is married to Jill H. Pace, Executive Director of the American 
College of Real Estate Lawyers. He has three children and three 
grandchildren. He is an accomplished amateur photographer, has 
published several photographs, and had a one-man show of his 
photographs at the Black & White Gallery in Arlington, Virginia, in 
2005, and another in the AAAS Science and Art Exhibition Gallery in 
2006.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Boehlert. Thank you very much, Doctor, and just 
let me point out, and I think on behalf of the entire 
Committee, both sides of the aisle, the AAAS Fellows program is 
a wonderful program that is warmly embraced by all.
    But it is a two way street, and I would suggest that some 
of the Fellows who come up, as you say, get Potomac Fever and 
they stay, and that is good, because that helps us be better 
informed. There are some in our committee and in our respective 
individual offices, but most of the AAAS Fellows go back from 
whence they came, into the community. And that is good for 
science, because I find, in most instances, science, scientists 
are not particularly effective at lobbying for their interests. 
They need guys like me to be lobbyists, because well--and Mr. 
Gordon.
    So, it works well. So, you have a better appreciation for 
how the political process works, and--because of the Fellows 
coming back, and the Fellows who we retain guide us, and we 
have a better appreciation for the science of the subject 
matter we are dealing with. So, keep it up please.
    Dr. Teich. Thank you.
    Chairman Boehlert. Expand it, if anything.
    Dr. Blair.

 STATEMENT OF DR. PETER D. BLAIR, EXECUTIVE DIRECTOR, DIVISION 
   ON ENGINEERING AND PHYSICAL SCIENCES, NATIONAL ACADEMY OF 
                            SCIENCES

    Dr. Blair. Thank you for the invitation to testify today 
about science and technology assessment advice to the Congress. 
The subject is certainly a longstanding one with me, that I 
have seen from different perspectives in my professional life. 
So I appreciate the opportunity to share those experiences and 
perspectives with you and the Committee.
    The breathtaking pace of science and technology over the 
past half-century has delivered both staggering benefits to 
society as well as sobering challenges associated with the role 
of technology in virtually every aspect of our lives. Society, 
in reaping the benefits, must also be able to cope with the 
challenges.
    Indeed, among the Founding Fathers' deepest concerns about 
the fledgling American democracy was that it could function 
well only when the electorate, and in particular, its 
institutions of government, are well informed about the issues 
upon which it must decide. On the slide are Mr. Madison's 
sentiments on the matter.
    Because science and technology issues, perhaps in 
particular, are so complex, or often so complex, and have such 
impact on society, a government poorly informed on such issues 
is destined to make bad policy choices. Yet today, it is 
becoming increasingly difficult for anyone, or even any 
institution, to keep pace with the frontier of scientific 
knowledge. So how, then, can the Congress acquire useful, 
relevant, informed, independent, objective, authoritative, and 
timely advice on science and technology dimensions of the 
issues it faces?
    The information revolution has dramatically expanded the 
quantity of information available to the Congress, but more has 
not proved necessarily to be better. Indeed, a fundamental 
problem today is not the quantity of information at all, but 
rather, how to gauge validity and usefulness within the flood 
of available information, advice, and advocacy.
    Another way to put this is Will Rogers' old observation 
that ``What gets us into trouble isn't so much what we don't 
know, it is what we know for sure that just ain't so.'' The 
former chairman had a similar perspective called a defense 
against the dumb.
    Congress certainly has many possible resources at its 
disposal, such as universities, think tanks, the professional 
societies, trusted constituents, existing Congressional 
agencies, and of course, the National Academies. My colleagues 
on the panel will explore some of these options, so I will 
focus on three points.
    First, the current and evolving role of the Academy in 
providing advice to the Congress through its--principally, 
through its operating arm, the National Research Council. 
Second, what I consider to be an especially important gap in 
the sources of advice available to the Congress, and third, 
some concluding thoughts on the options.
    As an additional and more detailed discussion, I refer to a 
report, ``Scientific Advice for Policy in the United States: 
Lessons from the National Academies and the Former 
Congressional Office of Technology Assessment,'' which I would 
like to include for the hearing record. In that document, and 
also, in my written statement, I recap for you the charter of 
the Academies, and how today, our studies continue to be among 
those most familiar and respected sources of independent 
scientific advice to the Congress.
    Indeed, Academy committees produce over two hundred reports 
annually, of which between 15 and 25 a year are mandated by 
Congress, which means that while the Academy is a substantial 
enterprise in the science and technology advice world overall, 
its role specifically for the Congress is actually a relatively 
small part of the portfolio. We could do more, and indeed, as 
my colleagues on the panel will attest, the entire science 
community could do much more.
    The key strengths of the NRC in providing advice to the 
Congress are principally threefold. First, the long established 
reputation for credibility, enhanced by its association with 
the prestigious memberships of the Academies. Second, a 
historical ability to convene leading experts, and third, a 
well established and respected study process, designed to 
maintain balance and objectivity throughout a study committee's 
work, that produces reports considered to be both unbiased and 
authoritative.
    The resulting NRC study reports often serve an important 
need of Congress, that is, an authoritative set of consensus 
findings and recommendations from a widely recognized group of 
experts, often leading to a specific recommended course of 
action. Some of the sample reports shown on this slide should 
be very familiar to this committee, you have talked about just 
in recent weeks, and one the chairman mentioned a while ago.
    Nonetheless, like any process designed to serve many needs, 
the NRC study process is not perfectly tuned to serve all 
government needs. For example, our process is less well 
equipped, currently, to go beyond technical analysis, to gauge 
the broader policy implications of alternative actions, 
especially those implications that may involve fundamental 
value judgments or tradeoffs for which it may be difficult to 
impossible to achieve consensus. In short, and at some risk of 
being simplistic, what seems to be missing is a mechanism to 
inform the Congressional debate, including perspectives that 
may go beyond science and technology to include the broader 
implications of alternative actions related to science and 
technology issues being considered, and especially, a 
comprehensive evaluation of such perspectives. In the question 
period, I would be happy to offer some examples.
    In my view, both of these kinds of analysis, that is, both 
the traditional NRC study and this new type of study I am 
talking about, are important to Congressional deliberations. 
Since the closure of OTA now a decade ago, this latter type of 
analysis, as performed by a disinterested, analytical 
organization tuned specifically to the needs of Congress, is 
not readily accessible to the Congress.
    Such a function may need to be reconstructed in some way, 
through adapting an existing organization, or through creation 
of a new organization answerable directly to the Congress, or 
perhaps by creating a new process within an existing 
Congressional agency. There are some experiments underway at 
GAO, for example.
    Let me conclude by reiterating that the need for useful, 
relevant, informed, independent, objective, authoritative, and 
timely advice on the science and technology issues to the 
Congress is becoming more and more noticeable out here. There 
are certainly a variety of options for filling the various 
gaps, including the specific gap I mentioned today. We at the 
Academy look forward to playing a role in building those 
various options. I mentioned Will Rogers' advice earlier, but 
perhaps Yogi Berra's advice seems appropriate here concerning 
which path to take on improving and expanding the mechanisms 
for science and technology assessment and advice to the 
Congress: ``When you get to the road, and you have to--when you 
get to that fork in the road, and you have to choose, take 
it.'' Since there are multiple paths that you can follow.
    Mr. Chairman, thank you again for the opportunity to share 
my thoughts, and I look forward to answer any questions you may 
have.
    [The prepared statement of Dr. Blair follows:]

                  Prepared Statement of Peter D. Blair

Mr. Chairman,

    Thank you for the invitation to testify today about the science and 
technology advice to the Congress. The subject is certainly a 
longstanding one with me that I have seen from many perspectives--from 
academia, to private science and engineering consulting, to a senior 
management role in the former Office of Technology Assessment (OTA), to 
managing a professional scientific society, to my current post at the 
National Academies. I appreciate the opportunity to share those 
experiences and perspectives with you and the Committee.
    The breathtaking pace of science and technology over the past half-
century--from the remarkable advances in medicine, to cell phones, to 
the Internet, to countless others--has delivered both staggering 
benefits to society as well as sobering challenges associated with the 
role of technology in virtually every aspect of our lives. Society, in 
reaping the benefits, must also be able to cope with the challenges.
    Among the founding fathers' deepest concerns about the fledgling 
American democracy was that it could function well only when the 
electorate and, in particular, its institutions of government are well 
informed about the issues upon which it must decide.
    James Madison or Thomas Jefferson might well have argued that a 
government poorly informed about science and technology issues, because 
such issues are often so complex and have such impact on society, is 
destined to make bad policy choices. Yet, today, it is becoming 
increasingly more difficult for anyone, or even any institution, to 
keep pace with the frontier of knowledge. How, then, can the Congress 
receive useful, relevant, informed, independent, authoritative and 
timely advice on the science and technology dimensions of the issues it 
faces? So your hearing today is important and timely.

Introduction

    In the last decade the information revolution has dramatically 
expanded the quantity of information available to the Congress, but 
more information is certainly not necessarily better information. 
Indeed, a fundamental problem now is not really the lack of 
information; rather, it is how to gauge validity and usefulness within 
the flood of available information and advice.
    Congress certainly has many possible resources at its disposal, 
ranging from universities, to independent think tanks, to existing 
Congressional agencies such as GAO, CBO, and CRS, and, of course, the 
National Academies. Other witnesses at this hearing will explore many 
of these options, so in my testimony I will focus on (1) the current 
and evolving role of the National Academies in providing advice to 
Congress, (2) what I consider to be an especially important gap in the 
current sources of advice for Congress, and (3) some thoughts related 
to a number of the options under consideration for filling this gap.
    As an additional and more detailed discussion of some of these 
issues I would like to include for the record a report I prepared for a 
conference in Berlin earlier this year on precisely this topic: 
Scientific Advice for Policy in the United States: Lessons from the 
National Academies and the former Congressional Office of Technology 
Assessment.\1\
---------------------------------------------------------------------------
    \1\ Forthcoming in Proceedings of the Symposium on Quality Control 
and Assurance in Scientific Advice to Policy, Working Group on 
``Scientific Advice to Policy in Democracy,'' Berlin-Brandenburg 
Academy of Science & Humanities, Berlin, Germany, January 12, 2006.
---------------------------------------------------------------------------

The Traditional Role of the National Academies

    Today, among the most familiar sources of independent scientific 
and technical advice to Congress is the collection of organizations we 
now refer to as the National Academies, which include the National 
Academy of Sciences (NAS), the National Academy of Engineering (NAE), 
the Institute of Medicine (IOM), and their ``operating arm,'' the 
National Research Council (NRC). In 1863 Congress chartered the NAS as 
an independent non-profit corporation to ``whenever called upon by any 
department of the Government, investigate, examine, experiment, and 
report upon any subject of science or art.'' This charter was signed by 
President Lincoln during the height of the U.S. Civil War, and the 
President was among the first to call upon the Academy for advice.
    Today, the NAS, NAE, and IOM are each honorary societies that elect 
new members to their ranks annually and all operate under the original 
NAS charter. The NRC assembles committees of academy members and other 
experts to carry out studies for executive branch agencies, but 
Congress also frequently mandates studies by the NRC spanning the 
entire spectrum of science and technology related issues. The NRC 
produces around 200 reports annually, of which approximately 25 are 
mandated by Congress.
    The studies at the National Academies involve nearly 10,000 
volunteers annually serving on expert committees and in the review 
process as well as over a 1,000 professional staff. In the science and 
technology advice world, the Academy is a substantial enterprise for 
providing advice to the Federal Government in a broad range of areas, 
although the role specifically for Congress has traditionally been a 
relatively small part of the overall Academy portfolio.
    The key strengths of the NRC in providing advice to the 
Administration and to Congress are its long-established reputation for 
credibility, its convening power, and the integrity of its study 
process resulting in reports widely accepted as unbiased. Some features 
of these key strengths include the following:

        <bullet>  Credibility. Perhaps the principal strength of the 
        NRC is its institutional credibility, enabled significantly by 
        its association with the prestigious memberships of the NAS, 
        NAE, and IOM. The process by which this nongovernmental 
        institution conducts its work is designed to ensure the results 
        are evidence-based and tightly reasoned, and its independence 
        from outside influences and pressures from various interest 
        groups including government agencies. It should also be noted 
        that the Academies conduct several studies each year using our 
        own endowment or foundation sources, often focusing on topics 
        that the Academies believe to be important but that the 
        government may not be willing or able to fund. Examples include 
        the recent effort, Rising Above the Gathering Storm: Energizing 
        and Employing America for a Brighter Economic Future, and the 
        2002 study Making the Nation Safer: The Role of Science and 
        Technology in Countering Terrorism as well as many others very 
        well known to this committee.

        <bullet>  Convening Power. A second major strength is the 
        convening power of the NRC. That is, the experts invited by the 
        NRC to participate in its studies generally accept the 
        invitation and are willing to invest considerable time and 
        energy on a pro bono basis. Studies are carried out by groups 
        of volunteers who are broadly considered among the best experts 
        on the issues to be studied, are free of conflicts of interest, 
        and have very carefully balanced biases. Because of the breadth 
        of membership in the academies and the links of the 
        organization to the scientific and technical communities 
        worldwide, the NRC is well equipped to identify and recruit 
        leading experts to serve on study committees.

        <bullet>  Study Process and Products. Finally, another key 
        strength that has continued to evolve over the years is the NRC 
        study process itself that is designed to maintain balance and 
        objectivity throughout a committee's work and that produces 
        reports considered to be both unbiased and authoritative. A key 
        quality control feature in the process is independent peer 
        review. After consensus is achieved by a study committee and a 
        draft report is prepared, the NRC process requires the 
        committee to address all of the comments from a carefully 
        selected collection of peer reviewers, whose identity is not 
        revealed to the committee until the study is publicly released.

Challenges for Serving Congressional Needs

    Over the years the NRC process has proved consistently to be a 
strong model for providing independent authoritative advice to 
government. Like any process designed to serve many needs, however, it 
is not perfectly tuned to serve all the needs of all parts of 
government that need science and technology advice. The most commonly 
cited issues associated with the NRC study process, especially perhaps 
as they relate to Congressional needs, are the following:

        <bullet>  Cost. It is often perceived to be expensive to 
        commission an NRC study; even though committee members are 
        volunteers whose time is contributed pro bono (except for 
        travel expenses). At least in part this perception is due to 
        the fact that a separate contract is negotiated for each 
        individual study--unlike the central funding for agency 
        advisory committees.

        <bullet>  Timeliness. The NRC process, which includes 
        commissioning and contracting for the study, selecting and 
        convening a study committee, arranging subsequent meetings 
        among busy people who are serving on a volunteer basis, and 
        navigating a report through peer review, editing, production, 
        and release takes time. The average time for an NRC study is 18 
        months, but can be longer. It should also be noted, however, 
        that studies can be carried out quite rapidly given an 
        important national need or specific agency or Congressional 
        requirements. As examples, both Rising Above the Gathering 
        Storm and Making the Nation Safer, noted earlier, were 
        completed in about six months and a widely cited study, Climate 
        Change Science, was completed in one month.

        <bullet>  Sources of Sponsorship. Most NRC studies are 
        commissioned and paid for by federal agencies through 
        contracts, even those mandated by Congress which adds the 
        additional hurdle of enacting a law. On the one hand, this is 
        beneficial in that it helps ensure that what the NRC does is 
        relevant and important, and the diversity of support helps 
        assure independence. On the other hand, it often takes six to 
        nine months through a government procurement process to 
        initiate an NRC study even after a mandated study has been 
        enacted in law (or included in report language). For those 
        studies mandated by Congress, an additional delay often results 
        from the time needed to enact the relevant legislation.

A Gap in Types of Advice Currently Available to Congress

    The NRC study process is well developed and serves an important 
need of Congress--an authoritative set of findings and recommendations 
from widely recognized experts, often leading to a specific recommended 
course of action. In particular, NRC committees are usually assembled 
with the intention of achieving consensus recommendations supported by 
evidence. In a very controversial subject area with scientific and 
other uncertainties, if a broad set of perspectives are included in the 
study committee, as one might expect if the purpose is to include all 
possible scientific and other perspectives on a problem, a consensus 
might be difficult to achieve. This is why the NRC places a high 
priority on an appropriately balanced committee and a rigorous 
information-gathering phase of a committee's work, where such 
perspectives are heard.
    Since the historical focus of the NRC process has been on 
delivering consensus-based advice on science and technology topics, the 
process is less well equipped to elaborate on the broader context of an 
issue and inform the policy debate with careful and objective analysis 
of the policy consequences of alternative courses of action, especially 
those that may involve value judgments and trade-offs beyond the scope 
of technical analysis. Consequently, it has been far less common for 
the NRC to assemble committees charged with identifying and evaluating 
the pros and cons of a range of alternative policy options, although it 
would certainly be possible to develop such a study process in the 
National Academies.
    Both types of analysis just described are important to 
congressional deliberation depending upon the circumstances. With the 
closure of the former Office of Technology Assessment (OTA), the latter 
type of analysis as performed by a disinterested analytical 
organization is no longer readily accessible to the Congress and may 
need to be reconstructed in some way, either through adapting an 
existing organization or through creation of an organization that is 
answerable directly to the Congress or perhaps creating a new process 
within an existing Congressional agency.
    As an example illustrating the analysis gap just noted, consider 
the case where Congress may be interested in the future of the Nation's 
electric power system, following a major blackout. The salient issues 
could be posed in two alternative ways:

        <bullet>  One type of study would be to seek an authoritative 
        set of recommendations for making the system more secure and 
        reliable in the wake of blackouts or threats of terrorist 
        attacks on the Nation's infrastructure. In such a study, the 
        well established NRC approach would be to assemble a committee 
        of experts, review what is known about the power system and 
        where it is headed, and deliver specific engineering and 
        operational recommendations about how to improve system 
        reliability and performance. Indeed, we currently have such a 
        study underway to assist the Department of Homeland Security.

        <bullet>  In another type of study, Congress might be 
        interested in exploring the technical as well as societal, 
        environmental, economic, regulatory, or other broad 
        implications of alternative scenarios for the future of the 
        Nation's electric utility industry, perhaps once again 
        precipitated by a blackout. Not only technical, but also 
        political, economic, social, environmental, and probably many 
        other kinds of tradeoffs and value judgments are involved in 
        characterizing a series of scenarios for the future structure 
        of the industry, ranging from moving toward a national 
        centrally controlled grid to fully deregulating wholesale and 
        retail electricity segments of the industry.

    These two types of studies are not necessarily mutually exclusive, 
but unlike the first case, in the second case a set of consensus 
recommendations is not the principal objective, and the collection of 
stakeholders and experts necessary to carefully identify and explore 
these alternatives would be considerably different than for the study 
committee structured to reach an evidence-based, tightly reasoned 
consensus recommendations based on scientific evidence and on specific 
technical issues.
    In short, and perhaps at the risk of being simplistic, the first 
type of analysis is designed to illuminate the scientific and technical 
aspects of a problem to help in directing a specific course of action 
while, in the second case, the analysis is designed principally to 
inform the Congressional debate, including perspectives that may go 
beyond science and technology about the broader implications of 
alternative actions related to the science and technology issues being 
considered, but both types of analysis are very important to 
Congressional deliberations.

Evolving Study Processes at the NRC

    The fact that the NRC process does not now accommodate the second 
form of advice noted above does not mean that it could not; indeed, NRC 
processes to do change from time to time in response to government 
needs. As a case in point--the horrific terrorist events of September 
11, 2001 spurred widespread interest in findings ways to contribute to 
the understanding of the science and technology dimensions of homeland 
security and countering terrorism. Specifically, many government 
agencies expressed urgent needs for immediate advice in these areas. In 
response, the NRC used its convening power to assemble small groups of 
experts who then provide advice as individuals, rather than as a group 
constituting an NRC committee. Such ``real-time'' advice, which is done 
orally and not by a written report, does not carry the imprimatur of 
the NRC study process, especially the quality control aspects of 
committee deliberation and peer review of a written report. It does, 
however, provide a new means of satisfying a real need of the 
government, i.e., providing timely input to policy makers and other 
organizations, including the Government Accountability Office (GAO) 
with whom we now have a longstanding relationship along these lines.
    Additional Congressional needs vary widely, including such 
deliverables as (1) ``instant education'' on a complex science and 
technology issue, (2) ``translations'' of authoritative reports to more 
readable and understandable language tuned to the needs of broad 
policy-makers, (3) summaries of landmark authoritative reports, and (4) 
updates or adaptations of existing reports and information to current 
needs, and (5) readily available and trusted expert consultants on call 
to help with quick turnaround questions and interpretations of complex 
technical information. Some of these capabilities are accessible to 
varying degrees through the Congressional Research Service and through 
various other means. Missing, however, especially since the closure of 
OTA, is an ability to provide comprehensive analysis in any organized 
or readily accessible way by an organization directly accountable to 
Congress.

Collaboration and a GAO Experiment

    In an experiment to test the feasibility of developing a 
``technology assessment'' capability in the Government Accountability 
Office (GAO), a first-of-a-kind GAO technology assessment report on 
biometric technologies was released in 2002. The NRC did not 
participate in developing this assessment, but it did use its contacts 
to assist the GAO in identifying individuals with the proper expertise. 
There are some shortcomings in the approach adopted by the GAO in 
carrying out its first attempt at a technology assessment, most notably 
the lack of a substantive and accountable peer review process. 
Nevertheless, the experiment has been more successful than many 
anticipated and the GAO seems receptive to incorporating improvements 
suggested by a review group commissioned to review the GAO approach. In 
particular, the group identified a number of significant organizational 
challenges that it felt were necessary to refine the GAO approach, such 
as the incorporation of a mechanism for peer review, which could then 
possibly evolve into a more mature technology assessment capability 
within the legislative branch.
    Whether the GAO is capable of such reforms on a larger scale 
remains to be seen, but it seems fair to conclude that the initial GAO 
experiment has yielded evidence sufficient to continue the experiment. 
We are pleased that the NRC's modest role in this experiment, by 
providing experts to talk with GAO, appears to have been one of the 
successful features of this approach and may constitute a way in which 
the National Academies can contribute to a renewed technology 
assessment capability within the legislative branch, in addition to its 
more traditional response to congressionally mandated requests for 
assistance. Such a mechanism provides the GAO a degree of access to the 
National Academies' considerable network of technical expertise. If 
needed, the Academies would also be willing to conduct similar studies 
commissioned by GAO to aid in responding to important Congressional 
requests.

The Former Office of Technology Assessment

    By comparison with and in contrast to the NRC study process, the 
former Office of Technology Assessment (OTA) study process used an 
authoritative committee of volunteers as an advisory panel rather than 
assuming authorship of the study itself, which was produced by 
professional staff. As with NRC reports, OTA reports were also subject 
to a rigorous peer review. On the one hand, this approach permitted 
easier regulation of the role of the committee, particular if achieving 
a consensus in a broad controversial area was unlikely, but, on the 
other hand, such a practice also sacrificed the authoritativeness of 
the volunteer experts as authors of the report, an important feature of 
the NRC process.
    Because the former OTA panels were advisory, and not the report's 
authors, the necessity of reaching a consensus was seldom an issue. 
Indeed, OTA was prohibited in its enabling legislation from making 
recommendations, so the panel was created to try to collect the views 
of all important stakeholders rather than to try to produce consensus 
recommendations (although consensus findings and conclusions were 
provided and viewed as important by requesting Congressional 
committees). Instead, the OTA project teams sought to analyze and 
articulate the consequences of alternative courses of action and 
elaborate on the context of a problem without coming to consensus 
recommendations on a specific course of action, which would be 
difficult anyway with a diverse group with points of view that 
prevented consensus on many controversial issues.
    If required to come to a consensus set of recommendations, even if 
it were permitted under the enabling legislation, the former OTA model 
would likely be unworkable for controversial subjects with many 
opposing points of view. Nonetheless, the type of study undertaken by 
the former OTA was an important input to Congressional deliberation and 
it has not yet been reproduced in the Legislative Branch agencies or 
elsewhere, including the National Academies. The Academies could carry 
out such studies but that would require some changes in its study 
procedures for such studies as indicated above.

Conclusions

    The National Academies have enjoyed a longstanding and effective 
working relationship with Congress on even the most contentious issues. 
There are, no doubt, many characteristics of that relationship that 
could be improved, both to perform the traditional NRC role more 
effectively and to provide some opportunities to expand that role.
    The gaps I mentioned earlier in the mechanisms for providing 
useful, relevant, informed, independent, authoritative and timely 
advice on the science and technology issues to the Congress are 
becoming more and more noticeable. There are certainly a variety of 
options for filling these gaps, some of which might involve the Academy 
and some that would not. Many of them are worthy of serious 
consideration and we in the National Academies look forward to playing 
a role in this very important area in whatever mechanism develops. 
Thank you again for the opportunity to share my thoughts with you today 
and I look forward to addressing any questions the Committee might 
have.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                      Biography for Peter D. Blair

    Peter Blair joined the National Research Council's (NRC) Division 
for Engineering and Physical Sciences as its first Executive Director 
in 2001, responsible for the NRC's portfolio in defense, energy and 
environmental systems, information and telecommunications, physics, 
astronomy, mathematics and operations research, aeronautics and space 
science and engineering, materials, manufacturing and engineering 
design, and civil engineering infrastructure.
    Prior to his appointment at the NRC, from 1996-2001, Dr. Blair was 
Executive Director of Sigma Xi, the Scientific Research Society and 
publisher of American Scientist magazine, as well as an Adjunct 
Professor of Public Policy Analysis at the University of North Carolina 
at Chapel Hill.
    From 1983-1996 Dr. Blair served in several capacities at the 
Congressional Office of Technology Assessment (OTA), concluding as 
Assistant Director of the agency and Director of the Industry, Commerce 
and International Security Division where he was responsible for the 
agency's research programs on energy, transportation, infrastructure, 
international security, space, industry, commerce, and 
telecommunications. He received the OTA's distinguished service award 
in 1991.
    Prior to his government service, Dr. Blair served on the faculty of 
the University of Pennsylvania with appointments in the graduate groups 
of energy management, regional science, and public policy and was a co-
founder of Technecon, Inc., a Philadelphia engineering-economic 
consulting firm specializing in investment decision analysis of energy 
projects and in developing, financing, and managing independent power 
generation projects.
    Dr. Blair holds a B.S. in engineering from Swarthmore College, an 
M.S.E. in systems engineering and M.S. and Ph.D. degrees in energy 
management and policy from the University of Pennsylvania. He is the 
author or co-author of three books and over a hundred technical 
articles in areas of electric power systems engineering, energy and 
environmental policy, computer modeling of energy systems, regional 
science and input-output analysis, and commercialization of new 
technology.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Boehlert. And thank you for sharing the wisdom of 
one of the most beloved Yankees.
    Dr. Hunt.

 STATEMENT OF DR. CATHERINE T. HUNT, PRESIDENT-ELECT, AMERICAN 
CHEMICAL SOCIETY; LEADER FOR TECHNOLOGY PARTNERSHIPS, ROHM AND 
                          HAAS COMPANY

    Dr. Hunt. Chairman Boehlert, Ranking Member Gordon, and 
distinguished Members of the Committee.
    Good morning. My name is Dr. Catherine Hunt, and I am 
pleased to address you this morning on behalf of the more than 
158,000 members of the American Chemical Society, the largest 
professional society in the world, or I should say, the largest 
scientific society in the world. I am the 2007 President of the 
Society, and I am also a technology manager at the Rohm and 
Haas Company, an $8 billion specialty materials company, where 
I build and champion technology partnerships across industry, 
academia, and national labs.
    In this age of lightning fast technological advancement, 
and potentially massive information overload, it is 
increasingly important that Congress have a reliable, credible, 
and unbiased source of scientific and technical advice to help 
sort through complex and often conflicting data.
    Take this glass of water, for example. It looks perfectly 
clean and pure, but as an analytical chemist, I can tell you 
that there are trace chemicals and minerals in this water that 
we couldn't detect even five years ago. Today's analytical 
technologies can take us down to the part per quadrillion 
level. That is part per quadrillion. That would be one inch in 
the distance it would take you to travel to Mars round trip 168 
times. So, are these substances bad or good? Should they be 
banned or enhanced? Any such decision should be based on sound 
technical assessment.
    In essence, the flow of scientific and technical 
information to Congress from any source should be subject to 
critical measures. In other words, I would like to hear 
everyone say: Is this accurate? Is it complete? Is it current? 
And most importantly, is it reliable? To be useful, it is 
critical, and you have heard this morning, that this 
information be available in a timely manner, and that it be 
easily used and understood by those with and also without 
extensive scientific and technological background.
    Since ACS was founded in 1876, the effective dissemination 
of reliable information and advice has been one of the 
Society's central tenets. In fact, ACS was chartered by 
Congress in 1937 to share scientific knowledge with a broad 
constituency, including Congress and the executive branch.
    Since the elimination of the Office of Technology 
Assessment in 1995, Members of Congress have had to rely more 
heavily on their personal staffs, and on the relatively small 
number of expert professional staff that populate committees 
like yours. Also since 1995, the ACS has hosted 109 Science & 
the Congress program briefings on Capitol Hill, seeking to 
present unbiased information on technical and public policy 
subjects. Congressional staff tell us that these briefings 
provide balance of views and information that is what I need to 
know and when I need to know it.
    To meet its needs for S&T assessments, Congress clearly 
should continue to use outside experts, including the National 
Academies, to provide nonpartisan analysis of large scale, 
complex issues. However, these experts cannot meet all of 
Congress's frequent and extensive needs.
    Congress does also tap into the expertise at the 
Congressional Research Services and the GAO, as you have 
already heard this morning. But again, these support agencies 
are not currently structured to perform all of the analysis 
required by legislators.
    So, in summary, ACS, the American Chemical Society, 
believes that Congress should consider establishing an in-house 
science and technology unit, a properly structured unit, and 
what do I mean by properly? I think it should have several 
qualities. It should be bipartisan. It should be sufficiently 
staffed to furnish complete analyses. It should have strong 
links to outside experts, to facilitate collecting a broad 
selection of inputs, and it should be staffed with 
professionals who are especially skilled, and I can tell you 
these are skills I look for in my staff to do technology 
assessment at Rohm and Haas, that they can look at the pros and 
cons of an issue, that they can look at the strengths and 
weaknesses, that they can identify opportunities and threats. 
And refining this input that they collect broadly into 
potential policy options for Congressional use.
    It should consider leveraging current science and 
technology fellowships that we have heard about this morning. 
These have been funded by outside groups. And sponsor new 
fellowships to supplement the standing capabilities. I think it 
should also consider using existing models. I like to learn 
from the past, and to learn from what works in other places, if 
it can work for you. Looking at openness and peer review, that 
is what allows the National Academies and think tanks and 
others to assemble world class science and technology reports.
    So, in closing, a new science and technology unit should be 
equally effective in performing two sometimes contradictory 
functions. First, assembling world-class science and technology 
assessments, and second, providing information to Congress in a 
form and manner that facilitates your making sound policy 
decisions.
    So, with that, I would like to thank you for allowing me to 
come and present our views on this important topic, and I would 
be happy to answer any questions that you may have.
    [The prepared statement of Dr. Hunt follows:]

                Prepared Statement of Catherine T. Hunt

Chairman Boehlert, Ranking Member Gordon, and distinguished Members of 
the Committee:

    Good Morning. My name is Dr. Catherine Hunt.
    I am pleased to address you this morning on behalf of the more than 
158,000 chemical professionals (chemists, engineers, educators and 
entrepreneurs) of the American Chemical Society (ACS), the largest 
scientific society in the world. I am the 2007 President of the Society 
and I'm also a technology manager with Rohm and Haas, an $8 billion 
specialty materials company, where I manage technology partnerships 
with the public and private sectors.
    Today's hearing explores how Congress receives and analyzes the 
scientific and technological information that it requires to evaluate 
legislation, and how those information-gathering processes might be 
improved. As technology increasingly drives our nation's economy, 
security, and quality of life, the list of policy issues that demand 
sound science and engineering understanding is rapidly expanding in 
size and complexity. Over the past month, the House has held hearings 
on topics ranging from energy to climate change, from cyber security to 
voting standards--all of which contain a strong element of science and 
that might have benefited from additional technological assessment. In 
fact, I don't believe that there is a Congressional Committee that does 
not in some manner deal with science and technology issues--even though 
it may not be obvious at first blush. For instance, if we consider 
water quality and supply, the Agriculture Committee is concerned about 
water conservation, the Energy and Commerce Committee has jurisdiction 
over drinking water, the Transportation Committee handles clean water, 
this committee has oversight of water-related research and the 
International Relations Committee needs to understand technologies that 
impact potable water resources in the Middle East.
    Sometimes information received by these committees, though 
popularly accepted and reported as fact, ultimately turns out to be 
unreliable, or worse yet--false. I think we would all agree that 
legislative action taken on the basis of this type of information would 
be regrettable and potentially damaging. Sometimes public opinion can 
drive policy, but as important as public opinion and media reports are, 
we mustn't allow these to push a rush to judgment without a careful 
evaluation of the facts. This is where I think it becomes increasingly 
important that Congress have a reliable, credible and unbiased source 
for scientific and technical assessment to help it sort through complex 
and often conflicting data.
    Take this glass of water as an example. It looks perfectly clean 
and pure--and it probably is. But given the new advances in chemical 
detection technology, I'd venture to say that we could find numerous 
trace chemicals and minerals in this glass that five years ago would 
have been impossible to detect. Today's analytical technology takes us 
down to the part per quadrillion level--a part per quadrillion is equal 
to one inch in the distance you must travel to make 168 roundtrips to 
Mars. But would we, or should we, legislate an immediate ban on the 
materials found in this glass of water just because we could detect 
them? In this example, I would suggest that information about the 
presence of these substances in and of itself should not be the basis 
for legislating a ban on the material, but rather such a decision 
should be based on an assessment of what impact, or potential impact, 
might these materials have on the health of the drinker--if any.
    It is well known that the demands and expectations on Congress 
continue to increase. Ease and reliability of electronic communications 
has resulted in Congress being bombarded on a daily basis with hundreds 
of thousands of e-mails, faxes, and phone calls from interest groups, 
trade associations, scientific societies, and interested citizens and 
constituents. This constant river of communication is sorted, 
categorized, and assimilated by Members of Congress and their staffs to 
identify that most valuable of treasures in Washington--reliable 
information.
    Since its founding in 1876, ACS has viewed the effective 
dissemination of reliable information and advice as one of its central 
functions. In fact, ACS was chartered by Congress in 1937 to share 
scientific knowledge with a broad constituency, including the Congress 
and the Executive branch. In truth, sharing scientific information is 
fundamental to scientific and technical societies and associations. 
Collectively, they provide a direct source of information and analysis 
via testimony and letters, face-to-face meetings and consultations, 
formal and informal communications, and other types of interactions.
    These organizations also organize educational and informational 
briefings for members and staff on a wide variety of science and 
technology issues. Since 1995, the ACS Science & the Congress program 
has hosted 109 briefings on Capitol Hill that seek to provide balanced 
and unbiased first-hand information from subject-matter experts on a 
wide range of technical and public policy subjects. The feedback we 
have received from these briefings, which are well attended, is that 
they provide a balance of views and an educational overview for 
congressional staff who are generally seeking such information on a 
just-in-time, tell-me-what-I-need-to-know basis.
    Many other stakeholders in the legislative process utilize the same 
tools and seek to provide similar services, including think tanks, 
universities, federal agencies, trade associations, and companies. Most 
of these groups place great emphasis on their own credibility before 
Congress and thus strive to be regarded as honest brokers of reliable 
information. However, to some extent, most of these outside sources of 
information have a vested interest in the outcome of your 
deliberations.
    The flow of scientific and technical information to Congress from 
any source should be subjected to critical measures: Is it accurate? Is 
it complete? It is current? And, most importantly, is it reliable? To 
be able to use this information, it is also important that it be 
available in a timely manner and in a way that it is easily used by 
those without backgrounds in science and technology.
    To meet its need for science and technology assessments, Congress 
clearly should continue to use outside experts, including the National 
Academies, to scope, integrate, and provide non-partisan analysis of 
large-scale complex issues involving science and technology. However, 
these experts cannot meet all of Congress' frequent and extensive 
needs, and ACS believes that Congress should have greater access to 
assessments on a wider range of subjects than outside organizations are 
capable of providing.
    Since the elimination of the Office of Technology Assessment in 
1995, Congress has functioned without an impartial internal unit that 
can frame complex issues, provide comprehensive and balanced insights 
and analysis, and set out policy options on science and engineering 
issues. Members of Congress have had to rely more heavily on their 
personal staffs and on the relatively small number of expert 
professional staff that populate committees like yours to perform this 
critical function. Congress also taps the professional expertise at the 
Library of Congress Congressional Research Services (CRS) and the 
Government Accountability Office (GAO).
    Many experts believe that these congressional support agencies are 
not currently structured and staffed to perform all of the in-depth, 
unbiased scientific and technical analyses required by legislators. 
Congress should consider establishing an in-house science and 
technology unit that supplements their capabilities and provides 
timely, thorough assessments for decisions on issues involving a wide 
range of science, engineering, and technology. This unit could be 
housed in CRS, GAO, or stand alone as a congressional support agency.
    What would such a unit look like? A properly structured, in-house 
unit should have sufficient staff to furnish complete analyses. It also 
should rely significantly on outside experts to refine their input for 
congressional use. Its operations should be economical and efficient in 
order to provide a regular stream of timely advice to Congress. The new 
science and technology assessment unit might also consider leveraging 
current science and technology fellowships funded by outside groups, 
and sponsor new fellowships to supplement its standing capabilities. By 
placing scientists and engineers in various legislative offices and 
committees, the new unit would be more relevant and approachable to all 
congressional members and staff.
    To be effective, a new science and technology assessment unit must 
be equally effective in two sometimes contradictory functions--(1) 
assembling world-class scientific and technology assessments and (2) 
providing information to Congress in a form and manner that facilitates 
your making policy decisions. In the former area, the unit should use 
the existing models, including openness and peer review, that allow the 
National Academies, academics, and think tanks to assemble world-class 
science and technology reports. While I am not an expert on the latter 
challenge, I would observe that you are in the best position to 
determine how the unit should be organized to most effectively operate 
in your unique environment and meet your needs.
    Thank you for this opportunity to present our views on this 
important topic. I will be happy to answer any questions you may have.

                    Biography for Catherine T. Hunt

Education and Employment

    Dr. Catherine ``Katie'' T. Hunt is Leader, Technology Partnerships 
for Rohm and Haas Company, where she builds collaborations between the 
company, academia, government agencies, and private foundations. Since 
creating the unit in 2002, she has helped secure multi-million dollar 
grants from federal agencies to improve collaboration across all 
sectors of the chemical enterprise. In 2002, Dr. Hunt acted as a member 
of the steering committee for the ``Nanomaterials and the Chemical 
Industry Roadmap Workshop,'' a collaborative effort between the 
Department of Energy Efficiency and Renewable Energy (DOE/EERE), the 
National Nanotechnology Initiative (NNI), and the Chemical Industry 
Vision 2020 Technology Partnership. As a result of this workshop, Dr. 
Hunt co-authored the Chemical Industry R&D Roadmap for Nanomaterials by 
Design: From Fundamentals to Function.
    Dr. Hunt began her career in industry with Rohm and Haas Company in 
1984 after completing an NIH Postdoctoral Fellowship at Yale 
University. Since then, Dr. Hunt has held a variety of positions at 
every level of the company from Senior Scientist in Analytical Research 
(1984) to Philadelphia Plant Laboratory Manager (1991) to Director of 
Worldwide Analytical and Computational Competency Network and 
Technology Development (1998). She was named to her current position in 
2002.
    Dr. Hunt holds an A.B. in Chemistry (Cum Laude) from Smith College, 
Northampton, MA, and a Ph.D. in Chemistry from the University of 
California, Davis. She has authored 13 papers, one book chapter on 
Metallothionein.

Professional Organization Leadership

    Dr. Hunt is the 2006 President-Elect for the American Chemical 
Society. She will serve as President in 2007 and as a member of the 
Board of Directors from 2006-2008. She has been a member of the society 
since 1977. She is also an active member of the American Association 
for the Advancement of Science, the International Union on Pure and 
Applied Chemistry, and Sigma Xi. Dr. Hunt serves on the Board of 
Directors of the Council for Chemistry Research and was a participant 
in the Vision 2020 Industry Group.
    Over her professional career Dr. Hunt has received many awards 
including being a member of the Women in Science Delegation to Cuba 
(2001); Best Paper Award from INDA, Association of Nonwoven Fabrics 
Industry (1997); Rohm and Haas Company, S.J. Talucci Quality Award 
(1996); and NIH Postdoctoral Fellowship (1982-1984).

American Chemical Society

    The American Chemical Society is a nonprofit, member-governed 
organization that consists of more than 159,000 individual members at 
all degree levels and in all fields of chemistry and chemical 
engineering. The organization provides a broad range of opportunities 
for peer interaction and career development, for a wide range of 
professional and scientific interests. As the world's largest 
scientific society and in keeping with its congressional charter, ACS 
advances the chemical enterprise, increases public understanding of 
chemistry, and brings its expertise to bear on state and national 
matters.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Discussion

    Chairman Boehlert. Thank you very much, Dr. Hunt. And let 
the Chair note for the record that the glass Dr. Hunt used in 
her illustration is half full.
    You know, Dr. Blair gave an example of the kind of study 
that he thinks Congress is not getting, and although he noted 
that the Academy might be able to fill the gap. Could the rest 
of you on the panel describe a kind of study, a specific 
example, that Congress doesn't receive now, because we lack a 
mechanism to do so, and then, could you tell me what you think 
would be the preferred mechanism to get the information to 
Congress?
    That is a tough question. Who wants to go first? Dr. Peha?
    Dr. Peha. Well, one issue I have been following, both 
inspired and horrified by 9/11, is communication systems for 
first responders, firefighters, police, National Guard. There 
have been hearings on this topic in a variety of committees, on 
both the House and Senate side, where I have seen people come 
in and say here is the little piece of the problem that I see, 
and here is the incremental change that would help me deal with 
it. And that is great, but that doesn't allow you to look at 
the whole problem, and one of the reasons we are in the mess we 
are in is because the problem has been fragmented so many ways, 
with each organization looking at its little piece. And another 
problem is that sometimes, incremental change isn't the way to 
go, and----
    Chairman Boehlert. How would you address that particular 
one?
    Dr. Peha. I think--I mean, a study that came in and said 
here are a variety of options, and some of them are 
incremental, and some of them are, you know, some of them are 
to do nothing, some of them are to beef up this and to beef up 
that. Others are to look at more fundamental kinds of change. 
In this case, I in particular think that we have to stop 
looking at municipally-led systems, tens of thousands of them, 
and start looking at broad regional and national systems.
    And to study the technical, economic, organizational 
impact, you would need some other kind of organization to look 
at something that broad, and to compare it to the other 
incremental approaches.
    Chairman Boehlert. Well, would the Academy be able to fill 
that gap, or would you create a new vehicle, and----
    Dr. Peha. I think the--I mean, the Academy has also looked 
at parts of this. They also, because, you know--Peter and I 
were talking about this exactly before, they have to bring 
together people who will come to consensus, and they have been 
looking at all the neat little technologies that they could use 
incrementally to advance what people are doing. But to look at 
something radically different, it is very difficult for the 
Academy to do.
    And you know, you could look at something radically 
different and say it is the wrong idea, but to come along and 
say here is a very different choice. Here is what would happen 
if the Department of Homeland Security took the lead, instead 
of city governments. That would have to come from somewhere 
else.
    Chairman Boehlert. Do you have an idea where that somewhere 
might be?
    Dr. Peha. Well----
    Chairman Boehlert. Should we resurrect OTA, for example? 
Did that pass your four----
    Dr. Peha. Yeah. At the moment, frankly, Carnegie Mellon 
University is trying to look at this, but we are too far 
removed. I would like to see some organization that answers 
directly to Congress, that is--has staff that are, you know, 
that answer only to Congress. They may do some of the work 
themselves. They may farm it out to--pieces of it out to 
consultants, as Congressman Rohrabacher suggested, but 
ultimately, they would put those pieces together. They would 
negotiate with Congress what they are supposed to do, and they 
would present it to Congress when they are done.
    Chairman Boehlert. Thanks. Dr. Teich, do you have an 
observation you would share with us?
    Dr. Teich. Well, I can--I could say what he said, that I 
like, but I think--pick a different area, pick energy 
conservation, for example. That is an area in which there are a 
huge number of existing studies. There are a wide range of 
views on how to accomplish it, but we are very far from having 
a systems point of view on that, and of implementing programs 
on a sufficient scale to accomplish what we need to accomplish, 
I think.
    So, what Congress needs is some kind of mechanism that will 
synthesize the knowledge, and will give it ownership of a set 
of ideas that will satisfy the diverse needs that conflict in 
this--in that kind of an arena, the various companies that have 
a vested interest, the other organizations. And to take the 
scientific data out of all that, and put it in a framework that 
Congress can look at and can use.
    Chairman Boehlert. With all due respect, in that particular 
example you are using, energy conservation, we are not short on 
getting good science up here. We just don't want to accept it. 
We ignore it.
    Dr. Teich. Well, I am----
    Chairman Boehlert. You know, we like to say we are for 
scientific consensus, until the scientific consensus leads to a 
politically inconvenient conclusion. Then we want to go to Plan 
B.
    Dr. Teich. Right.
    Chairman Boehlert. The sciences--for example, one of my pet 
causes, CAFE standards. We have got off the shelf technology, 
don't have to launch a new research program, off the shelf 
technology that could be employed that would save us, you know, 
millions of barrels of oil at a time when we are so dependent 
on foreign source oil. Pretty logical, but you have people 
questioning the science. Not--scientists questioning the 
science, you have policy-makers, so the problem, the 
frustration I have is that you can lead a horse to water, but 
you can't make him drink sort of thing. And we have got the 
good science there, in this area particularly, and we ignore 
it, because it is not politically convenient to address the 
good science in a meaningful way. But----
    Dr. Teich. I guess that was the point I was trying to make, 
and perhaps not as well as I would have liked, but Congress 
needs an institution that will help it to drink in this case.
    Chairman Boehlert. Well, but once again, you get--the 
institution, whether it is a reconstituted OTA or any other 
sort of think tank, objective, impartial, independent, 
adequately funded. You can have, you know, hordes of people 
with--spending tens of millions of dollars, but when they 
present something to Congress, Congress has to make policy 
decisions, and not science decisions. All the science is there 
to prove the point, but so many people ignore it, 
unfortunately.
    Dr. Blair, you are going to answer your own question?
    Dr. Blair. Yeah, if you don't mind.
    Chairman Boehlert. Well, that is fine.
    Dr. Blair. I would like to offer an example that may 
illustrate the gap I described. I mentioned in my written 
testimony, but I didn't describe in detail, I think, an example 
of the kind of gap I am talking about.
    Out in California right now, we are in the middle of 
rolling blackouts in some parts of the electric power system, 
and there is a lot going on in the electric power industry 
right now, and where the future is headed.
    We at the Academies are very well suited to look at, for 
example, producing an authoritative set of recommendations for 
making the power system more secure and reliable in the wake of 
blackouts and the threat of terrorist attacks. In fact, we are 
doing that study right now for the Department of Homeland 
Security. However, we are not looking at, for example, a way in 
which the electric power system might evolve over the next 
decade with the pressures of increasing competition, how it has 
worked or not worked in different parts of the country, how the 
role of technology is affecting our ability to install new 
generation in different parts of the country, the social, 
economic, political, and other dimensions where it is almost 
impossible to achieve a consensus, but it is important for 
Congress to have the context of those issues laid out in a way 
that helps inform the debate, in a realistic way, which is very 
important.
    Chairman Boehlert. What would you suggest--what would be 
the vehicle to carry that forward?
    Dr. Blair. Well, I laid out a few of the options in the--in 
my testimony, that I suppose the Academies could evolve in that 
direction. We are currently not now constituted to do that very 
well, because as Al mentioned, we are designed to come to 
scientific consensus on committees, come up with consensus 
findings and recommendations. That would be almost impossible 
in this kind of an argument.
    So, having a body that could do this, directly tuned to the 
needs of Congress, is important. It could happen in a variety 
of ways, anywhere from resurrecting the function that was 
provided by the former Office of Technology Assessment, to 
perhaps modifications in some of the existing Congressional 
agencies, to perhaps even adapting some mechanisms outside the 
Congress, but directly reportable in Congress.
    Chairman Boehlert. I have far exceeded my time, but Dr. 
Hunt, do you have something special you would like to offer?
    Dr. Hunt. What I would say is, the way I like to approach 
this in industry is to put out a grand challenge, or in any 
case, something where you look and say, how could that possibly 
happen? Like, let us cut gas prices by a factor of ten, or a 
factor of a hundred, or let us just go non-petroleum. What 
would it take to do that?
    And the reason you start with something like that is it 
makes you think out of the box. It makes you come up with 
solutions you might not be able to come up with looking at 
standard reports. And where I would say this would take you 
would be to look at energy policy, right. If we had an energy 
policy that looked at short-term, long-term, mid-term types of 
capabilities, and I think there are a lot of reports out there, 
as you have said, there is a lot of information. How do you 
assimilate that together and put forward an energy policy that 
will truly decrease our dependence on foreign oil?
    And it takes what we call at work institutional fortitude, 
right, there are things and--that are not politically 
acceptable, but the question is, can we focus with the end in 
mind, and develop a place where there is an independent body 
that can provide choices.
    Chairman Boehlert. Thank you very much. I apologize to my 
colleagues. I went way over my time limit.
    Mr. Gordon.
    Mr. Gordon. Thank you, Mr. Chairman. It was a good area of 
inquiry.
    I am one that thinks that Congress needs additional 
nonpartisan, independent scientific information. I think it 
will help us make better decisions, and I think it will help us 
use the taxpayer's dollars more wisely. And so, let us--I want 
to get more specific than sort of the wide-ranging discussion 
we have had so far.
    There are some that think that after the November 
elections, that the Congressional horse might be more willing 
to drink, and if that occurs, then let us again be more 
specific. One approach would be, OTA is already authorized. It 
is just not funded. And so, my question would be what are the 
pros and cons of properly funding and staffing OTA to 
accomplish the goals that we had been talking earlier, and I 
will let each witness try to succinctly give us an opinion on 
that.
    And why don't we do it in reverse order this time.
    Dr. Hunt. So, I think--sometimes, I think that it is 
important to change the name of something, so that indeed, you 
don't go back to what you had before, but that you look at what 
the qualities are that you want in the future.
    And I think that you heard a lot of summary of that here 
this morning that I think you would want to go back to. It 
needs to be bipartisan. What you are----
    Mr. Gordon. Yeah, but I--my sincere question is----
    Dr. Hunt. Okay.
    Mr. Gordon.--is what are the pros and cons of appropriately 
funding OTA? It is already authorized. What are the pros and 
cons of doing OTA?
    Dr. Hunt. Okay. I would say one of the pros is, it would be 
expeditious, okay. It would be something you could do and put 
in place quickly. What I think one of the cons would be is that 
you would want to make sure you construct it, not just revive 
it as it was, but construct it to address any issues you felt 
that were not appropriate, or not satisfactory.
    So, if timeliness is important, you need a process that 
will direct timeliness. If choice of projects is important--am 
I going down the road you----
    Mr. Gordon. Not really, but we will go to Dr. Blair.
    Dr. Hunt. Okay.
    Mr. Gordon. Let us see if he can get down there.
    Dr. Blair. Well, this may be context, but I have either the 
distinction or the misfortune of being the one who literally 
turned the lights out at OTA, and handed the keys over to the 
Architect of the Capitol, and I think that, as I think back, at 
the time of OTA's closing, and what OTA would look like now, I 
think it would be a very different place.
    A lot has happened in those 10 years. The way in which 
people communicate with Congress, the day-to-day operations, 
perhaps the--at the time OTA was closed, the ability to react 
more nimbly, to provide interim results to major assessments, 
to interact more with the broad individual membership of 
Congress, in addition to the committees. All of these are 
things that were sort of on the table at the time, but in the 
flurry of the decade ago, didn't have time to mature.
    So, on one hand, yes, the pros are that the function 
exists. It could be started up again, but I think it would have 
to be a different place. The function is quite clear, and I 
think OTA could do it. Perhaps some of the other experiments 
that are going on, such as the enhancement of the GAO 
technology assessment experiment, or perhaps, the idea of 
building a function like this within the Congressional Research 
Service. But there are cultural changes that would be necessary 
there in order to really appeal to this function we have been 
talking about.
    Mr. Gordon. Well, you are starting from scratch.
    Dr. Blair. Yes.
    Mr. Gordon. So, it is not a matter of having, I don't 
think, those liabilities.
    Dr. Blair. Right.
    Mr. Gordon. In terms of updating it, you can trade in your 
manual typewriters for computers, and you can also recognize 
you are dealing in a different age.
    Let us see, Dr. Teich.
    Dr. Teich. Well, I think the pro is obvious, and has been 
identified by my colleagues, which is that it would be the 
easiest route legislatively, since you would not need to pass 
new authorizing legislation to establish it.
    I think one of the cons is the legacy of--which may not be 
such a major consideration at this point, since I think many of 
the people who were involved in the decision on OTA are no 
longer in the Congress, and a lot of others have, perhaps, 
forgotten that the issue existed. But I think that is also one 
of the problems, which is--that needs to be addressed in 
creating a new function, and I don't know what you call it, and 
I don't have a formula for establishing it, but too many people 
in the Congress, too many Members, I think, didn't really care. 
It wasn't that important to them. It didn't serve them 
sufficiently, and I think that somehow, a new function has to 
be created that would serve the Congress more broadly than OTA 
did.
    OTA tried. It didn't have the resources, I think. It never 
established the kind of presence in the Congress that made it 
indispensable. It needs to have that kind of presence. It needs 
to have a connection to a wide range of committees, and to a 
wide range of Members.
    Mr. Gordon. I think to some extent, it was the victim of a 
drive-by shooting in '95. There was an interest to take a 
scalp, and it was a handy scalp. Do you want to finish up, and 
then we will move on?
    Dr. Peha. I agree with everything that is said. If it would 
be easy, and if that method is used of creating an 
organization, it would have to be understood that it is not 
reviving OTA. It is creating a new organization in that shell, 
that would look different, and learning the lessons of OTA.
    But let me put this in the context of the alternative. The 
alternative is to create this function, or to establish this 
functionality in an existing organization, like GAO, Library of 
Congress, or CBO. That has advantages, in that you can share 
resources, particularly if you are establishing something that 
is initially not all that large, as large as OTA was in the 
earlier days. Establishing something in a new organization 
would have the disadvantage that you have a dissimilar existing 
mission, and you would have to protect the new activity from 
the old, it would, you know, it would have to have different 
processes. It would have to have staff with different skills, 
and you would have to make sure that there was sufficient 
independence in this new piece.
    Or one other option, you create a standalone agency that 
looks, that, you know, with new authorization, that is whatever 
the new thing is.
    Mr. Gordon. Okay. Thank you, and let me just suggest to all 
of the think tank folks, you know, that are here. This would be 
a good area to be thinking about. And that, I think, at least 
this committee would welcome recommendations, thoughtful 
papers, on how to set this operation up.
    Thank you.
    Chairman Boehlert. Thank you very much. The ever patient 
and always persistent Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much.
    This is one drive-by shooter to the other. Let me note, 
there is some, you know, although we do recognize that drive-by 
shooters are bad people, but some people need shooting, you 
know. I will just have to tell you this, and frankly, when we 
were trying to get control of Federal spending, this Office 
jumped out at us as something that needed our attention, it 
needed to be put in our sights.
    I--let me put it this way. What I hear today is the 
assumption that having something like the OTA reestablished is 
going to be--it is going to be an objective organization, and 
it has got to be, you know, all of these great words that are 
coming up to describe another layer of bureaucracy, and a 
buffer between us and the scientific world. You are assuming 
that this is going to be a very positive element, that now we 
put in place. I don't know what makes you--is there any 
scientific reason to assume that putting in this new layer of 
government between us and the scientific community will yield 
positive things? I don't think so. I mean, every time I have 
heard about hiring new government employees, and putting--and 
letting them be your, you know, one who is going to put it all 
together and describe to us what is good and what is bad, it 
has turned out bad.
    Let me just note that what we need is not an organization 
that will serve as a conduit for which everybody has to come to 
us through. We need competing sources of information. That is 
what we need, and unfortunately, at some of our own hearings, 
we don't have both sides. I mean, I think the most important 
thing that we can do is have people in the scientific community 
representing both sides of any issue, here, debating it in 
front of us, and recognizing that no matter how many people 
speak about what their authority is, there is disagreement 
among people even in the scientific community about which 
direction to go on certain issues, on most issues, I might add.
    I remember when cyclamates, when I was a kid--Remember 
cyclamates?--were banned. By the way, they were never banned in 
Canada, let me note that. But we banned them, and we had 
terrific scientific information, the entire scientific 
community eliminated the billions of dollars that our soft 
drink companies had invested in cyclamates, and we eliminated 
them, and of course, 15 years later, we found out no, well, we 
were wrong. Sorry. Cyclamates really don't cause the cancer we 
thought they would, and of course, in the meantime, we got an 
obesity problem springing from soft drinks that are being 
consumed by people without cyclamates. So, anyway, there are--
what we needed to hear perhaps, back then, was a competing view 
on cyclamates, rather than just having one scientific buffer 
between us.
    Finally, let me note, Mr. Chairman, the fellowship programs 
that have been mentioned today, the AAAS fellowship program, I 
would like to commend the AAAS, and I would like to make sure 
that we all know that there are wonderful, wonderful sources 
for Congress right now that I take advantage of. I have had a 
AAAS Fellow with my office for the last 15 years, and they have 
all been superior. They have really contributed greatly to my 
effectiveness and my efficiency and my understanding of various 
issues, as well as broadening the amount of sources of 
information that I have.
    These are the ways that we should go. We should be 
encouraging universities and people to be available to us on a 
contractual basis, and fast turnaround, rather than well, we 
will tell you in ten years turnaround. Let us hear an 
assessment, and have someone who can go through the scientific 
assessment of what has already been researched, and get back to 
us with a report in two months, rather than two years. These 
are the type of things we need. We certainly don't need another 
buffer between us and the scientific community.
    And with that, I would just--anything you would like to 
disagree with, or say you agree with, go right ahead.
    Dr. Peha. I would agree that you don't need a buffer 
between Congress and the scientific community, and that, I 
think, is the last thing this organization ought to do. If you 
want to go out and reach out to----
    Mr. Rohrabacher. Even though it may evolve into that.
    Dr. Peha. This should simply be another information source, 
a more objective information source than many that you will get 
that will help you reach out to those other sources.
    Dr. Teich. Yeah, I would--first of all, I want to thank you 
for your vote of confidence in the fellows program, both the 
things that you said, Mr. Rohrabacher, as well as----
    Mr. Rohrabacher. Well, thank you. We thank you.
    Dr. Teich. Well----
    Mr. Rohrabacher. You have done a terrific job.
    Dr. Teich. We--it is a two way street. We benefit from the 
ability to assist you, I think, and we are pleased that you are 
appreciative of the assistance that we have provided, as Mr. 
Boehlert said, the--some of the--many of the Fellows go back to 
their careers in their universities and other institutions, and 
serve as points of contact between the policy-makers and the 
scientific community, and I think it is a very valuable thing 
to see happening.
    And I think that same kind of thing can be created, if it 
is done right in an institution, such as the one we have been 
talking about, and I am not talking about reestablishing an 
OTA, but I am suggesting that some kind of institution does not 
have to be a buffer or layer or an insulating mechanism. It can 
be a semi-permeable membrane, if you want to use a scientific 
analogy. It can be something which transmits information in 
both directions, and that is the thing, that is the kind of 
thing I would like to see.
    I would add that I think we have plenty of competing 
sources of information, and I think that is part of the 
problem.
    Dr. Blair. Let me give you a California example. It is a 
buyer's market for houses in California right now. As a 
metaphor, if you are a buyer coming to look at houses, you can 
rely on the advice of the realtor, or his friends next door, or 
many others, but if they really would like to have an 
objective, independent view, they hire a house inspector to 
look at the quality of all of the--to be able to dig in the 
muck and see all of the things that are going on in that house 
before they buy it.
    What you need is a house inspector. You need an 
organization that can provide this sorting out of all the 
conflicting pieces of advice, and do it in a way that is 
trusted to you, to you Members of Congress. And that is my 
California metaphor.
    Dr. Hunt. So, I guess my industrial metaphor would be that 
when you have something important to do, and in this 
technology-driven society, I would say technology assessments 
would be what we would call mission critical, and that would be 
something that you don't outsource, your mission critical work. 
You certainly collect outside information, but you have that 
house inspector that is chartered to get you that information, 
to synthesize that information, and to present you with the 
options in the way that you can trust.
    Chairman Boehlert. Thank you very much, and thank the 
gentleman. Ms. Matsui.
    Ms. Matsui. Thank you, Mr. Chairman, and I want to thank 
the panel for being here today.
    I have only been on the Committee for about three months, 
so I am one of those who can look at it as a newcomer, in 
essence. And I wasn't here 10 years ago at the demise of OTA, 
but as you have also said, a lot has happened in ten years, and 
I think one of you indicated that Members, perhaps, then didn't 
care about the area of OTA.
    Today, however, as I think every single one of you has 
said, science and technology affects every part of our lives. 
We brought up last week stem cells, climate, energy. Everything 
is involved in this, so it is not just relegated in a sense, as 
being a part of just the Science Committee. So, every committee 
in Congress can benefit by whatever entity we are talking about 
here. I also believe that we have a lot of information, almost 
too much information. Ten years ago, we were barely using 
email, and today, they are just blasting us all the time. We 
thought we had problems with fax machines, but that was nothing 
compared to email today.
    And honestly, every single one of us probably has some sort 
of a personal scientific type of question, whether it be 
medical or whatever, and usually, the first thing you do is go 
to the Internet to try to figure it out, and you realize oh, 
boy, this is not the way to do it. And I think to a certain 
degree, for all of us here, we would like to be able to manage 
the information in a way which is independent, accurate, and 
timely, and I think all those things have to be factored in. I 
even believe that my very committed and very passionate 
California colleague would also like to see that, too.
    We are all so very busy, and if it would be great for all 
of us, every single one of us in our districts have--we are 
from California, obviously, here. We have an energy crisis. We 
know that. It is 109 in Sacramento, and it is too hot, and 
gases are too expensive, and all that. So, science touches us 
everywhere. So, every single one of us has a need for some 
information, and we just can't go to the Internet. We can't 
just kind of look into the books, or go to the Academies. That 
is too much information. So, we need something of the caliber 
that we are trying to figure out here.
    Now, is it possible, as we are talking about, to 
restructure this OTA, rename it, and come up with a different 
type of--the same mission, but perhaps more relevant to today. 
Because my feeling is, is that you brought up net neutrality. I 
mean, those of us here, I have a little bit of knowledge of it, 
but I didn't think that it was what was portrayed, and either, 
you know, you see the advertisements or hear it, and it is not 
quite what I thought it was going to be.
    So, therefore, there is a real need, but it is a need, as 
my colleague says, this needs to be information that has to be 
given to us very quickly, and most of the time, we hear from 
the people who come to see us with their particular advocacies.
    So, I am trying to figure out, is there a way to do this, 
so that we have adequate, accurate information. Maybe there is 
a system set up where there are hot issues that you can deal 
with, and other types of issues that are more lengthy and 
study. Can we do that in a manner which can address some of the 
concerns that Mr. Rohrabacher has, and that I would have, as 
far as independent, accurate information? I like to hear 
debates, but you know, you can get tired after a while, and you 
don't come back with that much information. I would like to 
have somebody give me good information.
    So, each of you, could you respond to that?
    Dr. Teich. Well, I think you have identified the problem 
very succinctly, and I would answer in response to your basic 
question that yes, it is possible to do this. I don't think we 
are going to decide exactly how right here and right now, but I 
think what is necessary initially is a recognition, and a 
recognition among a majority of Members, that it is necessary 
to have this kind of function.
    And then, I think the kind of information that you need 
that will help you establish this in an effective way can be 
generated through additional hearings, through staff studies, 
through outside contributions, but a variety, there are a 
variety of mechanisms that will assist you in developing this. 
But first of all, you need to recognize that it needs to be 
done.
    Dr. Blair. In thinking back ten years ago, as I mentioned 
earlier, the centralized organization in the Congress would 
probably be a very different place now. But one of the things 
that struck me at that time, and even now, perhaps more, even 
more current, is an ability to collaborate among the 
Congressional support agencies. For example, CRS is very good 
at the off-the-shelf kind of analysis, the ability to give you 
the very quick answer. The former OTA was designed for the 
comprehensive, large scale assessments. There is a lot of room 
in between those two extremes. And is there an ability to 
network the organizations in the Congress, like the General 
Accounting Office, the Congressional Budget Office, CRS, and 
perhaps a new function that resembles the function of the old 
OTA, to provide a whole that is more than just the sum of the 
parts, to be able to react to that network of activities?
    And actually in my paper, I talk a little about some of the 
experiments that are going on now. For example, the GAO 
experiment, where partnering with outside organizations, as 
well, for example, the Academies now have a relationship with 
the Government Accountability Office, to use our Rolodex to get 
experts to come in and convene and provide meetings of experts, 
to help inform GAO investigations. So, an ability to combine 
the strengths of multiple organizations has benefit, I think, 
for having a whole that is greater than just the sum of the 
parts.
    Chairman Boehlert. Thank you very much. The gentlelady's 
time has expired.
    Dr. Bartlett.
    Mr. Bartlett. Thank you very much.
    For the past 18 months or so, I have been involved in a 
dialogue on energy in this country, and a lot of people are now 
engaged in that dialogue, a lot of very bright people, and 
sometimes, equally ignorant people are engaged in that 
dialogue.
    And we have a number of questions of fact for which we need 
answers, and I have two questions to ask you, and I will 
mention a few of those. I would like to know are these the kind 
of things that we could reasonably expect an OTA-like 
organization to give us answers to? And after that, where 
should we go now?
    One of these is the amount of fissionable, the uranium that 
remains in the world. If we are going to move to light water 
reactors, how much fissionable uranium remains in the world? I 
get widely divergent answers to this, like 15 years and 100 
years. Where are we?
    The energy profit ratio of ethanol. Some believe that more 
fossil fuel energy goes into producing ethanol than we get out 
of ethanol. Clearly, if we are going to have a debate on where 
we go, we need to have an answer to this. To whom do we turn 
for that answer?
    If there is a positive energy profit ratio for ethanol, is 
it reasonable that we could displace a meaningful amount of our 
gasoline with ethanol? Brazil now has no foreign oil imports. 
Of course, Brazil is not the United States. They get their 
ethanol from sugar cane, which they grow largely with hand 
labor, and they don't have very many cars and so forth.
    If it is true, as I am told, that 13 percent of our corn 
could displace two percent of our gasoline, and if you had to 
grow corn using the energy from corn, with a reasonable energy 
profit ratio, if we doubled our corn crop, one calculation says 
you would have to double our corn crop and use it all for 
ethanol, just to displace 10 percent of our gasoline--of how 
much of our biomass can we rob from our topsoil, and still have 
topsoil? What is the potential? To whom should we go for an 
answer?
    USGS is using what I think is an interesting, if not 
bizarre use of statistics, where they take the 50 percent 
probability, and call it the mean, and using that, they project 
that we will find as much more oil in the world as all the oil 
that now remains in the world. Professor LaPierre says that 
that is just implausible. That just can't happen. But our 
Energy Information Administration uses this bizarre use of 
statistics by USGS to tell us that--not to worry about energy, 
because it just goes up and up into the wild blue yonder, and 
they--for the foreseeable future, they have energy going up and 
up when oil is $75 a barrel today.
    How much energy goes into producing the oil from the tar 
sands in Alberta? I am told that they may use more energy from 
natural gas than they get out of the tar sands. Okay, from a 
dollar profit ratio, the gas is stranded, but at the end of the 
day, that may be really dumb use of that energy in that gas. We 
had an experiment by Shell Oil Company in getting oil out of 
our oil shales in the West. They freeze a big vessel, then they 
cook it inside that for a year or so, and then, they pump for a 
year or so. What is the energy profit ratio there? And I have a 
lot of trouble believing that it is really a positive energy 
profit ratio.
    And then, another consideration. Maybe we will move to 
nuclear. You build a nuclear power plant, it takes a lot of 
fossil fuel energy. For how many years do you have to operate 
the nuclear power plant before you get any net energy out of 
it? How many years do you operate it before you get back the 
energy you put into building the plant?
    Now, are these the kinds of questions that an OTA type of 
organization could answer for us, and absent that, where can we 
go now for answers to these questions, because we can't have a 
reasonable dialogue until we agree on these facts, and there is 
no agreement.
    Chairman Boehlert. Now, there is a test. Who wants to go 
first?
    Dr. Blair. Well, I can take a crack at some of that. I 
think many of the dimensions of what you cite--in fact, let me 
say that my staff, our staff at the Academies, who have been 
talking with you, Mr. Bartlett, about energy problems, have 
been very inspired by a lot of the discussions they have had 
with you. And I think that many of the issues you describe are 
issues where a consensus group of experts from, say, the 
Academies could provide important insights onto questions of, 
let us say, fact.
    But some of them that you described are moving in the 
direction of choices, and issues that would require tradeoffs 
in understanding and the like, and it would be more difficult, 
as I think I mentioned earlier, for the Academies to come to 
consensus on those kinds of tradeoffs.
    For example, one of the energy issues you didn't mention 
was--well, you did, sort of--on fuel economy of automobiles and 
gasoline, and there are dimensions of that where, you know, you 
might raise the issue of whether or not--how far off are plug-
in hybrids, or how quickly can the auto industry turn over its 
fleet to a new generation of vehicles. We can certainly 
identify the technical potential, but identifying the policy 
tradeoffs, and how to get there, whether you adopt CAFE 
standards or fuel taxes, or all kinds of other policy 
mechanisms--
    Mr. Bartlett. Yeah, both of those, thank you.
    Dr. Blair. --those are much more subjective and policy rich 
discussions, but they are very complicated, and very intimately 
related to the technology. So, many of the issues you 
described, where the debate hinges on the interface between 
policy and technology are more in this, the kind of 
organization we have been talking about.
    If you would like to talk specifically about cellulosic 
ethanol versus grain-based ethanol, and switchgrass, and all of 
that, I would be happy to do that with you at some point, but 
there is plenty of room in there for both approaches that we 
have been talking about.
    Chairman Boehlert. Thank you very much. The gentleman's 
time has expired.
    Mr. Green.
    Mr. Green. Thank you, Mr. Chairman, and I thank you and the 
Ranking Member for hosting this most valuable hearing.
    I would like to share a brief vignette that is not true, 
before I make my inquiry. The story is told of a person who 
receives information from messengers, and he tells the 
messengers: ``I want your most truthful, your most honest, your 
unbiased opinion.'' And the first messenger gives an opinion, 
and the recipient immediately shoots him. Then he says to the 
next messenger: ``I want your most honest, your most truthful, 
and your most unbiased opinion.'' The next messenger says ``I 
agree with you.'' And he says ``But how can you agree with me? 
You haven't heard my opinion.'' And the messenger says ``I 
don't need to know your opinion to know that I agree with 
you.''
    Now, here is my question. What impact does closing an 
agency have on the opinions of those that remain behind? When 
we shut down one agency that gives us information, we have 
others that take up the task. Are they impacted by the 
knowledge that we can cease to fund you, and you will cease to 
exist? Does that color, in any way, the opinions of those left 
behind? And I am asking this in a sort of rhetorical sense, I 
guess, because we really are dealing with a question here of 
how do we have, or give those experts, a comfort level such 
that they can truthfully give honest opinions, and not assume 
that there may be some consequences associated with those 
opinions that may not be entirely positive?
    How do we structure the process, the agency and the 
process, the methodology by which we acquire the intelligence, 
such that we get--that what we are seeking, because people 
understand that they will still be around after they give us 
opinions that we don't necessarily like?
    Anyone want to comment on that? We have--yes. Thank you.
    Dr. Hunt. Well, I think any--we learn at an early age that 
actions speak louder than words, and that if you do something, 
and there are negative consequences, we learn to modify those 
behaviors, or sometimes, even restrict those responses.
    Now, what you find in some of the best scientists, however, 
are those people that stick to their guns and have the courage 
of their convictions, because they truly believe in reporting 
the science or the data, or the information that they collect 
as they see it. And I think what we have to do is, we have to 
do two things. We have to continue to work with those 
scientists, and we also have to continue to have open minds 
about information, even when we get it, when it isn't what we 
want to hear, right.
    And so there is really, those are the soft side of 
relationship skills that this--that we have to work with. One 
other place we look at that is with funding of science and 
technology, and if you look at funding going away from the 
physical sciences, it is difficult to bring students into that 
realm. But you can also look at that as your opportunity, 
because if you know that putting the funding there brings the 
students there, then you know how to make that change. And I am 
not saying that throwing money at something is the way to make 
that change, but as you said, by being consistent with your 
actions, and having your actions follow your words is, I think, 
the solution to that.
    Mr. Green. Yes, sir.
    Dr. Peha. This clearly is a problem. Actually, I mentioned 
a couple of things in my testimony I will expand on. First of 
all, I think Congress always has to have the ability to defund 
something that isn't working, but if it takes them a while, 
then any one particular study that, you know, they won't get 
shot on the first answer. It will take multiple answers, and 
one way to do that is to make staff decisions, budget 
decisions, hiring decisions not annual but longer term than 
that.
    And that still doesn't help if there is a systematic 
problem, if the organization is always hitting the same group 
of powerful people who are unhappy. I think if that is 
happening, it may be that there is a real problem with the 
organization, or it may be, very likely, a problem with the 
choices of topics they are looking at, which is why the 
Congressional oversight is so important, the method of 
oversight, and particularly, the method of choosing which 
studies to conduct has to be done in a way that majority and 
minority and everyone in Congress feels that their issues are 
being represented, maybe not in every report, but overall, in 
the long term.
    Mr. Green. Mr. Chairman, I yield back. Thank you.
    Chairman Boehlert. Thank you so much. Mr. Holt.
    Mr. Holt. Thank you, Mr. Chairman. As a guest here on the 
dais, I think I would like to allow all of the Members of the 
Committee to ask questions if they want, before I take my time.
    Chairman Boehlert. How gallant of you. Ms. Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, that will allow me just to 
be able to thank Mr. Holt for his enormous leadership on this 
issue, and to thank you, Mr. Chairman, and Mr. Ehlers for your 
valiant effort back in 1995. I was a baby Congressperson, and 
on this Science Committee, and obviously, now can look back and 
see the enormous damage that has occurred with the elimination 
of the OTA.
    Dr. Blair, I am going to start with you, as I reminisce 
about other agencies, such as the GAO, the Congressional Budget 
Office, and Congressional Research Service. All of them are 
poised as effective tools to make Congress the real 
implementator of the will of the people, a knowledge 
implementator of the will of the people, meaning that as we 
address questions, fiscal responsibility, understanding the 
nuances of space exploration, or the nuances of homeland 
security, or again, trying to make sure that we handle the 
people's dollars effectively, that we have the arm of research.
    Here we are now with an authorized, as I am informed, OTA, 
but a nonfunded OTA, and in the 11 years since 1995, the world 
has simply changed. It has changed after 9/11. It has changed 
as we have a raging debate on immigration, and the issue is 
technology, technology, technology. And therefore, our 
guidepost is missing. We just heard Dr. Bartlett speak 
eloquently about energy, and coming from the oil capital of the 
world, I am not afraid of the discussion on alternative fuels, 
because the companies were wise enough to change their name 
some years ago, they are energy companies. And I have tried to 
convince them that they will be as prosperous no matter what 
energy science we attempt to use.
    Someone who has had firsthand experience, I believe, with 
the OTA, and maybe others would comment as well. How much are 
we diminished because we don't have a corralling entity that 
can assess, as Congressman Daddario, I think, in his original 
vision, when former--well, when Mr. Lindbergh came and began to 
talk about the Earth and ecology, and wanted to be concerned 
about someone assessing that potential clash, how diminished, 
how lacking, how much are we undermined because we don't have 
an agency that is capturing for us either the most innovative 
technology, or ordering it for the Congress, as these various 
new either innovations or failed innovations are coming to the 
forefront? And if you would, give your most honest answer of 
the restoration of the funding for this as an answer to its 
present hiatus.
    Dr. Blair. Well, let me say first that I think that there 
was a hope when OTA was closed that other agencies in the 
Congressional complex would be able to fill the gap, and to a 
limited extent, some experiments are ongoing that may, that are 
attempting to address that. I think they will get----
    Ms. Jackson Lee. Being very polite, Dr. Blair.
    Dr. Blair. I believe that the gap is a large one, and it 
continues to this day, and the--some function needs to be re-
injected into the Congressional infrastructure in order to fill 
that gap. I think we have all expressed that view today.
    I do think that a resurrected OTA, as I think I mentioned 
in response to a thing earlier, a question earlier, would have 
to be a different place. There would be many different features 
to it to respond to some of the criticism and shortcomings that 
happened earlier, and it would have to network, I think, better 
with the other agencies of Congress to keep pace with the 
times.
    Ms. Jackson Lee. Anyone else?
    Dr. Teich. Yeah.
    Ms. Jackson Lee. Are we suffering as Americans because of 
the lack of existence of some entity?
    Dr. Teich. Well, you know, you are asking, what you are 
asking is kind of an alternative history of the last eleven 
years, and I happen to enjoy reading alternative history, but I 
am not very good at writing it, I am afraid. So, I can't 
honestly say, except to suppose, based on the--what I know 
about what OTA did during its tenure, that we would be better 
off today had it continued to exist, and I think it would have 
been interesting.
    If OTA existed throughout most of its life in a Congress 
that was controlled in both Houses, for most of the time, by 
the Democrats, it would be very interesting to see how it would 
have functioned, and what studies it would have undertaken 
under Republican leadership over the last eleven years.
    So, I think it--I can't answer your question, but I can say 
it certainly appears to me that it would--that we have lost 
something by its absence.
    Ms. Jackson Lee. Did you want to answer? All right. Thank 
you so very much. Thank you, Mr. Chairman. I yield back.
    Mr. Bartlett. [Presiding] Thank the lady very much. Dr. 
Holt.
    Mr. Holt. Thank you, Mr. Chairman. I am pleased with the 
existence of this hearing, and the progress of this hearing, 
and I thank the Committee for allowing me to take part in it.
    You know, science and technology shouldn't be looked to to 
provide the answer of what is right. So, you know--and there 
certainly are occasions--Mr. Rohrabacher mentioned cyclamates--
where, in retrospect, science has evolved to different 
conclusions. That does not mean that we have nothing to learn 
from science and technology. It does not mean that all bets are 
off, that they have nothing to tell us, and we should wing it 
with respect to what faces us.
    OTA did not present conclusions. In fact, they were 
scrupulous about that. They laid out a range of choices, 
including the constraints that were presented by science and 
technology, and some people took that to mean conclusions. Now, 
one of the famous examples, of course, was the idea of a global 
missile defense, where the OTA pointed out that some of the 
desired or claimed properties of that were unattainable from a 
scientific and engineering point of view. That was taken to be 
a conclusion, when really, it was just, I think, a fairly 
objective look at the constraints placed by science.
    I certainly think that, in answer to Mr. Bartlett's 
questions about the supply of uranium and the energy yield of 
ethanol, and all of those other things, if OTA had existed over 
the past 10 years, we could have expected studies, a study or 
studies, that would have laid out the range, and assigned some 
weight to our uncertainties about the range in the supply of 
uranium, or the energy yields of ethanol, and so forth.
    Well, I noticed that the panels, the panelists have been 
very judicious, I guess I would say, careful, even cautious in 
making recommendations to us for what we should do in our 
plight. I have suggested that what we need is something that is 
permanent, and therefore, not ad hoc, not something that has to 
gear up each time a study is commissioned, that it be 
professional, in other words, it would consist of professionals 
in this permanent, full-time staff that command the respect of 
the S&T community, and also, in the sense, professional, 
meaning that it would be scrupulously nonpartisan. And I would 
argue that, by the way, that OTA probably would not have 
behaved any differently under Republican leadership than 
Democratic leadership because the advisory board was 
scrupulously bipartisan. That we need something that would be 
in-house, and by that, I mean it would speak our language, it 
would understand our processes. It would lay out things, the 
choices before us in a way that is relevant, legislatively 
relevant.
    And also, something that hasn't been discussed this 
morning, something that would be part of the life of the Hill. 
When you have got 100, more or less, professionals who are 
mingling with the staff, are here and there day in and day out, 
it elevates the debate. Even if they have not yet completed 
their result, their report, even if they have not and never 
will come up with a policy conclusion to help us in our job, 
they are part of the life of the Hill.
    So, you know, when Harry Truman said he longed for a one-
armed economist, who wouldn't say on the one hand and on the 
other hand, let me ask you to raise only one hand, and say do 
you agree that we need something as I have just described, that 
is permanent, professional, in-house, in order to provide what 
we need?
    Dr. Blair. Can I----
    Dr. Teich. Yes.
    Dr. Blair. Can I elaborate on----
    Dr. Teich. I am sorry.
    Dr. Blair. Please.
    Dr. Teich. And I think I would add, as you implied, 
bipartisan, as well.
    Mr. Holt. Well, in fact, when I say professional, that--I 
mean both commanding the respect of the S&T community, and 
scrupulously nonpartisan or bipartisan.
    Dr. Blair. One aspect of what you describe, I would like to 
elaborate a little bit more on, which harkens back to the OTA 
days, but also could be possible in other venues as well, and 
that is this notion of a shared staff. The idea that in the 
course of an assessment--I remember vividly the one we were 
doing on increased competition in the electric power industry 
at the time--that constant interaction throughout the course of 
the assessment with Congressional staff was very important to 
help the committees of jurisdiction and interest in really 
understanding all of the information that was coming before 
those committees at the time.
    And they build up a body of expertise, a current, 
comprehensive body of expertise that could be called upon in 
the course of those kinds of deliberations. So, that is a 
resource that is often not cited in the kind of organization we 
are talking about, but this notion of a shared staff is a 
particularly important one, I think.
    Mr. Ehlers. [Presiding] Any other comments? I didn't see 
any right hands go up.
    Dr. Peha. I think that we need something that is permanent. 
We need something that is professional, and we need at least a 
piece of this to be in-house. I also think in the last decade, 
everybody else in the world has learned how to move workflows 
around a lot better than we used to, and we could perhaps make 
better use of universities and think tanks and others things 
than we used to, but everything should flow through something 
that is in-house.
    Mr. Ehlers. Dr. Hunt, did you have anything to add?
    Dr. Hunt. I agree. I say yes. This is what we need, and we 
need the scientists to be nonpartisan.
    Mr. Ehlers. Thank you. I would just comment.
    Mr. Holt. So, I would suggest, Mr. Chairman, we could call 
it this permanent, professional, in-house organization, we 
could call it TAO, OTA, or we could call it, if we wanted to 
feel our oats, OATS, the Office of Assessment of Technology and 
Science.
    Mr. Ehlers. I see that you have given this some thought. 
Well, I feel like the Terminator, because I walked in the door, 
and someone said could you--can you chair it and terminate the 
hearing? I don't know if everyone else gave up. I apologize. I 
had to leave for another urgent meeting, which went far too 
long, and I lost my temper. But other than that, I am back 
here. I will not ask any questions, because I missed most of 
the testimony.
    I--just a couple of observations. First a quick one. Being 
professional does not ensure bipartisan. I am a professional, 
and I am a Republican. And Mr. Holt is a professional, and is a 
Democrat, or professes to be. It takes more than that to 
guarantee----
    Mr. Holt. It is nice to see the physics caucus on the dais.
    Mr. Ehlers. Yes. Well, we have a bipartisan physics caucus. 
And so, being bipartisan means you have a balance of views 
represented, and I--there are--I was here when OTA was killed, 
and as far as I can discern--and I opposed that--as far I can 
discern, their two items were lack of rapidity in replying and, 
secondly, the Republicans had a feeling that the Democrats used 
it to their own advantage, which would not be too surprising, 
because they had been in power the entire time it existed. In a 
sense, if we are going to do anything, we have to overcome that 
perception, because the perception is still there. It is not as 
strong as it was, but the perception is still there.
    We have made do, not particularly well, but not 
particularly badly, either, by getting our rapid advice from 
CRS and our long-term advice from the National Academies, which 
is not all bad. But if we are to have something in-house, we 
have to be aware of the history, and design a program that 
assures that we do not have the faults, real or perceived, of 
the predecessor.
    And I have talked to Dr. Holt about this a number of times, 
also Congressman Amo Houghton, when he was here. He was an avid 
fan of it, and he and I had joined in trying to stop the 
slaughter, when it was killed. But it was killed, and we have 
to face that, and we have to come up with something that is a 
new, improved model, and that really has some advantages. I 
think there are huge advantages to having such an organization. 
It is not self-evident, however, to nonscientists, non-
technical people.
    Another solution, of course, would be to give the Science 
Committee jurisdiction over everything in this august body that 
relates to science, which would decimate a few other 
committees, and who would not willingly give up jurisdiction. 
But that would be an improvement, too, because I think we in 
this committee tend to handle things rather professionally, and 
reasonably, most of the time bipartisanly.
    So, with those comments, I will say more power to Mr. Holt 
and others who are working on this. But I think the difficult 
problem, two difficult problems. One is designing a system that 
is going to work well. Second, even more difficult problem, is 
selling it to the Congress, and I think it is going to take a 
lot of combined work on all those who are interested, both 
inside and outside the Congress, to make that come about.
    With that, I am pleased to thank you for your input. You 
have been very helpful to us in the things you have said and 
the background from which you say them. And I thank Mr. Holt 
for repetitively raising this issue. He is much younger than I, 
and therefore, he will probably survive in this atmosphere much 
longer than I do, and so, I am going to leave the task on his 
shoulders. And I will be in a supporting role as much as I can.
    With that, I am pleased to declare the hearing adjourned.
    [Whereupon, at 12:12 p.m., the Committee was adjourned.]

                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Hon. Rush Holt, a Representative in Congress from the 
        State of New Jersey

Q1.  Dr. Holt, as a scientist and a politician, please discuss, in 
detail, your perspective on the state of scientific and technological 
assessment and advice for Congress.

A1. The state of scientific and technological assessment and advice for 
Congress is not where it should be, given the number of issues we 
consider each day that contain scientific and technological components. 
Technological assessment is the evaluation of new results considering 
not only technical details but also the implications of the various 
policy choices implied by the technology. When we discuss scientific 
and technological assessment for Congress, we include benefit and risk 
analysis, as well as the transition costs. An example includes the 
management of the transition of the conventional switch-line telephone 
system to using the Internet for phone and other communication methods 
such as e-mail.
    Congress recently dealt with such issues as health care, missile 
defense, and net neutrality, each of which has technological 
components. Not so obviously, issues like pension reform, technical 
education, first responder issues, and voting reform each have a 
technical component as well. Committees hold hearings on these topics, 
sometimes, however, without addressing the scientific and technical 
components. Members of Congress may or may not recognize the 
technological aspects of an issue and obtain necessary advice or 
assessments. Congress itself lacks an organization to complete analysis 
on the scientific and technological components of a bill.
    Congress does have non-partisan and objective organizations 
designed to answer certain types of questions. We have the 
Congressional Research Service (CRS), for example, which is designed to 
research and report on all legislative issues, and provide answers 
rapidly. CRS is an excellent resource for Congress. They provide non-
partisan, objective, comprehensive, and reliable research on 
legislative issues in a timely manner for Congress. We also have the 
General Accountability Office (GAO), which serves the Congress by 
assessing the effectiveness of government spending. The Congressional 
Budget Office (CBO) provides Congress information and estimates to 
guide budgetary decisions. Yet, none of these bodies is chartered or 
equipped to provide in-depth scientific and technological analysis to 
the Congress.
    There are organizations outside the infrastructure of Congress that 
do provide scientific and technological assessment and advice. The 
National Academies of Science (NAS) brings together committees of 
experts in areas of scientific and technological endeavors to address 
critical national issues and give advice to the Federal Government. 
This advice usually comes in the form of reports, and the advice within 
these reports--depending on the topic and mission of the committee of 
experts--may include advice based on technological analysis. Most 
often, NAS reports are based on the opinions and expertise of the 
members of the committee, and the NAS goes to great lengths to ensure 
that there is no conflict of interest for any committee member. This 
process, both necessary and appropriate, increases the time of 
completion of the Academy reports. Given the often rapid pace of 
legislative decision-making, the Academy reports frequently fail to 
reach Members and influence the debate. These reports are not usually 
directed specifically for the use of Congress, and they are not written 
with an understanding of familiarity of the needs, the language, and 
the procedures of Congress.
    Similarly, scientific and technological professional societies work 
to advise Congress. Unlike the work of the Academies, however, we must 
recognize that professional societies work for their members, and their 
advice may not always be politically neutral. Additionally, 
professional societies also do not necessarily provide technical or 
policy analyses for Congress. The same is true for researchers in 
academia, industry or in public-private partnerships.
    Until 1995, the job of providing objective and authoritative 
analysis of complex scientific and technical issues to Congress fell to 
the Office of Technology Assessment (OTA). The OTA was designed to 
produce scientific and technological analysis for Congress and to serve 
as resource to Members of Congress and their staff. In its twenty-three 
years of existence, the OTA issued 703 reports on topics ranging from 
substance abuse to nuclear war specifically for Congressional needs. 
OTA's structure included a Technology Assessment Board (TAB) composed 
of six Senators and six Representatives, with the chairmanship and 
vice-chairmanship alternating between the Senate and House each 
Congress. The OTA also had an Advisory Council of ten eminent citizens 
from academia, industry, and other institutions outside the Federal 
Government, appointed by the TAB. Statutory Members of the Advisory 
Council included the Comptroller General of the U.S. and the Director 
of the CRS. Chairmen and Ranking Members of committees could request 
work personally or on behalf of a committee member. The OTA staff and 
Director then reviewed these requests to determine whether the OTA 
could provide the information effectively and whether the interest was 
broad and bipartisan. During the course of the study, the OTA assembled 
an advisory panel of stakeholders and experts to ensure that the study 
was objective, fair, and authoritative. However, no attempt was made to 
reach consensus amongst the panel members. This ensured that differing 
views were not stifled. Less formal advisory opportunities were also 
sought with other outside experts and advisors.
    For a more detailed explanation of the assessment process, please 
see Appendix A: The Assessment Process, downloaded from http://
www.wws.princeton.edu/ota/ns20/proces<INF>-</INF>f.html
    The OTA evolved over time, restructuring and reorganizing to meet 
Congress' changing needs. In the end, the OTA employed 143 people and 
had a budget of $20 million. Not only were lengthy studies completed, 
but also shorter works as committee staff and Members requested or as 
OTA staffers perceived an upcoming need. In Appendix B, I have included 
some of the budget justification statements by the OTA to illuminate 
its impact on legislation and the workings of Congress.
    In 1995, Congress voted to defund the OTA. In doing so, Congress 
lost the body that crafted reports relevant to the scientific policy 
issues at hand. It also lost insight into the interdependence of 
various technical aspects of a complex problem, implications of policy 
decisions, and options available to provide policy-makers. The OTA's 
work was credible, thorough, and fair. Its absence has left a gaping 
hole in our ability to understand and address thoughtfully the complex 
scientific and technical aspects of the issues we face every day.

Q2.  Dr. Holt, given your perspective, how would you improve the 
current process or implement a new process for Congress to receive 
scientific and technological assessment and advice?

A2. The Office of Technology Assessment (OTA) is the place to start 
when considering what Congress needs to do to improve the scientific 
and technological assessment and advice it receives. The OTA completed 
authoritative, thorough studies, many of which are still relevant 
today. Studies were initiated through the request of a Chairman of any 
congressional committee. This request could be on behalf of the Ranking 
Member of the Committee or on behalf of a majority of the committee, 
and many requests were supported by more than one committee. The OTA 
Director and staff then determined whether the interest of the request 
was broad and bipartisan, and whether the OTA had the resources to 
complete the study. The request was then sent to the Technical Advisory 
Board, a bipartisan, bicameral board of twelve Members of Congress, 
which determined whether to proceed or not with a study. In addition, 
the OTA had an Advisory Council, composed of ten eminent citizens from 
academia, industry, and the Federal Government to advise the OTA.
    Once a study was approved, a comprehensive advisory panel of 
technical and relevant stakeholders was assembled to ensure the reports 
were objective, thorough, fair, and inclusive of a diverse set of 
viewpoints. A core team composed of OTA staff, contractors, and 
consultants was assembled with an experienced project director 
selected, along with contractors and consultants. Each report was 
subject to an extensive formal review process that included OTA staff 
and outside experts. Once the assessment was approved by the OTA 
Director, copies were sent to the members of the Technical Advisory 
Board for review and authorization. Approved reports were then 
released, with copies going to the requesting committee or committees. 
Summaries were sent to Members, and then released to the public. Often, 
delivery of the report's content followed channels such as 
congressional briefings, hearings, and follow-up consultation between 
the OTA and congressional staff. Many of the studies are still 
available online.
    To further illuminate the successes of the OTA, I have included (in 
Appendices B-K), the OTA Justification of Estimates for Legislative 
Branch Appropriations from 1987-1996. Beyond its service as a shared 
resource for the committees of Congress, the OTA interacted with staffs 
of other federal agencies within both the Legislative and Executive 
branches, as well as with the private sector and universities. For 
example, OTA reports were often cited as justification for actions of 
agencies. The OTA also participated in workshops, interagency working 
groups, and commissions. It provided its expertise to organizations 
such as the National Governor's Association, the Council on 
Competitiveness, and the National Academies of Science. In each 
Justification found in the Appendices B-K, one can find a yearly 
summary of this interaction with federal agencies, universities, and 
the private sector.
    Additionally, the Justification of Estimates found in the 
Appendices B-K, included a summary of the direct legislative use of 
each OTA division's work. Reports were often used as background 
material for legislative activities, used in debates on bills, 
referenced during or the focus of hearings or testimonies, and 
assisting in the drafting of legislation. OTA recommendations are often 
cited as aspects of bills moving through the Senate or House. 
Conversations and discussions with Members of Congress or staff are 
also cited in conjunction with work on particular legislation. The OTA 
was an integral part of the legislative process in both the Senate and 
the House of Representatives.
    We no longer have the OTA. As a result of the OTA's demise, 
Congress lost not only its own scientific and technical assessment 
body, but the resulting broad interagency collaboration, coordination, 
and outreach that the OTA also provided. The operation of OTA was not 
expensive, but considering the cost of ignorant mistakes of policy, OTA 
would have been a bargain at several times the cost. Ill-informed 
decisions result in huge amounts of financial waste. In order to be 
fiscally responsible, we need a body to give us scientific and 
technological assessment. Currently, the bodies which serve Congress, 
the CRS, the GAO, and the CBO, do not have a mission focused on 
scientific and technological assessment and its implications.
    As we look to meeting the scientific and technological needs of 
Congress, I believe the in-house, professional, permanently staffed 
body needs to reflect much of the structure and function of the Office 
of Technology Assessment. It served Congress well. However, in seizing 
this opportunity to strengthen scientific and technological advice, we 
must be sure that any new entity meets certain criteria.
    Scientific and technological assessments require objectivity and 
political neutrality. We naturally expect the CRS, the GAO, and the CBO 
to handle assignments at the same professionalism, and there is no 
reason to believe that an updated OTA would not maintain the same high 
standard.
    Studies must be timely and relevant. By crafting a management 
structure to accommodate both longer term studies of topics and studies 
to be completed on a shorter time scale, this new body can help ensure 
that Congress makes informed, well-reasoned decisions. A way to achieve 
this is to enable Representative or Senator to request a study. This 
not only broadens the perspective and usefulness of the entity, its 
also reduces the possibility of partisanship, since both parties can 
make requests independently.
    Some have suggested building this capacity into the GAO. This idea 
is not without perils. For example, the Comptroller General would most 
likely maintain final say on the studies completed, negating the 
bipartisan decision-making structure that Members of Congress have said 
they want. The same danger exists if the entity is placed within the 
CBO or CRS. Budget concerns would also become an issue. When money gets 
tight, the scientific and technological assessment group could be the 
first cut, given that scientific and technological assessment and 
analysis do not fall within the missions of the GAO, CBO, or CRS. Would 
I take this scenario over nothing at all? Yes, with appropriate 
negotiating. Is this scenario ideal? No, it is not.
    It is time that Congress take action to give itself an in-house, 
permanently and professionally staffed body to complete scientific and 
technological assessments. When OTA existed, other countries came here 
to learn about the OTA with the purpose of creating such a body for 
themselves. We were the world leader in this arena, and we can be 
again.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                   Answers to Post-Hearing Questions

Responses by Jon M. Peha, Professor, Departments of Engineering and 
        Public Policy and Electrical and Computer Engineering, Carnegie 
        Mellon University

Questions submitted by Representative Eddie Bernice Johnson

Q1.  Do you feel it would be beneficial for Congress to have its own 
internal scientific advisors such as the Office of Technology 
Assessment Congressional Board? If so, how can we make sure the advice 
structure would be nonpartisan?

A1. Yes, Congress needs internal advisors with significant expertise in 
science and technology, where internal means in an organization 
dedicated to serving Congress as CRS, GAO, and CBO do today. One way to 
insure that the program remains nonpartisan is to establish a Technical 
Assessment Board or Congressional Board for oversight. This bipartisan 
bicameral Board should contain an equal number of members from the 
majority and minority party. All important decisions should require a 
majority vote, which means there must be support from both parties. 
Moreover, the Chairman's power must be limited so the views held by the 
majority will prevail.
    The Board would be responsible for determining which studies are 
undertaken, and for agreeing upon their scope, cost, and duration with 
professional staff. The Board must insure that the studies produced are 
of interest to both majority and minority parties. It will help if they 
systematically give preference to studies that have been requested by 
many members from both parties, as might be quantified by the number of 
Republicans signing a letter of support times the number of Democrats 
signing a letter of support.
    The Board must also approve major the selection of a Director. They 
should select a Director that has outstanding credentials as a 
scientist or engineer, and experience producing or overseeing balanced 
nonpartisan analyses of complex policy issues related to science or 
technology. Some experience with Congress is also important, but 
extensive service advancing one party over the other is probably a 
liability rather than an asset. A highly partisan choice is unlikely to 
gain support from a majority of the bipartisan Board.
    Other safeguards against partisanship must be embedded in the 
organization and its procedures. Studies should not be designed to 
produce legislative recommendations; they should frame issues, and 
analyze options. Clearly that analysis must be rigorous and 
nonpartisan. It helps to conduct outside reviews of each study from a 
diverse set of reviewers, and to take all the reviewers' constructive 
criticism seriously. In many cases, outside review is required at more 
than one stage of the study. This review process goes far beyond the 
typical fact-checking that would be done today in GAO or CBO. In 
addition, a culture of nonpartisan professionalism must permeate the 
organization, and be sustained through hiring and promotion criteria 
that reward solid balanced analysis rather than convenient answers. 
History shows that this can be achieved under appropriate leadership 
from a highly qualified Director.

                   Answers to Post-Hearing Questions

Responses by Albert H. Teich, Director of Science and Policy Programs, 
        American Association for the Advancement of Science

Questions submitted by Representative Eddie Bernice Johnson

Q1.  Do you feel it would be beneficial for Congress to have its own 
internal scientific advisors such as the Office of Technology 
Assessment Congressional Board? If so, how can we make sure the advice 
structure would be nonpartisan?

A1. As I indicated in my testimony, I believe that Congress needs 
timely analysis and synthesis of scientific and technical information 
as a foundation for its decision-making. It is my view that an 
organizational mechanism that is directly responsive to congressional 
requests would serve this need most effectively. Experience suggests 
that establishing an internal body (i.e., a congressional service 
agency whose staff is employed by Congress) is the best way to 
guarantee responsiveness. The staff should be high quality and include 
experts in both science and policy. Staff members need not--in fact it 
cannot--be expert in all science and technology policy areas likely to 
come before Congress, but they should have the ability to draw upon 
external expertise as necessary. That expertise might reside in other 
congressional service agencies (e.g., CRS or GAO) or it might be found 
in the National Academies, scientific associations, think tanks, or the 
broader scientific and policy community.
    Assuring that this structure would be nonpartisan is more 
complicated. I don't have a ready answer, but I would suggest that 
Members examine carefully the existing sources of nonpartisan 
information and advice for Congress--CRS, GAO, CBO, and the National 
Academies--and identify and analyze the traits that best facilitate 
their insulation from partisanship. These shared traits likely include 
some combination of an independent, bipartisan oversight mechanism and 
the ability to protect their staffs from undue political pressures. It 
may also be useful for the advice structure to have its analytical 
processes (e.g., workshops and meetings) rendered in a public rather 
than in a private setting, except in instances where secrecy is needed 
to protect national security.

                   Answers to Post-Hearing Questions

Responses by Peter D. Blair, Executive Director, Division on 
        Engineering and Physical Sciences, National Academy of Sciences

Questions submitted by Representative Eddie Bernice Johnson

Q1.  Do you feel it would be beneficial for Congress to have its own 
internal scientific advisors such as the Office of Technology 
Assessment Congressional Board? If so, how can we make sure the advice 
structure would be nonpartisan?

A1. Reactivating the former Office of Technology Assessment's 
Technology Assessment Board (TAB) is certainly one expedient option for 
filling the gap in advice the Congress is currently receiving, as 
essentially all witnesses noted in the hearing (since it would only 
require appropriations and not authorizing legislation). There are 
other options as well but the construction of mechanisms for 
nonpartisan operation would be essential to the credibility of the 
advice it offers and to ensuring both such an organization's usefulness 
and direct accountability to the Congress.
    As a historical reference, the TAB structure as originally 
incorporated into the OTA authorizing legislation was perhaps the most 
important organizational mechanism for ensuring a nonpartisan 
operation. Construction of something analogous in any new entity would 
probably be very challenging to maintain, especially if the 
organization were located outside the Congress. I pointed out in my 
testimony that if an OTA-like institution existed today, it would 
likely have a number of important differences from the OTA that existed 
between 1972 and 1995, but the mechanisms for ensuring independent and 
nonpartisan analysis are not really among those differences, since 
those mechanisms were painstakingly constructed to achieve both 
bicameral and bipartisan balance in the agency's oversight and 
governance.
    A TAB-like body would be essential to any such organization in 
ensuring both relevance to the Congressional agenda and balance in its 
governance in several dimensions. At the former OTA, TAB's composition 
was unique among the legislative support agencies--a twelve-member 
governing board with six members of the Senate and six of the House, 
divided exactly equally between the political parties. TAB's principal 
responsibilities were to appoint the Director, to authorize the 
initiation of assessments requested by Congressional Committees, to 
approve the budget authority associated with each of those assessments, 
and finally to authorize delivery of assessment reports to requesting 
committees and the public by certifying that OTA has carried out its 
assessment process faithfully, i.e., that OTA has considered all the 
relevant stakeholder interests and issues and undergone and responded 
to extensive external review. For your reference, I recap the strengths 
and weaknesses of these features in more detail in the 1994 paper I 
prepared on the subject, Technology Assessment: Current Trends and the 
Myth of a Formula (available at http://www.wws.princeton.edu/ota/) as 
well as in the more recent report I included for the hearing record.
    As a point of reference, in the early days of OTA many thought that 
TAB would not work. It was predicted by some that TAB would either 
become a disinterested body or a dysfunctional one due to partisan 
disagreements. But as the agency matured organizationally, neither of 
these predictions happened. Board members were appointed by the 
leadership in both the House and the Senate and included very senior 
members of Congress from both political parties, some of whom are still 
in Congress today. The board met approximately every six weeks when 
Congress was in session with a strong turnout and with few 
disagreements reflecting party or ideological lines.
    One historical anecdote illustrates the effective functioning of 
the TAB at OTA. A TAB member voted in the board meeting to authorize 
the release of a somewhat controversial study on the technological 
future of textile industry, acknowledging that the assessment process 
had been completed effectively. The next day, however, he issued a 
press release politically criticizing some of the alternative policy 
options identified in the report's conclusions. Some felt that this was 
inconsistent and perhaps even hypocritical, but actually he had honored 
both his responsibilities. First he honored his responsibility on the 
board by not letting the implications for his constituents of some the 
identified alternative policy options affect his position on the 
overall perspective of the report. At the same time and in a separate 
venue, he accommodated the political concerns of his constituents by 
disagreeing with those options that were not in their interests.
    This anecdote also underscores a fundamental point I was trying to 
make in my testimony. There are many organizations that can provide 
important input to Congressional deliberations and at least a few, such 
as the National Academies, that can offer highly authoritative, 
independent and objective consensus findings and recommendations from a 
widely recognized group of experts on technical issues. However, there 
are essentially no organizations well-equipped currently to inform the 
Congressional debate on complex science and technology issues with 
perspectives that may go beyond science and technology to include the 
broader implications of alternative actions or options related to the 
science and technology issues being considered and, especially, a 
comprehensive evaluation of such perspectives with mechanisms in place 
to ensure independence and balance of that evaluation.
                   Answers to Post-Hearing Questions
Responses by Catherine T. Hunt, President-Elect, American Chemical 
        Society; Leader for Technology Partnerships, Rohm and Haas 
        Company

Questions submitted by Representative Eddie Bernice Johnson

Q1.  Do you feel it would be beneficial for Congress to have its own 
internal scientific advisors such as the Office of Technology 
Assessment Congressional Board? If so, how can we make sure the advice 
structure would be nonpartisan?

A1. I do feel strongly that it would be very beneficial for Congress to 
have its own internal scientific advisors. Currently, Congress has two 
internal sources for obtaining input on scientific and technical 
issues--the Congressional Research Service, which provides excellent 
background and summary documents, and the General Accounting Office, 
which performs economic analyses. Congress also can utilize the 
National Academies to secure in-depth, long-term analyses of scientific 
and technical issues. Each has its strengths, yet something is missing: 
an internal agency that provides a data- and information-based policy 
analysis to meet Congress' specific decision-making needs.
    Since the Office of Technology Assessment was eliminated in 1995, 
Congress has functioned without an impartial internal unit that can 
frame complex issues, provide comprehensive and balanced insights and 
analysis, and set out policy options on science and engineering issues. 
These issues require more than facts and short reports, they need 
adequate scoping, integration and non-partisan analysis of large-scale 
issues involving science and technology. Congress clearly should 
continue to utilize outside experts in this regard, including the 
National Academies, but they cannot meet all of Congress' frequent and 
extensive needs.
    The need for timely, comprehensive technical analyses is clearly 
demonstrated by the success that Fellow programs, such as the one 
coordinated by AAAS, have had on the Hill. Individual Members of 
Congress have certainly recognized the need for scientific input in 
making policy decisions, but unfortunately, with only 35 or so Fellows 
available each year, these programs cannot fill all the needs of all 
the Members. A new congressional agency would ensure that such 
information would be available to all.
    The second part to your question, about ensuring that the advice is 
nonpartisan, is a difficult one for me to answer. My experience is as a 
scientist, not a politician, so I will defer to the experts in Congress 
on the details of this question. However, I can hopefully add some 
insight by highlighting the main tool my field uses to maintain 
integrity: peer review. It is a central tenet of practicing scientists. 
Journal articles and reports are often sent out for both internal and 
external reviews by experts. This enables us to find errors, correct 
misinterpretations, and generally improve our work. Reports written by 
a new congressional unit should be subject to a similar process. 
Employees would have to rely significantly on outside experts and to 
refine their analyses. If the data and the analyses are correct, they 
should hold up to external scrutiny.

                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


  Scientific Advice for Policy in the United States: Lessons from the 
 National Academies and the former Congressional Office of Technology 
                               Assessment

                           Peter D. Blair\1\
---------------------------------------------------------------------------
    \1\ The author is Executive Director of the Division on Engineering 
and Physical Sciences of the U.S. National Academies. He was formerly 
Assistant Director of the U.S. Congressional Office of Technology 
Assessment (OTA) and Director of OTA's Division on Industry, Commerce, 
and International Security. Conclusions in this paper are the author's 
and are not necessarily those of the National Academies. This paper is 
an expansion of Ahearne and Blair (2002) and includes descriptions 
drawn from Blair (1994 and 1997) and The National Academies (2005a). 
The author greatly appreciates the advice of a number of reviewers, 
including John Gibbons, Christopher Hill, Jim Turner, Michael 
Rodemeyer, Jonathan Epstein, and E. William Colglazier.
---------------------------------------------------------------------------
                         The National Academies
                          500 Fifth Street, NW
                          Washington, DC 20001

    Presented to: Symposium on Quality Control and Assurance in 
Scientific Advice to Policy, Berlin-Brandenburg Academy of Science & 
Humanities, Working Group on ``Scientific Advice to Policy in 
Democracy,'' Berlin, Germany, January 12, 2006.

ABSTRACT

    In the United States the National Research Council (NRC), the 
``operating arm'' of The National Academies, is a widely used source 
for science and technology policy advice by government agencies and the 
U.S. Congress. Operating under an 1863 charter issued by Congress for 
the independent and non-government National Academy of Sciences, the 
NRC today delivers around 250 reports to government annually, spanning 
a wide spectrum of important science and technology related issues. NRC 
reports are viewed widely as valuable and credible because of the 
institution's longstanding reputation for providing independent, 
objective, and nonpartisan advice with high standards of scientific and 
technical quality.
    The NRC study process is tuned primarily to the needs of federal 
executive agencies but carries out on the order of 25 studies annually 
requested by the U.S. Congress as well. The former Congressional Office 
of Technology Assessment (OTA) was an analytical support agency created 
by Congress in 1972 but closed down in 1995. During its existence OTA 
produced on average 32 assessment reports annually (703 in all over the 
agency's 23 year existence and on average 51 reports per year in the 
last three years), primarily for the standing committees of the 
Congress, using a process that produced reports on science and 
technology policy issues and accompanying advice tuned specifically to 
Congressional needs.
    This paper explores and compares the study processes of the NRC and 
the former OTA, drawing conclusions from the comparisons that relate, 
in particular, to the relative strengths and weaknesses for ensuring 
quality, independence, authority, and relevance in providing science 
and technology advice to government and, in particular, the legislative 
branch of government.

INTRODUCTION

    The pace of science and technology advancement over the past half-
century has delivered enormous benefits to societies throughout the 
world as well as sobering challenges associated with the role of 
technology in virtually every aspect of our lives. While reaping the 
benefits, all of society must also cope with the challenges.
    Over two centuries ago as the American democracy took shape, the 
founding fathers of the fledgling republic worried that democracy could 
flourish only when the electorate and, in particular, the institutions 
of government serving it are well informed about the issues upon which 
they must decide. Today, and increasingly, as science and technology 
issues become more and more prevalent, prominent, complex, and of far 
reaching impact on society, a democratic government poorly informed 
about such issues carries greater and greater risk in making bad policy 
choices. Yet, it is also becoming increasingly more difficult for 
anyone, or even any one institution, to keep pace with the frontier of 
scientific knowledge and its impact on society. In addition, over the 
last quarter century, the information revolution has expanded the 
quantity of information accessible to government policy-makers, but 
more information has not proved to be necessarily better information. 
Indeed, a fundamental problem today is not the lack of information; 
rather, it is how to gauge validity and usefulness within the torrent 
of available information and advice.
    How then can government policy-makers acquire useful, relevant, 
informed, independent, authoritative and timely advice on the science 
and technology dimensions of the issues they face? This paper reviews 
the current and evolving role of the U.S. National Academies in 
providing advice to government as that role compares with other current 
sources of advice. For this conference, also considered more 
specifically are the mechanisms of quality control in the study process 
of the National Academies, again as it compares with other sources of 
advice, and in particular with that of the former Office of Technology 
Assessment (OTA)\2\ and with special attention to the Congressional 
needs for science and technology advice. Also, for purposes of this 
paper, the characterizations of the Academy and OTA study processes are 
stylized in that they are described in the ideal and most common study 
situations, although in both cases there were considerable variations 
around the specific processes presented here.
---------------------------------------------------------------------------
    \2\ The Congressional Office of Technology Assessment (OTA) was an 
independent analytical support agency of the U.S. Congress that was 
created in 1972 and operated from 1973-1995. The authorizing 
legislation for OTA still exists, but Congress no longer appropriates 
funds for its operation.
---------------------------------------------------------------------------

THE ROLE OF THE NATIONAL ACADEMIES

    In the U.S. among the most familiar sources of independent 
scientific and technical advice to the Federal Government is the 
collection of non-government organizations we refer to today as the 
National Academies, comprising the National Academy of Sciences (NAS), 
the National Academy of Engineering (NAE), the Institute of Medicine 
(IOM), and their collective ``operating arm,'' the National Research 
Council (NRC).\3\ In 1863 the U.S. Congress chartered the NAS as an 
independent non-profit corporation to ``whenever called upon by any 
department of the Government, investigate, examine, experiment, and 
report upon any subject of science or art.'' This charter was signed 
into law by President Abraham Lincoln during the height of the U.S. 
Civil War.
---------------------------------------------------------------------------
    \3\ More detailed descriptions can be found at The National 
Academies (2004) or Ahearne and Blair (2003).
---------------------------------------------------------------------------
    Today the NAS, NAE, and IOM are prestigious and highly selective 
honorary societies that each elect among the most respected scientists 
and engineers in the world as new members to their ranks annually. The 
Presidents of the NAS and NAE serve ex officio as the Chair and Vice-
Chair, respectively, of the NRC. The NRC assembles committees of 
experts including many academy members to provide advice in the form of 
study reports to executive branch agencies of government, but the U.S. 
Congress also frequently mandates studies to be carried out by the 
NRC.\4\ NRC studies span a wide spectrum of science and technology 
related issues, resulting in around 250 reports\5\ annually, involving 
nearly 10,000 volunteers serving on study committees and in the review 
process as well as utilizing over a 1,000 professional staff to manage 
and facilitate the efforts of study committees.
---------------------------------------------------------------------------
    \4\ Academy studies carried out for Congress are usually executed 
under contract to executive departments and agencies as directed by 
Congress in authorizing or appropriations legislation.
    \5\ See The National Academy Press (2002), The National Academies 
(2005c), or the National Academy of Sciences (2005).
---------------------------------------------------------------------------
    NRC reports are viewed widely as being valuable and credible 
because of the institution's longstanding reputation for providing 
independent, objective, and nonpartisan advice with high standards of 
scientific and technical quality. The key strengths of the NRC in 
providing advice to the U.S. Government rest principally on the history 
of convening very high quality expertise for its study committees and 
on the reputation for maintaining important quality control features 
for independence and objectivity of reports prepared by those 
committees. In particular, over the years as the NRC study process 
evolved, many checks and balances have been incorporated to ensure 
quality and protect the integrity of reports thereby helping to 
maintain public confidence in them. In 1997 many of these checks and 
balances, supplemented with some additional features, were codified 
into federal law as NRC advice to the government became subject to a 
new provision of the Federal Advisory Committee Act (discussed later). 
In short, the NRC study process is widely accepted as a high standard 
for independent scientific advice to government.

Key Strengths of the NRC Study Process

    These commonly cited principal strengths of the NRC study process 
include the following:

        <bullet>  Credibility. The NRC's institutional credibility is 
        enabled in part by its association with the NAS, NAE, and IOM. 
        In addition, the process by which the NRC conducts its work is 
        designed to ensure the results are evidence-based and tightly 
        reasoned as well as independent from outside influences and 
        pressures from various interest groups including government 
        agencies and congressional interests. The Academies also 
        conduct several studies each year using their own limited 
        endowment resources rather than those of external sponsors. 
        These self-initiated studies often focus on topics that the 
        Academies leadership believes to be important but that the 
        government may not be willing or able to sponsor on a schedule 
        timely enough to be useful. One such example was the 2002 
        study, Making the Nation Safer: The Role of Science and 
        Technology in Countering Terrorism, which followed the 
        terrorist events of September 11, 2001 in the U.S. Another is 
        the recent report, Rising Above the Gathering Storm: Energizing 
        and Employing America for a Brighter Economic Future, which 
        puts forward recommendations for a comprehensive and 
        coordinated federal effort to bolster U.S. competitiveness and 
        preeminence in science and technology.

        <bullet>  Convening Power. The NRC seeks to invite the ``best 
        and the brightest'' to participate in its studies and those 
        invitations are generally accepted. Studies are carried out by 
        groups of volunteers who are identified not only as broadly 
        considered among the best experts on the issues to be studied, 
        but also are determined through a well documented process to be 
        free of conflicts of interest, and represent a carefully 
        balanced set of perspectives on those issues. It is widely 
        perceived as a prestigious honor to serve on an NRC committee 
        and, because of the breadth of membership in the academies and 
        the links of the organization to the scientific and technical 
        communities worldwide, the NRC is well equipped to identify 
        leading experts to serve on study committees.

        <bullet>  Study Process and Products. A highly structured 
        process guiding NRC studies has evolved steadily over the 
        years, but has always been and continues to be designed to 
        maintain balance and objectivity throughout a committee's work 
        and to produce reports considered to be both unbiased and 
        authoritative. A key quality control feature in the process is 
        independent peer review. After consensus is achieved by a study 
        committee and a draft report is prepared, the NRC process 
        requires the committee to address all of the comments from a 
        carefully selected collection of reviewers, whose identities 
        are not revealed to the committee until the study is publicly 
        released. The review process is managed by a monitor appointed 
        by the Report Review Committee, which is an independent 
        committee of the National Academies (discussed more later).

Overview of the NRC Study Process

    The NRC study process can be defined as a sequence of five major 
stages: (1) study definition, (2) committee selection, (3) committee 
activity (meetings, information gathering, deliberations, and report 
preparation), (4) report review, delivery and public release, and (5) 
final publication and dissemination.\6\
---------------------------------------------------------------------------
    \6\ Much of this description is adapted from The National Academies 
(2005a). More detailed descriptions of the NRC study process include 
National Research Council (1998, 2000 and 2005b).
---------------------------------------------------------------------------
STAGE 1. Study Definition
    Management and staff of the National Academies along with members 
of oversight committees (known as boards) appointed by the chair of the 
NRC are responsible for oversight of specific segments of the overall 
NRC study portfolio. There are around 50 such boards in the NRC 
organization, such as the Board on Energy and Environmental Systems or 
the Board on Life Sciences. These groups interact with sponsors to 
define the specific set of questions to be addressed by a prospective 
study resulting in a formal ``statement of task'' (SOT) as well as the 
anticipated duration and cost of the proposed study. The SOT defines 
and bounds the scope of a prospective study and serves as the basis for 
determining the expertise and the balance of perspectives needed on the 
committee that will be recruited to carry out the study. In addition, 
the SOT serves as a fundamental point of departure for subsequent 
independent peer review of the draft report prepared by the study 
committee.
    The SOT, and the accompanying detailed plan for executing the 
committee's work, and the project budget are all reviewed and approved 
or revised by the Executive Committee of the NRC Governing Board (GBEC) 
comprised of elected and appointed officials of the NAS, NAE, and IOM. 
This review can result in changes to the proposed SOT and work plan 
and, on occasion, results in turning down proposed studies that the 
institution, after consideration, believes are inappropriately framed 
or not within the charter of the National Academies. Following GBEC 
approval and execution of a contract (or grant)\7\ specifically for 
that study with the agency sponsor, work begins on the study itself.
---------------------------------------------------------------------------
    \7\ Costs for NRC studies sponsored by government agencies are 
covered and accounted for via specific contracts for each study 
individually. For a variety of reasons (discussed later in this paper) 
the NRC has been reluctant to operate under a more centralized funding 
mechanism with the government, such as an annual appropriation from 
Congress.

STAGE 2. Committee Selection
    Members of NRC study committees are formally appointed by the Chair 
of the NRC. Committee members serve without compensation except for 
reimbursement of expenses associated with attending meetings. The 
selection of appropriate committee members for an NRC study, both the 
individuals selected and the composition of the group as a whole, is 
key to the credibility and authority often associated with NRC reports. 
A great deal of research by NRC staff and management takes place prior 
to appointment of a committee in order to identify the strongest 
possible candidates.
    NRC committee members serve as individual experts, not as 
representatives of organizations or interest groups. They are initially 
appointed provisionally and a committee is not finally approved until a 
discussion of the committee's composition and balance is held at the 
first meeting where any issues regarding potential conflicts of 
interest or balance of perspectives represented on the committee that 
are raised in that discussion or by the public\8\ are investigated and 
addressed. This discussion and follow up consideration by NRC 
management sometimes results in changes to the committee membership. 
The goal of this process of analyzing the prospective committee's 
composition and balance is to ensure that committees meet the following 
criteria:
---------------------------------------------------------------------------
    \8\ Provisional committee membership is posted on the National 
Academies Internet web site for a period of 20 days prior to the first 
meeting of the committee and the public is invited to provide comments 
on the committee composition and balance of perspectives.

        <bullet>  An appropriate range of expertise for the task. 
        Committees are designed to include experts with the specific 
        expertise and experience needed to address the study's SOT. One 
        of the strengths of the National Academies is the tradition of 
        bringing together recognized experts from diverse disciplines 
        and backgrounds who might not otherwise collaborate. These 
        diverse groups are encouraged to conceive new ways of thinking 
---------------------------------------------------------------------------
        about problems.

        <bullet>  A balance of perspectives. While ensuring that the 
        right expertise is represented on the committee is essential, 
        it is not alone sufficient for an effective committee on most 
        NRC studies. It is also important to evaluate the overall 
        composition of the committee in terms of a diversity and 
        balance of experiences and perspectives. The goal is to ensure 
        that the most important points of view, in the National 
        Academies' judgment, are reasonably balanced so that the 
        committee can carry out its charge objectively and credibly.

        <bullet>  Screened for conflicts of interest. All provisional 
        committee members are screened in writing and in a confidential 
        group discussion regarding possible conflicts of interest. For 
        this purpose, a ``conflict of interest'' is actually quite 
        narrowly defined as any financial or other interest which 
        conflicts with the service of the individual on the committee 
        because it could significantly impair the individual's 
        objectivity or could create an unfair competitive advantage for 
        any person or organization. In particular, the term ``conflict 
        of interest'' in the NRC study context means something more 
        than individual bias. There must be an interest, ordinarily 
        financial, that could be directly affected by the work of the 
        committee. Except in very rare situations where the National 
        Academies determines that a conflict of interest is unavoidable 
        and promptly and publicly discloses the conflict of interest, 
        no individual can be appointed to serve (or continue to serve) 
        on a committee of the institution used in the development of 
        reports if the individual has a conflict of interest that is 
        relevant to the charge of the study committee. Many potential 
        conflicts of interest, as opposed to real conflicts as defined 
        above, are balanced by different viewpoints represented by 
        other members of the provisional committee.

        <bullet>  Other considerations. Membership in the ``three 
        academies'' (NAS, NAE, IOM) and previous involvement in 
        National Academies studies are taken into account in committee 
        selection. The inclusion of women, ethnic minorities, and young 
        professionals are important as well, and additional factors 
        such as geographic diversity and a diversity of institutional 
        affiliations are also considered.

    The specific steps in the committee selection and approval process 
are as follows: (1) academy staff solicit an extensive number of 
suggestions for potential committee members from a wide range of 
sources; (2) a recommended a slate of nominees is put forward for 
approval through several levels within the NRC management, with the 
provisional slate ultimately approved by the NRC Chair; (3) the 
provisional committee member list is posted for public comment on the 
National Academies Internet site and members are asked to complete 
background information and conflict of interest disclosure forms, which 
are subsequently reviewed by academy management and staff.\9\ Then, (4) 
a discussion of the committee's overall balance and potential conflicts 
of interest is held at the first committee meeting; (5) any conflicts 
of interest or issues of committee balance and expertise are 
investigated; and, if necessary, (6) changes to the committee are 
proposed and finalized before the committee is formally approved. 
Finally, (7) committee members continue to be screened for conflicts of 
interest throughout the duration of the committee's work.
---------------------------------------------------------------------------
    \9\ The NRC conflict of interest disclosure process (National 
Research Council, 2003) is often cited as a high standard for 
documenting independence and objectivity in science and technology 
advisory bodies; see, for example, U.S. Office of Management and Budget 
(2005).

STAGE 3. Committee Activity
    Study committees typically gather information through: (1) meetings 
that are open to the public and that are announced in advance through 
the National Academies Internet site; (2) the submission of information 
by outside parties; (3) reviews of the scientific literature (and other 
sources as relevant), and (4) the investigations of the committee 
members and staff. In all cases, efforts are made to solicit input from 
individuals who have been directly involved in, or who have special 
knowledge of, the problem under consideration. In accordance with 
federal law and with few exceptions, information-gathering meetings of 
the committee are open to the public.
    Any written materials provided to the committee by individuals who 
are not officials, agents, or employees of the National Academies are 
maintained in a Public Access File that is available to the public for 
examination. The committee deliberates in meetings closed to the public 
in order to develop draft findings and recommendations free from 
outside influences.\10\ The public is provided with brief summaries of 
these meetings that include the list of committee members present 
(posted on the Academy's Internet site), but all analyses carried out 
by the committee and drafts of the report remain confidential. 
Occasionally academy studies employ contractors to provide supplemental 
analyses to support the staff and committee's work although this is 
typically not a major component of most studies.
---------------------------------------------------------------------------
    \10\ Most groups created by the U.S. Government to provide advice 
operate under regulations pursuant to the Federal Advisory Committee 
Act (FACA), which does not permit, for example, such groups to operate 
without government officials present or in meetings not open to the 
public (along with many other requirements). The NRC operates under a 
special provision of FACA (Section 15) that permits closed committee 
meetings. Section 15 of FACA is included for reference as Appendix A.
---------------------------------------------------------------------------
    NRC committees assume authorship of the study report, although in 
practice who actually drafts the report varies considerably. For 
example in many cases the appointed committee members draft much of the 
text at all stages of a report; in other cases committee members 
critique drafts prepared by staff; and often collaborative combinations 
of committee and staff authorship produce successive drafts.

STAGE 4. Report Review
    As a final check on the quality and objectivity of an NRC study, 
all reports undergo a rigorous, independent external review by experts 
whose comments are provided anonymously to committee members. The NRC 
recruits independent experts with a range of views and perspectives to 
review and comment on the draft committee report.
    The Academy's report review process is structured to ensure that a 
report addresses its approved study charge and does not exceed it;\11\ 
that the findings are supported by the scientific evidence and that 
concluding arguments are presented clearly; that the exposition and 
organization of the report are effective; and that the report is 
impartial and objective. Each committee is required to respond to, but 
need not (necessarily) agree with reviewer comments in a detailed 
``response to review'' document that is examined by one or two 
independent report review ``monitors'' responsible for ensuring that 
the report review criteria have been satisfied. After all committee 
members and appropriate academy officials have approved the final 
report, it is transmitted to the sponsor of the study (usually a 
government agency) and subsequently released to the public. Sponsors 
are not provided an opportunity to suggest changes in reports. The 
names and affiliations of the report reviewers are made public when the 
report is released.
---------------------------------------------------------------------------
    \11\ This is, in part, necessary because study statements of task 
are contractually defined and, hence, sometimes result in committee's 
frustration at not being permitted to exceed the statement of task if 
the committee feels an expansion of the scope in warranted. It is 
generally considered the role of the institutional governance 
structures to ensure that a study's statement of task is properly 
framed.

STAGE 5: Publication and Dissemination
    NRC reports are sometimes delivered and released to the public in 
the final published form, but more frequently are delivered and 
publicly released in a pre-publication draft format, and subsequently 
edited and produced in a final published form some time later. Press 
briefings, congressional and executive agency briefings, and other 
dissemination activities are common for many NRC studies.

Special Challenges for NRC Study Processes

    Over the years the NRC process has proved consistently to be a very 
strong model for providing independent and authoritative advice to 
government. Like any process designed to serve many needs, however, it 
is not perfectly tuned to serve all the needs of all parts of 
government that need science and technology advice. The most commonly 
cited issues and challenges associated with the NRC study process are 
the following:

        <bullet>  Cost. It is often perceived to be expensive to 
        commission an NRC study, even though committee members are 
        volunteers whose time is contributed pro bono (except for 
        travel expenses). At least in part this perception is due to 
        the fact that a separate contract is negotiated for each 
        individual study--unlike the central funding for federal agency 
        advisory committees. The overhead cost for the NRC is 
        necessarily substantial, partly because many of the staff 
        supporting studies are professionals who manage the activities 
        of standing boards and committees as well as study committees 
        and partly because supporting the infrastructure necessary to 
        maintain access to key sources of volunteers, including the 
        governance structures of the National Academies, must be 
        maintained. In general, the cost of an NRC study is perhaps 
        somewhat higher than that of a comparable effort carried out by 
        a university or nonprofit ``think tank'' and somewhat less than 
        that of a commercial management consulting firm.

        <bullet>  Timeliness. The NRC study process, which includes 
        commissioning and contracting for the study, selecting and 
        convening a study committee, arranging subsequent meetings 
        among busy experts who are often in high demand and serving on 
        a volunteer basis, and navigating a report through peer review, 
        editing, production, and release takes time. The average (with 
        a very wide variance) duration of an NRC study is about 18 
        months, but can be longer, especially for controversial topics. 
        Congressionally mandated studies involve additional 
        complications as well (discussed below). It should also be 
        noted, however, that studies can also be carried out quite 
        rapidly given an important national need. Making the Nation 
        Safer, noted above, was completed in six months. Another widely 
        cited study, Climate Change Science, was completed in one month 
        and the recently completed report, Rising Above the Gathering 
        Storm, noted earlier was completed in six months.

        <bullet>  Sources of Sponsorship. Most NRC studies are 
        commissioned and paid for by federal agencies through contracts 
        (at least one per study undertaken and sometimes many contracts 
        per study from multiple agencies). Studies are funded from 
        other sources as well (sometimes in addition to federal agency 
        sponsorship), such as foundations or even limited sponsorship 
        from private sector sponsors or even States. Studies mandated 
        by Congress also require the additional hurdle of enacting a 
        federal law directing an agency to contract with the NRC. On 
        the one hand, the practice of negotiating studies individually, 
        whether there are multiple sponsors or not, is beneficial in 
        that it can help ensure that the studies the NRC undertakes are 
        relevant and important. Also the diversity of financial 
        sponsorship for a large portfolio of studies from many 
        executive agencies (see Figure 1) helps assure independence, 
        especially by minimizing the dependence of the NRC's financial 
        support on any one federal source. On the other hand, it often 
        takes six to nine months through a government procurement 
        process to initiate an NRC study even after a mandated study 
        has been enacted in law (or included in the legislative report 
        language accompanying passage of the law). For those studies 
        mandated by Congress, yet an additional delay often results 
        from the time needed to implement the legislation. While it has 
        been sometimes suggested that the Academies consider requesting 
        an annual appropriation of funds from Congress (probably 
        executed as a task order contract with a relevant federal 
        agency) to facilitate improved administrative efficiency in 
        carrying out studies (e.g., reducing the time for securing 
        individual contracts for studies), the Academies' leadership 
        has historically been unwilling to consider this option, since 
        such an arrangement could lead to compromises in institutional 
        independence.

        <bullet>  Committee Authorship. NRC study committees of 
        experts, widely considered to be a key strength of the NRC 
        study approach, include widely respected individuals from 
        academia, industry, and essentially all groups relevant to the 
        study committee's charge. However, the volunteer committee of 
        experts as authors of the report can also sometimes be a 
        weakness. For example, NRC committees are made up of 
        distinguished volunteers who have many other responsibilities 
        in their professional lives. Without careful oversight by the 
        committee chair and sometimes NRC management, committee members 
        with the most at stake in a study or perhaps with the most 
        available time to commit to the effort could have a 
        disproportionate influence over a study's deliberations and 
        outcomes. This is why the NRC places such a high priority on 
        recruiting strong chairs, providing experienced professional 
        support staff in managing committees, and executing rigorous 
        procedures for identifying and addressing potential bias and 
        conflicts of interest of prospective committee members. 
        Committee members who attempt to abuse their responsibilities 
        as committee members can be removed while a study is under way.

A CURRENT GAP IN ADVICE TUNED TO CONGRESSIONAL NEEDS

    As just outlined, the NRC study process is well developed and 
serves one important need of Congress--providing an authoritative 
recommendation from widely recognized experts on a specific course of 
action. In particular, NRC committees are usually assembled with the 
intention of achieving consensus recommendations supported by evidence 
and subject to rigorous peer review. In a very controversial subject 
area with scientific and other uncertainties, if a broad set of 
perspectives are included in the study committee a consensus might be 
difficult to achieve, particularly if the purpose is to include all 
possible scientific and other perspectives on a problem or if complex 
policy considerations are involved. This is why the NRC places a high 
priority on an appropriately balanced committee and a rigorous 
information-gathering phase of a committee's work, where such 
perspectives can be heard and considered by the committee.\12\
---------------------------------------------------------------------------
    \12\ While NRC study committees strive by design to produce 
consensus findings and recommendations, academy policies and procedures 
do provide for publishing dissenting views when consensus cannot be 
achieved.
---------------------------------------------------------------------------
    Since the historical focus of the NRC process has been on 
delivering consensus-based advice, the process as it has evolved is 
less well equipped to elaborate on the broader context of an issue and 
inform the policy debate with careful and objective analysis of the 
policy consequences of alternative courses of action, especially those 
that may involve value judgments and social or economic trade-offs 
beyond the scope of technical analysis. Consequently, it has been less 
common for the NRC to assemble committees charged with identifying and 
evaluating the pros and cons of a range of alternative policy options, 
although such committees are sometimes created and it would certainly 
be possible to develop such a study process to be used more widely at 
the National Academies.
    Both types of analysis just described are important to 
congressional deliberation depending upon the circumstances. With the 
closure of the former OTA, organizations focused on the latter type of 
analysis, either performed by a disinterested analytical organization 
within the Congress itself or readily accessible to the Congress from 
an external organization, do not currently exist and may at some point 
need to be reconstructed, perhaps involving the National Academies in 
some way.

Example: The Future of the U.S. Electric Power System

    As an example illustrating the analysis gap just noted, consider 
the case where the U.S. Congress may be interested in the future of the 
electric power system following a major blackout. The salient issues 
could be posed in two alternative ways:

        <bullet>  One type of study would be to seek an authoritative 
        set of recommendations for making the system more secure and 
        reliable. In such a study, the well established NRC approach 
        would be to assemble a committee of widely recognized experts. 
        The Committee would review what is known about the power system 
        and currently expected paths of continued development and then 
        prepare specific engineering, technology and operational 
        recommendations about how to improve system reliability and 
        performance. Indeed, such a study is currently underway at the 
        NRC sponsored by the new U.S. Department of Homeland Security.

        <bullet>  In another type of study, Congress might be 
        interested in exploring the technical as well as societal, 
        environmental, economic, regulatory, or other broad 
        implications of alternative scenarios of increasing competition 
        in the Nation's electric utility industry, perhaps once again 
        precipitated by a blackout widely perceived, correctly or not, 
        to be the result of deregulation. Not only technical, but also 
        political, economic, social, environmental, and probably many 
        other kinds of tradeoffs and value judgments are involved in 
        characterizing a series of scenarios for the future structure 
        of the industry, ranging from moving toward a national 
        centrally controlled electric supply grid to fully deregulating 
        wholesale and retail electricity segments of the industry.

    In the latter case a definitive set of consensus recommendations is 
not the objective, and the collection of stakeholders and experts 
necessary to carefully identify and explore these alternatives would be 
considerably different than for the study committee structured to reach 
fact-based, tightly reasoned consensus recommendations based on 
scientific evidence and on specific technical issues. Rather, the 
objective would be to articulate the implications of alternative 
scenarios and accompanying policy decisions, usually at a higher level 
of abstraction than the former case.
    In short, and perhaps at the risk of being simplistic, the first 
type of analysis is designed to illuminate the scientific and technical 
aspects of a problem to help direct a specific course of action while, 
in the second case, the analysis is designed principally to inform the 
debate, including perspectives that may go beyond science and 
engineering. Both types of analysis are very important to Congressional 
deliberations. The contrasts between these two types of analysis are 
discussed below in a more detailed comparison of the NRC process with 
that of the former OTA. As noted above, the fact that the NRC process 
does not now generally accommodate this second form of advice does not 
mean that it could not; the NRC often considers and implements changes 
in its processes in response to government needs, although going beyond 
the tradition of fact-based studies with a science and technology focus 
to more policy-oriented studies could pose risks to the NRC's 
credibility so such changes would have to be implemented very 
carefully.

Real-Time Advice: A Continuing Imperative

    As a case in point of the evolution of NRC processes, the horrific 
terrorist events of September 11, 2001 in the United State spurred 
widespread interest in finding ways to contribute to the understanding 
of the science and technology dimensions of homeland security and 
countering terrorism. Specifically, many government agencies expressed 
urgent needs for immediate advice in these areas. In response, the NRC 
experimented with using its convening power to assemble small groups of 
experts who then provided advice as individuals, rather than as a group 
constituting an NRC committee. Such ``real-time'' advice, which does 
not result in a written report and does not carry the imprimatur of the 
NRC process (especially the quality control aspects of committee 
deliberation and peer review of a written report) does not constitute 
formal advice of the Academy to government. It has, however, provided a 
new means of satisfying a real government need, i.e., providing timely 
input to policy-makers and other organizations, including, as an 
example, a standing arrangement with the Government Accountability 
Office (GAO), an agency of the Congress, discussed further below.
    Additional Congressional needs vary widely, including such 
deliverables as (1) ``instant education'' on a complex science and 
technology issue, (2) ``translations'' of authoritative technical 
reports to more readable and understandable language tuned to the needs 
of policy-makers with very broad responsibilities, (3) summaries of 
landmark authoritative reports, and (4) updates or adaptations of 
existing reports and information to current needs, and (5) readily 
available and trusted expert consultants on call to help with quick 
turnaround questions and interpretations of complex technical 
information. Some of these capabilities are accessible to the Congress 
to varying degrees through the Congressional Research Service, but 
others, especially (1) and (5) are not currently generally available to 
the Congress, at least in any organized or readily accessible way by an 
organization directly accountable to Congress.

Collaboration and the GAO Experiment

    In an experiment referenced above to test the feasibility of 
developing a ``technology assessment'' capability in another 
Congressional support agency, the Government Accountability Office 
(GAO), a first-of-a-kind GAO technology assessment report on biometric 
technologies was released in 2002.\13\ While the NRC was not involved 
in developing this assessment, it was asked to use its contacts to 
assist the GAO in identifying individuals with the proper expertise. In 
retrospect, there are a number of shortcomings in the approach adopted 
by the GAO in carrying out its first attempt at a technology 
assessment, most notably the lack of a substantive and accountable peer 
review process, but the experiment was more successful than many 
anticipated and the GAO seems receptive to incorporating improvements 
suggested by a group commissioned to review the GAO approach (see Fri 
et al., 2002). In particular, the group identified a number of 
significant organizational challenges that it felt were necessary to 
refine the GAO approach, which could then possibly evolve into a more 
mature technology assessment capability within the legislative branch 
of government. The GAO technology assessment experiment is continuing 
at a modest scale of one to two assessments annually on selected 
topics.
---------------------------------------------------------------------------
    \13\ Since 1996 members of Congress at various times have proposed 
experiments to fill the perceived gap in science and technology advice 
in the wake of closure of the OTA, including attempts to simply 
resurrect the agency; see Jones ( 2004) and Knezo (2005). One such 
experiment that has come to pass is creation of a ``pilot'' technology 
assessment capability in the Government Accountability Office, a 
support agency of the Congress. The first such assessment (GAO, 2002), 
was released in November 2002.
---------------------------------------------------------------------------
    Whether the GAO is ultimately capable of the reforms identified by 
the independent review panel remains to be seen, but it seems fair to 
conclude that the initial GAO experiment has yielded evidence 
sufficient to continue the experiment. The NRC's modest role in this 
experiment, by convening groups of experts to talk with GAO study 
teams, appears to have been one of the successful features of this 
approach and may constitute one way in which the National Academies can 
contribute to a renewed technology assessment capability within the 
legislative branch, in addition to its more traditional response to 
congressionally mandated requests for assistance. The NRC's 
relationship with GAO also includes, more generally, a standing 
arrangement to assemble experts to talk with GAO staff on a specific 
set of technical issues relevant to ongoing GAO studies. Such a 
mechanism provides the GAO a degree of access to the National 
Academies' considerable network of technical experts.

THE FORMER OFFICE OF TECHNOLOGY ASSESSMENT

    The GAO experiment was designed to help fill the gap in science and 
technology advice for Congressional needs left by closure of OTA. By 
comparison and contrast with the NRC study process, the OTA study 
process used an authoritative committee of volunteers as an advisory 
panel rather than in the role of assuming authorship of the study 
itself. The study report was, instead, produced by professional staff 
subject to external review. On one hand, this approach permitted easier 
regulation of the role of the committee, particular if achieving a 
consensus in a broad controversial area was unlikely, but, on the other 
hand, such a practice also sacrificed the authoritativeness of the 
``best and brightest'' volunteer experts identified as authors of the 
report, an important feature of the NRC process.
    Because the former OTA panels were advisory, and not the report's 
authors, the necessity of reaching a consensus was seldom an issue. 
Indeed, OTA was prohibited in its enabling legislation from making 
recommendations, so the panel was created to try to collect the views 
of all important stakeholders rather than to try to produce consensus 
recommendations. This sometimes resulted in a frustrating experience 
for panelists serving on OTA advisory panels who were eager to offer 
specific recommendations. Instead, OTA project teams sought to analyze 
and articulate the consequences of alternative courses of action and 
elaborate on the context of a problem without coming to consensus 
recommendations on a specific course of action, which would be 
difficult anyway with a diverse group with points of view that 
prevented consensus on many controversial issues. In the later years of 
the agency's existence OTA reports included more and more specific 
findings as a carefully developed alternative to recommendations.
    If required to deliver a consensus set of recommendations, even if 
it were permitted under the enabling legislation, the former OTA model 
would likely be unworkable for controversial subjects with many 
opposing points of view. Nonetheless, the type of study undertaken by 
the former OTA was an important input to Congressional deliberation and 
it has not yet been reproduced in the Legislative Branch agencies or 
elsewhere, including the National Academies. The Academies could 
probably carry out more such studies but that would likely require some 
significant changes in its study procedures to accommodate such studies 
as indicated above and in more detail below.

OTA's Organizational Structure

    OTA operated under Congressional authorization provided in the 
Technology Assessment Act of 1972 and funds were appropriated in 1973 
to begin operations in 1974 with a handful of staff that grew to 200 in 
the later years of the agency's existence. The staff structure included 
a core permanent staff of 143 that was supplemented with temporary 
staff recruited to meet the needs of current assessments. Both 
permanent and temporary staff included professionals from many 
disciplines, over half with Ph.D.s. OTA produced on average 32 reports 
per year over its history and 51 reports per year in its last three 
years of its existence.\14\
---------------------------------------------------------------------------
    \14\ The entire collection of OTA assessments delivered during the 
agency's history (1972-1995) is preserved electronically and available 
at http://www.wws.princeton.edu/ota/ and on a CD-ROM collection (Office 
of Technology Assessment, 1996).
---------------------------------------------------------------------------
    The key organizational elements created in OTA's enabling statute 
were (1) the Technology Assessment Board (TAB) composed of members of 
both chambers of the U.S. Congress, the House of Representatives and 
Senate; (2) a Technology Assessment Advisory Council (TAAC), composed 
primarily of private citizens appointed by TAB; and (3) the Office of 
the Director, which oversaw day-to-day operations of the agency.

        <bullet>  Technology Assessment Board. TAB was the central 
        organizational element articulated in OTA's enabling statute 
        with its composition unique among the legislative support 
        agencies.\15\ TAB was a 12-member governing board of OTA, with 
        six members of the Senate and six of the House of 
        Representatives, divided equally between the two dominant U.S. 
        political parties. The principal responsibilities of TAB were 
        to appoint the Director, to authorize the initiation of 
        assessments requested by Congressional Committees, to approve 
        the budget authority associated with those assessments, and 
        finally to authorize delivery of assessment reports to 
        requesting committees and the public by certifying that OTA has 
        carried out its assessment process faithfully, i.e., that OTA 
        had considered all the relevant stakeholder interests and 
        issues and undergone extensive external review. OTA received an 
        annual budget appropriation from Congress allocated to OTA's 
        support operations and among OTA active projects as authorized 
        by TAB.
---------------------------------------------------------------------------
    \15\ During OTA's existence, there were four Congressional 
analytical support agencies: the Library of Congress's Congressional 
Research Service (CRS), the General Accounting Office (GAO) [GAO's name 
was changed to the Government Accountability Office in 2004), and the 
Congressional Budget Office (CBO). CRS, GAO, and CBO remain in 
operation today.

        <bullet>  Technology Assessment Advisory Council. TAAC was 
        essentially OTA's outside visiting committee. It was appointed 
        by TAB and met periodically to review the overall direction of 
        the agency and carry out more detailed reviews of the agency's 
---------------------------------------------------------------------------
        research programs.

        <bullet>  Office of the Director. The OTA Director was 
        responsible for day-to-day operations, hiring and management of 
        staff, interaction with TAB and TAAC, and strategic planning 
        for and organization of the agency.

OTA's Process of Technology Assessment\16\
---------------------------------------------------------------------------

    \16\ OTA's assessment process is documented widely in the 
literature, including Guston (2003), Bimber (1996), and many others.
---------------------------------------------------------------------------
    As noted above, OTA generally undertook assessments at the request 
of the Chairs of Congressional Committees. Typical OTA assessments took 
18-24 months to complete and cost on the order of $500,000 (1996 
dollars) in direct costs (although indirect costs essentially doubled 
the total cost).\17\ OTA assessments seldom offered specific 
recommendations. Rather, they articulated policy options and the 
consequences of alternative options.
---------------------------------------------------------------------------
    \17\ As noted earlier, OTA delivered on average 51 reports per year 
during the last three years of the agency's existence.
---------------------------------------------------------------------------
    A great deal of effort went into defining the scope of an 
assessment once it was requested by a Committee Chair. Since OTA 
frequently received many more requests than it could accommodate, the 
project directors often consulted with other congressional committees 
of jurisdiction and interest as well as with the TAB informally to help 
establish study priorities fairly. Once a general study scope was 
established, a proposal was prepared for formal consideration by TAB 
and, if approved, the assessment commenced. The portfolio of 
assessments addressed a broad range of subjects on the Congressional 
agenda, such as energy and environmental technology issues, 
proliferation of weapons of mass destruction, global telecommunications 
policy, biological pest control, and health care reform. The key 
elements of an assessment typically were the following:

        <bullet>  a comprehensive advisory panel of technical experts 
        and relevant stakeholders;

        <bullet>  a core OTA project team including an experienced 
        project director;

        <bullet>  contractors and consultants selected to support major 
        analytical tasks;

        <bullet>  in-house research efforts by the project team;

        <bullet>  workshops convened with additional experts and 
        stakeholders to obtain the most current information possible;

        <bullet>  extensive review and comment of draft reports by 
        external technical experts and stakeholder interests;

        <bullet>  and, finally, delivery of reports through 
        congressional hearings, briefings, and public release, and 
        often considerable follow-up consultation with requesting 
        congressional committees of jurisdiction and interest.

    OTA advisory panels were an important feature of OTA's assessment 
process. They helped refine the project scope, identified additional 
relevant resources and perspectives on the issues being addressed, and 
provided the core of extensive peer review. The advisory panel was 
central, but OTA took responsibility for the final product. The agency 
did not seek consensus from the panel because most often if there were 
a possible consensus decision or course of action, OTA probably 
wouldn't have been asked to do the study in the first place. The 
principal final product of an OTA assessment was a report, along with 
summaries, report briefs, personal briefings for members and 
committees, commercial publishers' reprints, and in the final years of 
the agency's existence electronic delivery of these products over the 
Internet and via Capitol Hill's local area network.
    At the highest level of abstraction, the OTA assessment process is 
similar to the NRC study process in that it also can also be defined in 
terms of a sequence of five major stages similar to those of the NRC 
process. However, each stage has significant differences in their 
details compared with the corresponding stages in the NRC process. The 
stages to the OTA process were the following: (1) project selection, 
(2) project planning and preparation, (3) project execution: data 
collection, analysis, and report preparation, (4) report review, 
delivery and publication, and (5) report dissemination, use and follow-
up activities.

STAGE 1: Project Selection
    OTA worked principally for the Committees of the U.S. Congress, 
and, hence, projects were generally initiated as a result of inquiries 
from Congressional committee staff ultimately resulting in formal 
letters of request from Committee Chairs and ranking members (and often 
from more than one committee of jurisdiction or interest). Projects 
could also on occasion be initiated at the request of TAB or by the OTA 
Director with TAB's approval, although such studies were rare. In 
practice, OTA staff became what former TAB Chair Senator Ted Stevens 
referred to as ``shared staff'' for standing House and Senate 
Committees and studies were often initiated as a result of ongoing 
interaction between Congressional Committee staff and OTA staff.
    A great deal of preliminary work often went into the planning for a 
new OTA assessment. Usually this work involved preliminary data 
collection and literature research, including reviewing relevant 
legislative history, congressional committee hearings and reports, and 
reports from other Congressional agencies (CBO, CRS, and GAO), all to 
help frame the issues for the project proposal and work plan. The major 
product at this stage in the assessment process was a proposal which 
first was approved internally by the OTA Director for consideration by 
TAB for review and approval. The proposal included a detailed work plan 
and budget proposal, and, if approved by TAB, resources would be set 
aside out of OTA's annual appropriation to carry out the assessment.

STAGE 2: Project Planning and Preparation
    Following TAB approval, a project team of two to six professional 
staff was appointed. Usually the project director was a permanent staff 
member with experience in prior OTA assessments supplemented with 
additional senior and junior staff members who were either permanent 
staff or rotational (temporary) staff recruited for specialized skills 
needed to carry out the assessment. Overall, the research and writing 
of OTA assessments was principally conducted by a staff of about 200, 
of which two-thirds were the professional research staff. In the early 
1990s, among the research staff, 88 percent had advanced degrees, 58 
percent with Ph.D.s, primarily in the physical, life, and social 
sciences, economics, and engineering. About 40 percent of the research 
staff were temporary appointments of professionals recruited 
specifically to staff ongoing assessments. For specific information or 
analysis, OTA also contracted with key individuals or organizations. 
Contractors analyzed data, conducted case studies, and otherwise 
provided expertise to complement staff capability.
    The project team assembled a slate of nominees for the project's 
advisory panel by defining the major stakeholder interests in the 
issues to be addressed, the important science and technology expertise 
relevant to the assessment, and other interests as necessary to capture 
a very broad range of perspectives on the study scope. The advisory 
panel slate was submitted for approval through OTA management and 
ultimately approved by the Director, often with revisions or additions 
to the originally proposed slate. The project team organized and 
commissioned the portfolio of contractor support tasks, assigned 
internal analysis tasks, information gathering workshops, and other 
activities as specified in the work plan.

STAGE 3: Execution: Data Collection Analysis and Report Preparation
    Carrying out the assessment itself was typically organized around 
meetings of the project's advisory panel. The panel's principal 
responsibility was to ensure that reports were objective, fair, and 
authoritative by helping to shape studies in the early stages by 
suggesting alternative approaches, reviewing documents throughout the 
course of the assessment, and critiquing reports at the final stages. 
The panels typically met three times during a study, initially to help 
frame the study, second as an opportunity to effect ``mid-course 
corrections'' and, finally, as the point of departure for the initial 
and perhaps most important part of peer review of the draft report.
    In addition to the advisory panel, many others assisted with OTA 
assessments through participation in technical workshops, provision of 
background information, and review of documents. Commissioned 
contractor reports, invited papers contributed to workshops, internal 
working papers prepared by professional staff, and interaction with 
parallel studies on-going in other organizations all helped shape the 
body of information considered as the staff began to prepare the 
assessment report. In all, nearly 5,000 outside panelists and workshop 
participants came to OTA annually to help OTA in its work.
    The role of contractors in an OTA assessment evolved considerably 
over the agency's history. In the early years commissioning external 
contracts were perhaps the dominant part of a study. Over the years as 
the agency's professional staff developed and became much more attuned 
to Congressional needs, contractors were used less, but were often an 
important part of an OTA assessment.

STAGE 4: Report Review Delivery and Public Release
    OTA placed a very high premium on clearly written reports that 
effectively communicated very complex topics to Congressional staff and 
the public. This involved writing reports specifically tuned to 
Congressional needs, such as language suitable for and relevant to 
broad policy discussions, extensive examples, and illustrative 
anecdotes helpful for framing policy debates. Also, as noted earlier, 
no attempt was made to develop a consensus among panel members; in 
fact, a wide diversity of views was sought. OTA retained full 
responsibility for the content and conclusions of each report. OTA 
draft assessment reports went through extensive formal review and 
revision conducted by OTA staff and outside experts. Some outside 
reviewers examined portions of the report while others the entire 
report and the total number of reviewers involved often exceeded 100 
individuals.
    Accompanying a final draft report for consideration by the Director 
was a ``response to review'' memorandum prepared by the project 
director that reviewed all comments received on the draft report and 
how they were dealt with in producing the final draft report. Upon the 
Director's approval of the final draft assessment report and its 
response-to-review, copies of the final report were sent to TAB for its 
review and authorization for publication. If approved by TAB, published 
reports were then forwarded to the requesting committee or committees, 
summaries and one-page report briefs were sent to all Members of 
Congress, and then the report was released to the public. OTA 
assessments were published by the Government Printing Office and were 
frequently reprinted by commercial publishers.

STAGE 5: Dissemination Use and Follow-up
    Upon delivery of a published OTA assessment report to sponsors and 
public release, frequently congressional hearings and briefings 
followed. Reports were disseminated widely to the relevant policy 
communities, and frequently OTA staff prepared publications based on 
the report for peer reviewed journals or other publications. OTA 
reports were often reprinted by commercial publishers (as a government-
produced document, OTA reports carried no copyright), and in the final 
years of the agency's existence electronic delivery over the Internet 
and via Capitol Hill's local area network became standard practice. 
Finally, senior OTA staff involved in the effort often became subject 
matter experts called upon frequently by congressional staff and 
members as legislative initiatives were considered in the subject area 
addressed by the assessment. As noted earlier Senator Ted Stevens often 
referred to OTA project teams as ``shared staff' experts in science and 
technology supporting congressional committee staffs where such 
expertise was often scarce.

THE NRC AND OTA STUDY PROCESSES COMPARED

    Some of the differences between the NRC and OTA study processes as 
they relate to studies requested by Congress have already been noted 
and in some ways the processes are more similar than they are different 
(see Figure 2). Both involve a carefully bounded and defined scope of 
work culminating in a formal study request, usually in the form of a 
letter or congressional legislation. In both cases the scope of work is 
formally documented with a proposal and work plan, although in the case 
of the NRC the proposal takes the form both of an internal study 
prospectus to be approved by the NRC Governing Board\18\ as well as an 
external contract proposal to formalize the funding sources with the 
sponsoring federal agencies (or sometimes other organizations). In the 
OTA case, the TAB authorized approval of expenditures for the study 
against the agency's annual appropriation. The mechanism of project 
funding is one of the fundamental differences between the two 
approaches (discussed more below), but there are many other differences 
as well.
---------------------------------------------------------------------------
    \18\ Technically, this approval is delegated by the Governing Board 
(which meets quarterly) to its Executive Committee (which meets 
monthly).
---------------------------------------------------------------------------

Role of Volunteer Committee

    The role, purpose and even composition of study committees in the 
NRC case and advisory panels in the OTA case are quite different in 
several respects, some of which were noted above. In the NRC case the 
committee assumes authorship of the report while in the OTA case the 
committee is advisory to professional staff who draft the report. The 
quality of the study in the NRC case is much more dependent upon 
quality of the committee recruited to carry it out, which explains why 
considerable effort is spent on recruiting high quality committees for 
NRC studies. Such was the case for recruiting OTA advisory panels as 
well, but the success of the study was relatively less dependent on the 
role of the advisory panel.
    The quality of the staff project team was the dominant 
consideration in the OTA case. As noted above, members serve pro bono 
on NRC committees while in the OTA case a modest honoraria for service 
by advisory panel members was occasionally provided. NRC committees are 
generally recruited with the intention of coming to a consensus 
regarding findings, conclusions, and recommendations included in the 
committee's report. In the OTA case the goal was instead to have all 
legitimate interests in the policy area under study represented on the 
advisory panel with no expectation of reaching a consensus view. 
Finally, because in the NRC case the committee assumed authorship of 
the report, elaborate institutional procedures for avoiding conflicts 
of interest are a high priority. In the OTA case, since the goal of the 
advisory committee was to include all legitimate interests, conflicts 
of interest were essentially encouraged, although carefully balanced in 
the committee composition.

Role of the Professional Staff

    As a consequence of the differing roles and structure of NRC 
committees vs. OTA advisory panels, the roles of the professional staff 
in the study process are generally quite different as well. In the NRC 
case, the principal responsibilities of the staff are to plan, organize 
and structure the study, initiate selection of the study committee 
membership, and facilitate the committee's work, including ensuring 
adherence to the policies and procedures established for NRC 
studies.\19\ However, as noted above, even though NRC committees assume 
authorship of the study report, in practice draft reports for the 
committee's critique and consensus are produced in a variety of ways, 
and frequently involve committee member drafting, committees critiquing 
drafts prepared by staff, and collaborative combinations of committee 
and staff authorship. In the OTA case the professional staff members 
planned and managed the assessment, and took responsibility for the 
report as the study authors. Finally, OTA staff were also Legislative 
Branch government employees with frequent day-to-day interaction with 
Congressional staff and Members before, during, and after completion of 
OTA assessments.
---------------------------------------------------------------------------
    \19\ In practice the degree to which the NRC staff members are 
involved in drafting a committee report varies widely. In some studies 
staff members become very actively involved in the substance of the 
committee's work while in others staff principally facilitate the 
committee's work.
---------------------------------------------------------------------------

Requests to initiate studies

    Most congressionally requested NRC studies require that the study 
be mandated in law or specified in a legislative report accompanying 
the law when passed by Congress. Otherwise it is unlikely that the 
relevant executive agency would be willing to provide the funding to 
support the study. On rare occasions, letters of request from Members 
of Congress lead to studies funded by internal resources of the 
National Academies. In the OTA case by far most studies were requested 
by Chairs and Ranking Members of standing committees of either or both 
chambers of the Congress, although studies were sometimes also mandated 
in law (although still subject to approval by TAB).

Funding of studies

    Most NRC studies are funded by executive agencies through a sole-
source (non-competitive) contract or grant or in some cases an 
individual task negotiated as part of a task order contract. Sometimes 
funds for congressionally mandated studies are provided in 
appropriations legislation. Often, though, mandated studies are 
specified in authorizing legislation or report language accompanying 
legislation and agencies may or may not choose to make funds available 
to carry out the study. In the OTA case, funds for virtually all 
studies were drawn from the agency's annual budget appropriation for 
the agency's operations and were allocated when the study proposal was 
approved by TAB.

Government Oversight of Policies and Procedures

    As an independent, private, non-profit organization, many of the 
same laws that apply to such organizations apply to the National 
Academies, especially those related to, for example, employment 
practices or contracting and financial auditing requirements. In 
addition, special additional policies apply, such as Section 15 of the 
Federal Advisory Committee Act (see Appendix A) and several 
Presidential Executive Orders\20\ applicable to the National Academies 
charter and mission. So, while there are many government oversight 
mechanisms that apply to specific individual academy policies and 
procedures, there is no direct overall oversight relationship with the 
government.
---------------------------------------------------------------------------
    \20\ The NRC was included formally under the charter of the NAS 
with a Presidential Executive order signed by Woodrow Wilson in 1918 
and reaffirmed and revised in 1956 and 1993 (see Executive Office of 
the President, 1993).
---------------------------------------------------------------------------
    By contrast, as a Congressional agency, OTA had many fewer 
operational government oversight mechanisms while the agency had three 
direct oversight mechanisms within the Congress itself. (1) TAB, which 
was ultimately responsible for managing the agency, (2) the Senate and 
House Appropriations Committees where OTA's operating budget was 
establish as part of the annual Legislative Branch appropriations 
process, and (3) standing committees of the House and Senate (Senate 
Committee on Governmental Affairs and the House Committee on Science) 
with responsibility for oversight of OTA's authorizing statute.\21\
---------------------------------------------------------------------------
    \21\ Technically, OTA's authorizing statute, the Technology 
Assessment Act of 1972 (U.S. Code, Title 2, Chapter 15, Sections 471-
481), was never repealed by Congress so the agency does not exist only 
because funds are no longer appropriated for its operations.
---------------------------------------------------------------------------

Government oversight of study scope

    As noted above the mechanism for controlling a study's scope for an 
NRC study is the contract or grant with a federal executive agency 
responsible for the funds to sponsor the study. Sometimes differences 
between congressional expectations, as articulated in the legislative 
language mandating the study, and the contract language with the 
designated executive agency can be difficult to resolve to the 
satisfaction of all concerns. In the OTA case the mechanism for 
controlling the study scope was ultimately the responsibility of TAB.

Report peer review mechanisms

    NRC reports are subjected to an independent and anonymous peer 
review process. That is, the study committee is obliged to respond to 
comments from peer reviewers whose identity is unknown to the committee 
until after the report is published. Reviewers are selected through a 
process overseen by the executive offices of the NRC's major program 
divisions and the Report Review Committee (RRC), which is a National 
Academies committee independent of all involved in preparation of the 
study report. Judgment of the adequacy of a committee's response to 
review is managed by the RRC. Typically 10-12 reviewers provide 
detailed comments on the draft report. In the OTA case, while there 
were as many as 100 reviewers engaged in reviewing parts or all of a 
draft OTA report, the reviewers were generally selected by the OTA 
project team but often supplemented with reviewers selected by senior 
OTA management. The OTA project director drafted the response to review 
subject to the approval of senior OTA management and ultimately TAB.

Nature of Reports

    As noted above, NRC reports are usually designed to yield consensus 
findings, conclusions, and recommendations from an authoritative 
committee regarding a specific course of action. OTA reports generally 
did not include specific recommendations but, rather, were designed to 
articulate the consequences of alternative options without selecting a 
preferred option, although, as noted earlier, in the later years of the 
agency's existence OTA reports included more and more specific findings 
as a carefully developed alternative to recommendations. It is perhaps 
important to note that in neither of the NRC or OTA cases is the 
intention of the study report to produce new technical understanding. 
Indeed, in both cases the intent is to collect and make understandable 
to broader audiences, particularly policy makers, established 
perspectives on the current understanding of the issue(s) under study.

Report Delivery and Dissemination

    In most cases dissemination of NRC reports is limited to delivery 
to executive agency sponsors and relevant congressional committees and 
released to the public through the National Academies Press and made 
available on the National Academies Internet site. Often the report is 
initially released in a pre-publication draft format in order to effect 
as timely as possible delivery of the information to the sponsoring 
agency and the public. The final printed report, including editorial 
but no substantive changes to the report content, follows later as 
published by the National Academies Press (NAP) and made available on 
the academy Internet site. The National Academies holds the copyright 
on the report and the NAP offers copies of most reports for sale to the 
public and all reports available without charge on the academy Internet 
site. Occasionally, the committee chair and some committee members 
participate in agency or congressional briefings of the report or 
provide testimony for congressional hearings. OTA reports, along with 
accompanying summaries and report briefs, were widely distributed upon 
public release and were available for sale through the Superintendent 
of Documents (Government Printing Office) and made available without 
charge on the agency's Internet site. OTA staff frequently provided 
congressional briefings and testimony and occasionally executive agency 
briefings as well as often preparing papers and summaries based on the 
report for the peer reviewed literature.

Follow-up Activities

    For the most part, when NRC reports are delivered to sponsors and 
publicly released, the committee's work is largely over, except for 
dissemination activities noted above. Occasionally committees are re-
convened for follow-up studies or committees are empanelled in the 
first place with the intention of producing a series of reports, such 
as an annual review of a Federal R&D program over a period of years. In 
the OTA case, initial report dissemination activities were similar to 
the NRC routine, but with much more focus on the Congressional 
audience, as one might expect. However, it was also very common for 
smaller scale follow-up background papers on topics included in the 
assessment to be requested by Congressional committees. In addition, 
OTA staff members were consulted frequently by congressional committee 
staff on an ongoing basis in areas where OTA assessments had been 
completed, often for many years following the completion of a major 
assessment.

CONCLUSIONS

    The reputation of the National Academies as a trusted source of 
advice for government on science and technology issues is due not only 
to the quality of expertise the NRC is able to involve in its work but 
also to the highly structured process guiding NRC studies that has 
evolved steadily over many years. The goal of this process, which 
includes many features of quality control and assurance relating both 
the process by which the advice is generated and the report documenting 
that advice, is to maintain balance and objectivity throughout a 
committee's work and to produce reports considered to be both unbiased 
and authoritative.
    The National Academies have enjoyed a longstanding and effective 
working relationship with Congress on even the most controversial 
issues. There are, no doubt, many characteristics of that relationship 
that could be improved, both to perform the traditional NRC role more 
effectively and to provide some opportunities to expand that role. 
However, effective science advice in the unique policy making 
environment of the Congress is a complex undertaking (see Smith and 
Stine, 2003). There are a variety of options for filling the gap in 
analysis capabilities left in the wake of the closure of OTA, some of 
which might involve the National Academies (see Morgan and Peha, 2003).
    Many features of the OTA assessment process were similar to those 
used currently by the NRC, but as outlined in this paper, there are 
fundamental differences as well. The OTA process was well suited to a 
broad policy context, paralleling that of congressional deliberation, 
where the questions involve the relationship of science and technology 
to broader economic, environmental, social and other policy issues 
where many legitimate courses of policy action are possible and any 
consensus view with all stakeholder views represented is most 
unlikely.\22\
---------------------------------------------------------------------------
    \22\ The reasons Congressional leadership gave for closing OTA in 
1995 were not so much related to the quality of the advice the agency 
provided to Congress but to the timeliness of its delivery; see Walker 
(2001) and Dawson (2001).
---------------------------------------------------------------------------
    As an example of this contrast between the two approaches 
(illustrated also by the electric utility industry case described 
earlier), consider the case of federal policy on fuel economy 
regulation of automobiles. In the early 1990s both the OTA and the NRC 
were asked to consider the subject of improving automotive fuel economy 
and, more specifically, the feasibility of increasing fuel economy 
standards to achieve better fuel efficiency in the Nation's auto fleet. 
The OTA report elaborates on the various trade-offs associated with 
raising standards versus alternative policy mechanisms for achieving 
automotive improved fuel economy (OTA, 1991). The NRC study (1992) much 
more specifically comes to conclusions regarding the technical 
feasibility of various proposed standards and provides a specific 
recommendation on a particular set of standards that, in the opinion of 
the committee, is technically feasible while having minimal or at least 
acceptable market disruption. The NRC deliverable required that a 
committee of experts reach a consensus and the recommendations are 
widely considered authoritative. The OTA study could seek consensus on 
facts and analysis (although the process did not require it because the 
panel of experts was advisory), but it did not come to a specific 
recommendations regarding the standards, partly because the agency's 
charter precluded coming to a specific recommendation in the first 
place and partly because the advisory panel was assembled with the 
broadest range of stakeholders and would likely not have been able to 
reach consensus anyway.

OTA-like Features Emerging in the NRC Study Process

    It is interesting to note that in 2002 the NRC issued a new report 
on fuel economy standards (NRC, 2002) where alternative mechanisms for 
achieving improved U.S. automotive fuel economy were addressed, moving 
in the direction of an OTA assessment, although by far the most 
referenced portions of that report remain the identification and 
evaluation of the technical potential for improving fuel economy. In 
another more recent case, the academy report, Rising Above the 
Gathering Storm: Energizing and Employing America for a Brighter 
Economic Future (NRC, 2005), is very similar in scope to an OTA 
assessment with the added benefits of a highly prestigious committee 
identified as authors of the report and very specific recommendations 
offered.
    Although not carrying the 100-year-old imprimatur of the National 
Academies, OTA's reports developed a reputation for being authoritative 
as well, but OTA's strength was more, as the late George Brown, once 
Chair of the TAB and of the House Science Committee, put it, a 
``defense against the dumb'' by elaborating on the context of an issue 
and informing the debate with careful analysis of the consequences of 
alternative courses of action without coming to a recommendation of a 
specific course of action, which often involved value judgments and 
trade-offs beyond the scope of the OTA analysis.
    As noted earlier, both types of analysis just described are 
important to congressional deliberation depending upon the 
circumstances, but with the closure of the former OTA, the latter type 
of analysis neither exists within the Congress itself nor is readily 
accessible to the Congress. The ``OTA style'' of analysis could be very 
useful for many executive agency needs as well.
    Some OTA-like features have evolved over time with NRC studies. For 
example, the IOM\23\ now increasingly hires staff for new studies who 
are recognized experts themselves in a particular area to work on 
studies and who consequently take a more active role than was the 
previous custom in drafting the committee report. This method can 
increase the already high cost of doing NRC studies, but it has the 
benefit of increasing the capacity of the study committee to assemble 
background information efficiently, both as a basis for deliberation 
and for providing background documentation for the report that would 
likely not have been included. That is, the report now has more 
information that can be used both to inform the ultimate decision of 
the sponsor and to help rationalize the recommendations of the study 
committee in a more comprehensive manner. Additional OTA-like features 
are certainly possible at the National Academies, and in some cases 
such features are already being introduced, but many internal and 
external control issues outlined in this paper would have to be 
resolved for the NRC to incorporate many features of the role OTA 
played on Capitol Hill.
---------------------------------------------------------------------------
    \23\ The IOM administers a collection of program activities that 
operate under NRC policies and procedures, although formally they are 
not part of the NRC.
---------------------------------------------------------------------------

REFERENCES

Ahearne, John F. and Peter D. Blair (2003), ``Expanded Use of the 
        National Academies,'' in Morgan and Peha (2003), Chapter 8, pp. 
        118-133 and Appendix 2, pp. 191-207.
Bimber, Bruce (1996), The Politics of Expertise in Congress: The Rise 
        and Fall of the Office of Technology Assessment, Albany, NY: 
        SUNY Press, 1996.
Blair, Peter D. (1994), ``Technology Assessment: Current Trends and the 
        Myth of a Formula,'' First Meeting of the International 
        Association of Technology Assessment and Forecasting 
        Institutions, Bergen, Norway, May 2, 1994 (available at http://
        www.wws.princeton.edu/ota/ns20/blair<INF>-</INF>f.html)
----(1997a), ``The Evolving Role of Government in Science and 
        Technology,'' The Bridge, Washington, DC: The National Academy 
        of Engineering, Vol. 27, No. 3 (Fall 1997), pp. 4-12 (available 
        at http://www.nae.edu/nae/bridgecom.nsf/weblinks/NAEW-
        4NHM9J?OpenDocument
----(1997b), ``Examining our Science and Technology Enterprise,'' 
        American Scientist, Vol. 85, No. 1 (January/February), 1997, 
        pp. 74.
Dawson, Jim, ``Legislation to Revive OTA Focuses on Science Advice to 
        Congress,'' Physics Today, Vol. 54, No. 10., October, 2001, p. 
        24 (available at http://www.aip.org/pt/vol-54/iss-10/p24.html)
Executive Office of the President (1993), Presidential Executive Order 
        12832 (George H. Bush), Amendments Relation to the National 
        Research Council, January 19, 1993, which amended Executive 
        Order 10668 (Dwight D. Eisenhower), National Research Council, 
        May 10, 1956 and Executive Order 2859 (Woodrow Wilson), 
        National Research Council, May 10, 1956 (available at http://
        www7.nationalacademies.org/ocga/PolicyDocuments.asp)
Federation of American Scientists (2004), ``Flying Blind: The Rise, 
        Fall, and Possible Resurrection of Science Policy Advice in the 
        United States,'' Occasional Paper No. 2, December, 2004 
        (available at http://www.fas.org/resource/12022004142618.pdf)
Fri, Robert W., M. Granger Morgan (Chair), William A. (Skip) Stiles 
        (2002), ``An External Evaluation of the GAO's Assessment of 
        Technologies for Border Control,'' October 18, 2002.
Government Accountability Office (2002), Technology Assessment: Using 
        Biometrics for Border Security, GAO-03-174, November 2002 
        (available at http://www.gao.gov/new.items/d03l74.pdf)
Guston, David (2003), ``Insights from the Office of Technology 
        Assessment and other Assessment Experiences,'' in Morgan and 
        Peha (2003), Chapter 4, pp. 77-89.
Hill, Christopher (1997), ``The Congressional Office of Technology 
        Assessment: A Retrospective and Prospects for the Post-OTA 
        World,'' Technological Forecasting and Social Change, Vol. 54, 
        p 191-198, 1997.
Jones, Richard M. (2004), ``House Rejects Rep. Holt Amendment to 
        Establish OTA-Capability,'' FYI: The AIP Bulletin of Science 
        Policy News, No. 116: Aug. 31, 2004 (available at http://
        www.aip.org/fyi/2004/116.html)
Knezo, Genevieve J. (2005), ``Technology Assessment in Congress: 
        History and Legislative Options,'' Congressional Research 
        Service, Order Code RS21586, May 20, 2005 (available at http://
        www.fas.org/sgp/crs/misc/RS21586.pdf)
Mooney, Chris, ``Requiem for an Office,'' Bulletin of Atomic 
        Scientists, Vol. 61, No. 5, September/October, 2005, pp. 40-49 
        (available at http://www.thebulletin.org/
        article.php?art<INF>-</INF>ofn=so05mooney)
Morgan, M. Granger and John M. Peha (eds.) (2003), Science and 
        Technology Advice for Congress, Washington, DC: RFF Press, 
        2003.
National Research Council (1991), Automotive Fuel Economy: How Far Can 
        We Go?, Washington, DC: The National Academies Press, 1991 
        (available at http://books.nap.edu/catalog/1806.html)
National Research Council (2002), Effectiveness and Impact of Corporate 
        Average Fuel Economy (CAFE) Standards, Washington, DC: The 
        National Academies Press, 2002 (available at http://
        books.nap.edu/catalog/10172.html)
National Research Council (2003), Policy and Procedures on Committee 
        Composition and Balance and Conflicts of Interest for 
        Committees Used in the Development of Reports, May, 2003 
        (available at http://www.nationalacademies.org/coi/index.html)
National Research Council (2005), Rising Above the Gathering Storm: 
        Energizing and Employing America for a Brighter Economic 
        Future, Washington, DC: The National Academies Press, 2005 
        (available at http://books.nap.edu/catalog/11463.html)
Office of Technology Assessment (1991), Improving Automobile Fuel 
        Economy: New Standards, New Approaches, OTA-E-504, NTIS order 
        #PB92-115989, 1991 (available at http://www.wws.princeton.edu/
        ota/ns20/year<INF>-</INF>f.html)
Office of Technology Assessment (1996), OTA Legacy, CD-ROM Collection 
        (Vols. 1-5), GPO Stock No. 052-003-01457-2, Washington, DC: 
        U.S. Govt. Printing Office, 1996 (available also at http://
        www.wws.princeton.edu/ota/)
Smith, Bruce L.R., and Jeffrey K. Stine (2003), ``Technical Advice for 
        Congress: Past Trends and Present Obstacles,'' in Morgan and 
        Peha (2003), Chapter 2, pp. 23-52.
The National Academy of Sciences (2005), The National Academies In 
        Focus, published three times annually (available at http://
        www.infocusmagazine.org/)
The National Academies (1997), Guidelines for the Review of National 
        Research Council Reports, Report Review Committee, December 
        1997.
The National Academies (1998), The National Academies: A Unique 
        National Resource, Office of News and Public Information, 1998.
The National Academies (2000), Roles of the Committee Chair, 2000 
        (available at http://www7.nationalacademies.org/
        committees<INF>-</INF>chair<INF>-</INF>roles/index.html)
The National Academies (2004), 2004 Report to Congress, 2004 (available 
        at http://www.nationalacademies.org/annualreport/)
The National Academies (2005 a), The National Academies Study Process: 
        Ensuring Independent, Objective Advice, 2005 (available at 
        http://www.nationalacademies.org/studyprocess/index.html)
The National Academies (2005b), Getting to Know the Committee Process, 
        Office of News and Public Information, 2005.
The National Academies (2005c), Making a Difference: Selected Studies 
        from The National Academies, 2005 (available at http://
        www.nationalacademies.org/publications/
        Making<INF>-</INF>A<INF>-</INF>Difference.pdf)
The National Academy Press (2002), Complete Catalog of Books and 
        Periodicals, 2002. (NRC reports are now indexed and available 
        online at http://www.nationalacademies.org or http://
        www.nap.edu)
U.S. Office of Management and Budget (2005), Final Information Quality 
        Bulletin for Peer Review, December 16, 2006 (available at 
        http://www.whitehouse.gov/omb/memoranda/fy2005/m05-03.pdf)
Walker, Robert S. (2001), ``OTA Reconsidered,'' Issues in Science and 
        Technology, Spring, Vol. 17, No. 3, 2001 (available at http://
        www.issues.org/issues/17.3/forum.htm)
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
APPENDIX A:

      Section 15 as amended of the Federal Advisory Committee Act

    (Public Law 105-153, 105th Congress, Approved December 17, 1997)
(a) IN GENERAL.--An agency may not use any advice or recommendation 
provided by the National Academy of Sciences or National Academy of 
Public Administration that was developed by use of a committee created 
by that academy under an agreement with an agency, unless--

         (1) the committee was not subject to any actual management or 
        control by an agency or an officer of the Federal Government;

         (2) in the case of a committee created after the date of 
        enactment of the Federal Advisory Committee Act Amendments of 
        1997, the membership of the committee was appointed in 
        accordance with the requirements described in subsection 
        (b)(1); and

         (3) in developing the advice or recommendation, the academy 
        complied with--

                 (A) subsection (b)(2) through (6), in the case of any 
                advice or recommendation provided by the National 
                Academy of Sciences; or

                 (B) subsection (b)(2) and (5), in the case of any 
                advice or recommendation provided by the National 
                Academy of Public Administration.

(b) REQUIREMENTS--The requirements referred to in subsection (a) are as 
follows:

         (1) The Academy shall determine and provide public notice of 
        the names and brief biographies of individuals that the Academy 
        appoints or intends to appoint to serve on the committee. The 
        Academy shall determine and provide a reasonable opportunity 
        for the public to comment on such appointments before they are 
        made or, if the Academy determines such prior comment is not 
        practicable, in the period immediately following the 
        appointments. The Academy shall make its best efforts to ensure 
        that (A) no individual appointed to serve on the committee has 
        a conflict of interest that is relevant to the functions to be 
        performed, unless such conflict is promptly and publicly 
        disclosed and the Academy determines that the conflict is 
        unavoidable, (B) the committee membership is fairly balanced as 
        determined by the Academy to be appropriate for the functions 
        to be performed, and (C) the final report of the Academy will 
        be the result of the Academy's independent judgment. The 
        Academy shall require that individuals that the Academy 
        appoints or intends to appoint to serve on the committee inform 
        the Academy of the individual's conflicts of interest that are 
        relevant to the functions to be performed.

         (2) The Academy shall determine and provide public notice of 
        committee meetings that will be open to the public.

         (3) The Academy shall ensure that meetings of the committee to 
        gather data from individuals who are not officials, agents, or 
        employees of the Academy are open to the public, unless the 
        Academy determines that a meeting would disclose matters 
        described in section 552(b) of title 5, United States Code. The 
        Academy shall make available to the public, at reasonable 
        charge if appropriate, written materials presented to the 
        committee by individuals who are not officials, agents, or 
        employees of the Academy, unless the Academy determines that 
        making material available would disclose matters described in 
        that section.

         (4) The Academy shall make available to the public as soon as 
        practicable, at reasonable charge if appropriate, a brief 
        summary of any committee meeting that is not a data gathering 
        meeting, unless the Academy determines that the summary would 
        disclose matters described in section 552(b) of title 5, United 
        States Code. The summary shall identify the committee members 
        present, the topics discussed, materials made available to the 
        committee, and such other matters that the Academy determines 
        should be included.

         (5) The Academy shall make available to the public its final 
        report, at reasonable charge if appropriate, unless the Academy 
        determines that the report would disclose matters described in 
        section 552(b) of title 5, United States Code. If the Academy 
        determines that the report would disclose matters described in 
        that section, the Academy shall make public an abbreviated 
        version of the report that does not disclose those matters.

         (6) After publication of the final report, the Academy shall 
        make publicly available the names of the principal reviewers 
        who reviewed the report in draft form and who are not 
        officials, agents, or employees of the Academy.

(c) REGULATIONS--The Administrator of General Services may issue 
regulations implementing this section.

    Note on Prior Provisions: A prior section 15 of the Federal 
Advisory Committee Act was renumbered section 16 by Pub. L. 105-153.

Accompanying Legislative Report

    Section 3 of Pub. L. 105-153 provided that: ``Not later than one 
year after the date of the enactment of this Act [Dec. 17, 1997], the 
Administrator of General Services shall submit a report to the Congress 
on the implementation of and compliance with the amendments made by 
this Act [enacting this section, amending section 3 of Pub. L. 92-463, 
set out in this Appendix, and redesignating former section 15 of Pub. 
L. 92-463, set out in this Appendix, as section 16].''

                                   

</pre></body></html>
